<html>
<title> - RETALIATION AT THE DEPARTMENTS OF DEFENSE AND ENERGY: DO ADVOCATES OF TIGHTER SECURITY FOR U.S. TECHNOLOGY FACE INTIMIDATION?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 RETALIATION AT THE DEPARTMENTS OF DEFENSE AND ENERGY: DO ADVOCATES OF 
        TIGHTER SECURITY FOR U.S. TECHNOLOGY FACE INTIMIDATION?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 1999

                               __________

                           Serial No. 106-74

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
62-262                     WASHINGTON : 2000



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 1999....................................     1
Statement of:
    McCallum, Lt. Col. Edward, Director of the Office of 
      Safeguards and Security, U.S. Department of Energy, 
      accompanied by William L. Bransford, Esq., Shaw, Bransford, 
      Veilleux & Roth, Washington, DC; Peter Leitner, Senior 
      Strategic Trade Adviser, Defense Threat Reduction Agency; 
      Michael Maloof, Chief of Technology Security Operations, 
      Defense Threat Reduction Agency; and Jonathan Fox, Esq., 
      Arms Control Specialist, Defense Special Weapons Agency....    53
    Weldon, Hon. Curt, a Representative in Congress from the 
      State of Pennsylvania......................................    25
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Letter dated May 28, 1999................................   167
        Prepared statement of....................................     6
    Fox, Jonathan, Esq., Arms Control Specialist, Defense Special 
      Weapons Agency, prepared statement of......................   137
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, examples of security incidents........   205
    Leitner, Peter, Senior Strategic Trade Adviser, Defense 
      Threat Reduction Agency, prepared statement of.............    78
    Maloof, Michael, Chief of Technology Security Operations, 
      Defense Threat Reduction Agency, prepared statement of.....   123
    McCallum, Lt. Col. Edward, Director of the Office of 
      Safeguards and Security, U.S. Department of Energy, 
      prepared statement of......................................    60
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Memo from Johnathan Fox..................................   142
        Memo from Dr. Leitner....................................   197
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Information concerning part of the Cox report............   209
        Letter dated May 25, 1999................................   182
    Weldon, Hon. Curt, a Representative in Congress from the 
      State of Pennsylvania:
        E-mail from Mr. Trulock..................................    42
        Information concerning part of the Cox report............    44
        Prepared statement of....................................    35

 
 RETALIATION AT THE DEPARTMENTS OF DEFENSE AND ENERGY: DO ADVOCATES OF 
        TIGHTER SECURITY FOR U.S. TECHNOLOGY FACE INTIMIDATION?

                              ----------                              


                        THURSDAY, JUNE 24, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Shays, 
Ros-Lehtinen, McHugh, Horn, Davis of Virginia, McIntosh, 
Souder, Scarborough, LaTourette, Barr, Miller, Terry, Biggert, 
Ose, Ryan, Chenoweth, Waxman, Lantos, Wise, Owens, Mink, 
Maloney, Norton, Cummings, Kucinich, Tierney, Ford, and 
Schakowsky.
    Staff present: Kevin Binger, staff director; Barbara 
Comstock, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Corinne Zaccagnini, systems administrator; 
Carla J. Martin, chief clerk; Lisa Smith Arafune, deputy chief 
clerk; Scott Feeney, professional staff member; James Wilson, 
chief investigative counsel; Michelle White, counsel; Phil 
Schiliro, minority staff director; Phil Barnett, minority chief 
counsel; Kenneth Ballen, minority chief investigative counsel; 
Michael Raphael, Michael Yang, and Michael Yeager, minority 
counsels; Ellen Rayner, minority chief clerk; Earley Green, 
minority staff assistant; and Andrew Su, minority research 
assistant.
    Mr. Burton. Good morning. A quorum being present, the 
committee will come to order. Over the past 2\1/2\ years, this 
committee has focused a lot on the People's Republic of China. 
We have looked long and hard at millions of dollars in illegal 
contributions that flowed from China to the Democratic National 
Committee. One month ago we heard Johnny Chung testify that the 
head of the Chinese military intelligence agency gave him 
$300,000, which he said could be given to the President's 
campaign, and we heard testimony that others were involved. If 
anyone ever had any doubts, it has now become crystal clear 
that there was a Chinese Government plan to illegally influence 
our elections.
    This is a very serious issue. We have received no 
cooperation whatsoever from the Chinese Government. We asked 
them to let us travel to China to interview witnesses. They 
turned us down flat. They told us they would arrest us if we 
came over to China. We asked them to give us bank records from 
the Bank of China to show where the money came from. They gave 
us nothing. We asked the Clinton administration to help us 
through diplomatic channels, but they haven't lifted a finger. 
The President has had three summit meetings with Chinese 
leaders over the past 2 years, and he has yet to put any 
pressure on them to explain what they did.
    But this isn't the only issue that we have with China. We 
have some very difficult national security problems as well. A 
few weeks ago, the Cox committee report came out. It revealed 
for the first time how extensive China's espionage has been 
against our nuclear weapons labs. China's thirst for our 
technology is not limited to nuclear bombs. They have also 
engaged in a massive effort to acquire sophisticated U.S. 
technology to modernize their military, everything from 
supercomputers to milling machines to aircraft technology. 
Sometimes they do it in an above the board manner; just as 
often they do it illegally through front companies and with 
phony end users.
    It is pretty obvious that China has taken a very 
adversarial approach toward the United States. The question now 
is, what have we done about it? Unfortunately, when you look 
behind all of the spin and the PR, the answer is, not very 
much.
    Today we have three witnesses from the Department of 
Defense and two from the Department of Energy. They have 
several things in common. First, they are all career civil 
servants. They are not political appointees. Second, they have 
all served across more than one administration, both Republican 
and Democrat. Third, they have all worked very hard to try to 
safeguard sensitive U.S. technology from foreign adversaries or 
potential adversaries.
    Fourth, they have all had to fight with entrenched 
bureaucracies to do their jobs. Finally, they have all suffered 
retaliation and damage to their careers for trying to do the 
right thing.
    Two of our witnesses, who brought serious problems in their 
agencies to light, have been accused of violating security 
rules. In my opinion, this appears to be harassment, pure and 
simple. One of them is Lt. Colonel Edward McCallum of the 
Energy Department. Colonel McCallum is the Director of the 
Office of Safeguards and Security. He is in charge of security 
at all of the Energy Department's nuclear facilities. He has 
held that position for 10 years. He has worked on security 
within the Department of Energy for over 20 years. He is a 
decorated Vietnam war veteran.
    I think the record will show that nobody has fought harder 
to try to improve security at the Department of Energy labs 
than Colonel McCallum. He has written report after report 
pointing out the weaknesses. Year after year, he has fought 
internal battles to try to fix the problems. During the Bush 
administration there were security problems. Colonel McCallum 
testified before the Dingell committee in 1989. He criticized 
the Department. After he testified, he was called into the 
Under Secretary's office. Was he punished? Was he threatened? 
No. They put him in charge of the Safeguards and Security 
Office and told him to fix the problems that he brought up. He 
was told to meet with the Under Secretary every week to keep 
him up-to-date. There was still bureaucratic resistance, but at 
least he was getting high level support.
    During the Clinton administration, things changed. 
Secretary O'Leary decided to open up the labs and make them 
more accessible. The number of foreign visitors doubled. 
Security then took a back seat. Colonel McCallum's office lost 
any semblance of control over foreign scientists at the labs. 
Secretary O'Leary placed a new level of bureaucracy between 
McCallum's office and the high level decisionmakers he used to 
report to. According to Colonel McCallum, his relationship with 
upper management became adversarial.
    On April 16, Colonel McCallum was invited to testify before 
the Rudman Commission about the problems at the labs. Three 
days later, he was handed a memo by the Assistant Secretary of 
Energy putting him on administrative leave. She accused him of 
disclosing classified information, which is a devastating 
accusation when you have to work with classified information 
every day. It is a career ender.
    Now I am not going to get into the substance of what he is 
accused of disclosing. I am going to ask other Members to do 
the same thing. Until this dispute is resolved, I think it 
would be prudent to stay away from the substance of the issue. 
However, in my view, this smells rotten.
    This looks like retaliation against someone who has been a 
tough critic of the Department for years. I want to just list a 
few reasons why this looks so fishy to me.
    First, there is a long history at the Energy Department of 
retaliating against whistleblowers by threatening their 
security clearances. John Dingell, when he was chairman, held a 
number of hearings on this when he was the chairman of the 
Commerce Committee. Let me quote you what he said way back in 
1984 on this very subject. This is Chairman Dingell speaking.

    This is an insidious time of harassment because it 
threatens the very livelihood of an employee. It also dampens 
the will of the employee to be honest with their supervisors 
and to be honest with the Congress of the United States. It is 
clear that without a Q clearance, you are out of a job in 
defense programs at the Department of Energy.

    Second, if someone is suspected of revealing classified 
information, there is a procedure that has to be followed. It 
must be followed. It is spelled out in great detail in the Code 
of Federal Regulations. The employee has a right to a hearing. 
He has a right to a lawyer and to present evidence. The 
Department would not do this. They broke their own rules, so 
Colonel McCallum could not get a fair hearing.
    Third, the first thing the Department is supposed to do is 
ask the Office of Classification to review the material and 
determine whether it is classified or not. Again, they did not 
do this.
    Fourth, we asked the Department of Energy to cooperate with 
us as we looked into this. They haven't. We asked to meet with 
the two people who met with Colonel McCallum and put him on 
administrative leave. The Secretary has refused to let them 
meet with us. We sent them a subpoena for documents. It was due 
over a week ago. They have not complied. This is unacceptable. 
Although the Secretary of Energy is a friend of many of us in 
Congress, I am seriously considering moving a contempt citation 
against him if we don't get the documents we asked for and to 
which we are legally entitled.
    One of the things I have learned is that when people refuse 
to cooperate with a congressional investigation, there is 
usually a reason, and it is usually not a good one. I find this 
all very disturbing. This is a Department that left Wen Ho Lee 
on his job with his security clearance for 18 months, after the 
FBI said there was no reason to do so. But Colonel McCallum has 
been fighting for tougher security for years, and he is getting 
pushed out of his job without so much as a hearing. We are 
going to hear from Colonel McCallum today and we are going to 
continue to try to get to the bottom of this.
    We also are going to hear from three witnesses from the 
Defense Department. They have been involved in the review of 
export licenses for dual-use technologies; that is, 
technologies that are controlled because they have a military 
use as well as civilian use. They are not political appointees. 
They are career civil servants. They are nonpartisan experts in 
their fields. They will each testify that they have tried to 
stop the export of sensitive technology to Communist China and 
other countries. They will describe how they have been run over 
rough-shod by a system geared to get licenses approved with as 
little opposition as possible.
    Dr. Peter Leitner is one of these experts. Dr. Leitner will 
testify that he opposed the export of sophisticated computers 
to India that they could use in their nuclear program. He was 
overruled. He opposed the export of aircraft engines to 
Communist China, engines that could be modified for using in 
their Silkworm missiles. He was overruled. He opposed the sale 
of machine tools from a McDonnell Douglas plant to China 
because he was afraid they would be diverted to a military 
facility. He was overruled. He learned later that the machine 
tools did wind up in a military facility. There is now a 
criminal investigation under way regarding that.
    According to Dr. Leitner, every time he opposed a license, 
his bosses grew more and more frustrated with him. Then earlier 
this year, he too was accused of a security violation under 
very questionable circumstances. Does this sound familiar? Dr. 
Leitner has filed a whistleblower complaint to defend his 
reputation.
    One of Dr. Leitner's colleagues will also testify. Michael 
Maloof also has been swimming against the tide trying to stop 
sensitive technology exports to Communist China. His career has 
also suffered. We will also hear from Jonathan Fox. He is an 
attorney in the Defense Special Weapons Agency. He was asked to 
write a position paper on whether China should be certified as 
a nuclear nonproliferator. That means not giving nuclear 
weaponry to other countries. This decision had important 
consequences. If China was certified, they would be eligible to 
receive civilian technology from the United States, technology 
that also had military uses.
    There was also a lot of pressure because this was happening 
1 week before the President's first summit meeting with Chinese 
President Jiang Zemin. Mr. Fox is an expert in this area. He 
certified that China is a nuclear proliferator, giving weapons 
to other countries. He wrote a memo that said they were giving 
these weapons to other countries. He was forced to rewrite his 
memo under duress to say just the opposite. He testified that 
he felt his job was threatened. I want to have a copy of the 
memo put up on the screen, because I think it is important that 
my colleagues see what happened.
    You will note in the margins some handwritten notes which 
directed him about what things to take out of that memo so that 
it would look like China was not involved in the proliferation 
of nuclear weapons. You can see there the big line drawn 
through it. The material that was slashed out showed very 
clearly that China was involved in the proliferation of nuclear 
weaponry.
    Now, the facts are the facts. If China is a proliferator, 
then no one in the civil service should be told they have to 
write a position paper saying that they are not. There is 
absolutely no reason for Congress to pass a law requiring the 
administration to make a certification if they are going to 
just ignore the facts. If experts in their fields are going to 
have their careers threatened for telling the truth, then there 
is something seriously wrong. That is what we are here to find 
out about.
    We are going to have one final witness from the Energy 
Department, Mr. Robert Henson. We are going to hear him in 
closed session at the end of the hearing because of some 
security concerns. But, again, he is another witness who 
believes that he was punished because of what he said.
    There are two very serious things going wrong here. First, 
experts in their fields are being ignored on some very serious 
issues and our national security is being threatened as a 
result.
    Second, the experts who are fighting to do the right thing 
are being punished for their efforts to try to protect this 
country. These five people who are going to testify today are 
risking a lot. They are already unpopular at their agencies. 
Their careers have already suffered. I am going to be watching 
what happens after this hearing very closely. If there is even 
a hint of retaliation because they came here today and told the 
truth, this committee will not stand idly by. People will get 
subpoenas, they will be called before the committee, and they 
will be put under oath to explain if there was any retaliation 
and why it happened.
    People who have followed this committee's work know I have 
not been shy about issuing subpoenas in the past and I shall 
not be in the future. What we are talking about here is 
defending ourselves against Chinese espionage and stopping the 
transfer of military technology to a Communist regime that is 
very unpredictable. We don't know what the future holds, so 
that is why this is important. I won't stand for people being 
punished and intimidated for coming before the committee and 
telling us what they know.
    I ask unanimous consent that all Members and witnesses' 
opening statements be included in the record. Without 
objection, so ordered. I ask unanimous consent that questioning 
in this matter proceed under clause 2(j)(2) of House rule XI 
and committee rule XIV in which the chairman and ranking 
minority member allocate time to Members as they deem 
appropriate for extended questioning, not to exceed 60 minutes, 
equally divided between the majority and minority.
    Without objection, so ordered.
    With that, I yield to my colleague from California, Mr. 
Waxman.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.001
    
    [GRAPHIC] [TIFF OMITTED] T2262.002
    
    [GRAPHIC] [TIFF OMITTED] T2262.003
    
    [GRAPHIC] [TIFF OMITTED] T2262.004
    
    [GRAPHIC] [TIFF OMITTED] T2262.005
    
    [GRAPHIC] [TIFF OMITTED] T2262.006
    
    [GRAPHIC] [TIFF OMITTED] T2262.007
    
    [GRAPHIC] [TIFF OMITTED] T2262.008
    
    [GRAPHIC] [TIFF OMITTED] T2262.009
    
    [GRAPHIC] [TIFF OMITTED] T2262.010
    
    [GRAPHIC] [TIFF OMITTED] T2262.011
    
    [GRAPHIC] [TIFF OMITTED] T2262.012
    
    [GRAPHIC] [TIFF OMITTED] T2262.013
    
    [GRAPHIC] [TIFF OMITTED] T2262.014
    
    [GRAPHIC] [TIFF OMITTED] T2262.015
    
    [GRAPHIC] [TIFF OMITTED] T2262.016
    
    [GRAPHIC] [TIFF OMITTED] T2262.017
    
    [GRAPHIC] [TIFF OMITTED] T2262.018
    
    Mr. Waxman. Thank you very much, Mr. Chairman. I have 
especially strong feelings about the rights and proper 
treatment of whistleblowers. Government and corporate 
whistleblowers are often courageous individuals who risk 
everything they have, simply because they want to do the right 
thing, and they have been responsible for providing key 
information in many important recent investigations. We have a 
responsibility to protect these brave men and women.
    There have been, of course, whistleblowers who amounted to 
little more than malcontents, cranks, or employees who were 
incapable of doing a competent job. In other cases, the 
seemingly scandalous story a whistleblower initially tells 
turns out not to involve corruption or cover-ups, but simply an 
honest policy disagreement between subordinate and supervisor. 
Since reputations can instantly be destroyed in these fights, 
most Members of Congress tend to be very careful in these 
situations and painstakingly sort through all the facts before 
reaching conclusions.
    I think Members of Congress should be especially sensitive 
to the details in these cases, because we all inevitably face 
situations in which we disagree with our staff's 
recommendations. We have all had to choose between our staffs' 
conflicting recommendations. I recall many circumstances where 
I have had staff people come in, argue opposing points of view, 
and I have to make a judgment. I wouldn't want those with whom 
I eventually disagreed to then go out and say that there was 
some wrong motive on my part because I disagreed with them.
    In all of these cases, it would be easy for one disgruntled 
staff member to accuse any of us of making a decision for the 
wrong reasons and for our integrity to be questioned.
    So our job today is to sift through the testimony we 
receive and reserve judgment until we have all of the facts.
    I do want to note, however, that based on what I know so 
far, I am particularly troubled by the treatment Mr. McCallum 
has received. If it turns out that he or any of the other 
witnesses have been the target of retaliation intended to 
intimidate them from doing their job competently and honestly, 
I will ask the chairman to join me in putting an immediate stop 
to those tactics and to take whatever steps are necessary to 
make sure it doesn't happen to others.
    I want to welcome our witnesses to the committee. I look 
forward to listening to their testimony. Thank you, Mr. 
Chairman. I yield back my time.
    Mr. Burton. Thank you, Mr. Waxman. I would ask any other 
Members that have opening statements to put them in the record, 
with the exception of the chairman of the International 
Relations Committee, who has a brief statement.
    Mr. Gilman. Mr. Chairman, I want to thank you for holding 
this timely hearing today dealing with both the reluctance of 
the Department of Defense and the Department of Energy, to hear 
the truth from career professionals about possible nuclear 
espionage and current concerns about the lax security in their 
procedures. I am gratified and saddened by the report of the 
Cox Select Committee on United States National Security and 
Military Commercial Concerns with the People's Republic of 
China and the courage of our Nation's career professionals 
working at both the Departments of Defense and Energy.
    The advances in nuclear weapons and ballistic missiles that 
China will reap from their acquisition of American science and 
technology directly undermines our fundamental national 
security. Regrettably, the administration's response to this 
threat to our national interest has been at best anemic. The 
Congress has a great deal of work to do to rectify those 
problems that have been identified by the Cox committee.
    Moreover, we are extremely concerned with the retaliation 
which has been allowed to take place in both the Departments of 
Defense and Energy upon our career professionals. If it were 
not for these professionals, we may never have known the truth 
about nuclear espionage and the current lax security that still 
exists today.
    I look forward to working with our colleagues on this 
committee and with the gentleman from Pennsylvania, Mr. Weldon, 
on legislation to protect our career professionals, working to 
protect our Nation's national security. Hopefully the 
administration will fully cooperate with the Congress in 
addressing this most distressing and regrettable chapter in our 
Nation's history.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Chairman. We will now ask our 
first witness, Representative Curt Weldon, who served on the 
Cox committee and who has done yeoman's service for this 
country, to come forward. Congressman Weldon, we appreciate 
your hard work, your diligence, and your concern about our 
national security. We welcome you here today. You are 
recognized for an opening statement.

  STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Weldon. Thank you, Mr. Chairman. I would ask unanimous 
consent to put my statement in the record.
    Mr. Burton. Without objection, so ordered.
    Mr. Weldon. I would just like to speak to my colleagues and 
friends from the heart, because I have been involved with each 
of the cases you are going to hear today in one way or another 
over the past several years. I think it is most important that 
I convey to you in a very personal way my concerns.
    I appreciate the comments of the distinguished ranking 
member, Mr. Waxman. I know his integrity, and I share his 
concerns that before we draw conclusions we should get to the 
bottom of each individual case and see what the true facts are. 
I share that sentiment totally.
    Mr. Chairman, let me say at the outset that I have been in 
Congress for 13 years and have served on the National Security 
and Armed Services Committee. It has been an area I have tried 
to specialize in. Defense and security in this Congress has 
been and is a bipartisan issue. I am proud of the fact that in 
the 5 years I have chaired one of the two most aggressive 
National Security subcommittees, Military Research and 
Development--with 28 Members of Congress, we have never had a 
dissenting vote in 5 years. I take great pride in the fact that 
when we do things on security issues, they are bipartisan. We 
look at these issues in a way of working together.
    As you will hear me explain today, two of the cases you are 
going to be confronted with are in fact being worked in a 
bipartisan way by Members of both parties. These issues are 
serious issues and they reflect national security concerns and 
must be looked at.
    I want to make one other comment, Mr. Chairman. The whole 
issue of whistleblowers coming forward is not new. It is not 
something that just suddenly arose in the past several years. I 
can remember in the first several terms that I served in 
Congress, there were people in the Pentagon who came to us both 
quietly and before congressional committeess to tell us about 
illegal expenditures, inappropriate activities, and 
investigations that were not properly dealt with. That was as 
serious then as it is today. So this hearing should not be 
looked at as something that just occurred.
    This an issue that needs to be dealt with. You are going to 
hear stories today from the witnesses and others that I will 
discuss that involve people with classified status. I want you 
to keep in mind the protections available to employees of the 
Federal Government who are not in classified status, are not 
necessarily available to those employees who serve in a 
classified position. That is extremely unfortunate. I would ask 
this committee, because it is your oversight, to look at ways 
that we can protect these employees.
    The stories you are about to hear I think are from great 
Americans. They are from people who are dedicated 
professionals. I don't know whether they are Democrats or 
Republicans or even registered. But I know the quality of their 
work. In fact, in my job as the chairman of the Subcommittee on 
Military Research and Development where I have to be able to 
assess the emerging threats to us, and then allocate where the 
dollars are going to meet those future threats. We work in a 
bipartisan way with the professionals in the CIA, the DIA, DOE 
intelligence, the NSA and all the other security operations to 
make sure that we are getting the best information to be able 
to assess accurately whether or not we are putting dollars in 
the right place, whether the emerging threats are in fact where 
we are putting the dollars we have. That is especially 
important in this day and age when defense dollars are 
shrinking so rapidly. So it is critically important that we 
understand that people need to be able to give us honest, 
professional assessments without fear of retaliation, without 
feeling that their examination and professional judgments must 
fit with some predetermined policy conclusion. I don't care 
whether that policy conclusion is from a Republican President 
or a Democrat President. Unfortunately, you are going to hear 
some stories today, and some others I am going to ask you to 
followup on, that I think present some very real challenges for 
us. We need to understand the concerns that people have.
    You are only seeing the tip of the iceberg. I will give you 
the outline of perhaps 8 or 10 cases. I can tell you there are 
scores more. I will tell you of some of the attempts that we 
made on the Cox committee to talk to other employees with 
similar concerns. As you know, I also served as one of the nine 
members of the Cox committee, another totally bipartisan 
effort. We worked hard. The Democrat members who worked on that 
committee were absolutely totally effective, equally effective 
to the Republicans, because national security was at stake. But 
there were some concerns raised during our investigation that 
you need to be aware of, that we couldn't deal with in the Cox 
committee that this committee perhaps can deal with.
    Let me just go through several of the examples, Mr. 
Chairman, before you call up your expert witnesses.
    I want to talk first of all about how this whole process 
came about. Five years ago, when I took over the R&D 
subcommittee, I felt we would work in a strong bipartisan way 
to assess emerging threats. I involved my ranking members, Owen 
Pickett and John Spratt, in every meeting, threat assessment 
briefing we had. A couple of patterns started emerging relative 
to Russia, and the threats that we saw increasing in Russia 
because of the instability within Russia.
    I came to meet a DOE career employee whose name is Jay 
Stewart. Jay is in the audience today, Mr. Chairman. He is not 
a witness, but he will make himself available to come in. His 
career has been basically, I don't know whether he will agree 
with this, but I think ruined because of simply doing his job.
    Now, Jay served as a professional in the Department of 
Energy intelligence operation for 16 years. He was given the 
highest award that is given by this Government to a career 
intelligence employee, the highest award. He was recognized for 
his expertise as a foreign intelligence officer in assessing 
the stability of Russia's nuclear stockpile, of assessing 
Russia's nuclear program, and whether or not the internal 
turmoil in Russia should cause us to be concerned because that 
increasing threat might eventually be used against us or that 
technology might be transferred to a rogue state or a nation 
that perhaps is not necessarily a friend of ours.
    Jay headed up a program called Russian Fission. In December 
1992, he led a classified conference on this subject matter 
which was widely attended by military intelligence and policy 
communities. In fact, when Hazel O'Leary came in in 1993, he 
briefed her in February. He was asked then to go over to NATO 
and to personally brief the Secretary General of NATO, Manfred 
Woerner, which he did. Manfred Woerner was so concerned, but 
impressed, with what Jay's briefing was about, that he sent a 
classified cable back to the State Department which this 
committee can access. It is available, I will give you the 
citation, which shows Manfred Woerner's concern as the head of 
NATO about what Jay Stewart's operation was telling him.
    A short time after Jay briefed Manfred Woerner, he was 
approached by a new appointed Director of DOE's Office of 
Intelligence and Arms Control, Jack Keliher. This was a 
political appointee. All papers, briefings, agendas, conference 
video and audiotapes from that conference involving Jim 
Schlesinger and intelligence agents from the CIA, DIA, and 
intelligence community were seized, locked up, and shredded. We 
have the name of the person who shredded them, who said that 
publicly. Keliher said the Secretary told him, the program 
Russian Fission was ``politically sensitive'' and could 
``embarrass the President.'' He further went on to say, ``If 
any materials from the National Defense University Conference 
which Jay Stewart ran were ever leaked to the press, somebody 
would be fired.'' He then said Jay Stewart's work was ``ill 
informed,'' contained ``inaccurate assumptions and 
conclusions,'' and could not be referred to because it ``gave 
the wrong impression of the situation in Russia.''
    That may be the case, as Mr. Waxman said, but somebody 
needs to look at why Jay Stewart's materials were shredded, why 
information relative to this classified conference were 
basically taken away so that a proper analysis could not occur.
    Jay was an outstanding career employee of Energy. He 
eventually lost his job, he was shifted over, in spite of 
having been given the National Intelligence Meritorious Unit 
Citation, the Presidential Meritorious Executive Rank Award, 
and ultimately the National Intelligence Distinguished Service 
Medal, the highest award an intelligence officer serving this 
country can get.
    I tried to get an Armed Services investigation of this 
several years ago when Jay first approached me. Unfortunately, 
the Department of Energy found out about that, in my own 
opinion and in comments brought to me by some employees. There 
was a meeting within DOE to kind of circle the wagons and get a 
uniform response, which may have been the correct response, I 
don't know that. I can tell you three brave DOE employees, and 
I will give you their names, who corroborated everything Jay 
Stewart said.
    If you have read the book ``One Point Safe'' by Andrew and 
Leslie Cockburn, one of the chapters in there documents the 
work by Jessica Stern, one of our key nuclear experts in this 
administration and previous administrations. She too documents 
what Jay Stewart has said.
    Mr. Chairman, someone needs to get to the bottom of the Jay 
Stewart case. I want to publicly acknowledge Jay Stewart. He is 
in the back of this room, if any of you would like to meet him. 
He is not testifying today because your focus is on China, I 
understand that, but I would ask you to followup on Jay's case 
because it is something worthy of consideration by this 
committee.
    I followed up in my own committee by having Russians come 
in. I first of all had Brookings scholar Bruce Blair. I had a 
leading Russian environmental activist, Alexi Yablokov, a 
personal friend of mine, testify in Congress. I had General 
Alexander Lebed, who is currently the Governor of Krasnoyarsk, 
and former KGB agent Stanislav Lunev, each come in before my 
committee and testify. They all corroborate the concerns in 
Russia that Jay Stewart was trying to warn us about before his 
operation Russian Fission was basically eliminated and done 
away with. By the way, one of Jay's assistants during that 
early process was none other than Notra Trulock.
    Mr. Chairman, the second case I would like to talk about is 
a national intelligence estimate which focused the debate of 
this country on emerging missile threats to America in 1995. 
You may remember there was a lot of contention about whether or 
not we faced a threat to our own security at home by a rogue 
nation such as North Korea. I asked for an intelligence 
estimate, along with at that point the head of BMDO, General 
Malcolm O'Neill. For a year, we pressed the CIA to give us that 
assessment.
    For the first time we know of, and this was documented by 
the General Accounting Office in a study we had done, the CIA 
did not go through its normal pattern of releasing a national 
intelligence estimate. They leaked the result to two Members of 
the Senate for use in debate on the Senate floor before the 
report was complete. Those two Senators, who are opposed to 
missile defense, used that report as the basis for voting 
against the national defense authorization that year, which was 
1995. The President then directly referred to that report when 
he vetoed the national defense authorization in 1995. For 3 
years that report became the basis of the assessment of threats 
to the United States in terms of long-range ballistic missiles.
    We were livid, Democrats and Republicans on the committee, 
because we knew that the CIA was not looking at the instability 
in Russia and we called into question the process they used. 
The GAO confirmed in a written report that the process they 
used for that NIE was not like any other process that had been 
used for an intelligence estimate. Certainly the way they 
released it, in a political forum, we never release NIEs. That 
is a classified document. In this case it was released.
    We then as a Congress in a bipartisan vote convened the 
Rumsfeld Commission, 5 appointees of the Republicans, 4 
appointees of the Democrats, including the former CIA Director 
under Bill Clinton, Jim Woolsey. They met for a year. They 
analyzed what the CIA had done. Their conclusion was unanimous. 
Just like the Cox committee, it wasn't 5 to 4, 7 to 2, it was 9 
to 0, including opponents of missile defense on that panel. 
They all said the CIA was way off base, that that report was 
incorrect, that the threat from North Korea was here today. We 
saw that verified last August 31 when North Korea shot off the 
Taepo Dong I three stage rocket over Japan, which now the CIA 
publicly acknowledges can hit America, right now today. The 
CIA, in an unprecedented event, Mr. Chairman, reversed 
themselves.
    This was the basis of the debate in this country for 3 
years over whether or not missiles were a threat to our 
security. This NIE, the CIA now admits that what was said in 
1995 was incorrect. Bob Walpole, who heads strategic services 
on ICBMs for the CIA, now publicly acknowledged the threat is 
here today.
    Because of that challenge of the CIA national intelligence 
estimates, the flood gates opened. People started to come to us 
on the Armed Services Committee expressing their frustration 
with the lack of ability of giving honest, open professional 
judgments about emerging threats.
    One example: I focused on Russia, as many of you know, 
starting from the days that I graduated with a degree in 
Russian studies. I have been there many times.
    I heard about a brief that was available through the 
Department of Energy intelligence services by a scientist at 
Lawrence Livermore Laboratory on continuing research work being 
done by the Russians on five technologies that they could break 
out with that could harm our security. So as the chairman of 
the R&D committee, I thought I better get this brief. I called 
the person working on this project for 7 or 8 years, in fact I 
will give you his name.
    This individual, who is a scientist at Lawrence Livermore, 
had been working on this brief called Silver Bullets for a 
number of years. His focus was on emerging Russian technologies 
that we needed to be aware of.
    When I called him, he said, ``Congressman, I would love to 
come back and brief Members of Congress.'' I said, ``It is 
going to be bipartisan.'' He said, ``No problem, I would love 
to do it.'' That was in July 1996. He said, ``I will go through 
my chain of command to come back and brief you and let them 
know there is a formal request.''
    Mr. Chairman, I never heard anything. August 20, 1996, I 
got this letter. This is the envelope it came in. Postmarked 21 
August 1996. Can I read the memo?
    Mr. Burton. Yes, sir.
    Mr. Weldon [reads]:

    Congressman Curt Weldon, 2452 Rayburn Building, House 
Office Building, Washington, D.C. Dear Congressman, as a 
concerned citizen, I hope that you will pursue the briefing 
with Dale Darling. Dale has been pressured to cancel the 
briefing. I would appreciate it if this note was kept 
confidential to your office. Thank you.

August 20, 1996.
    I eventually got the brief, but you know how I got the 
brief? I had to hold this letter up in a hearing when Secretary 
of Defense Perry came before our committee and I had my 5-
minute question time. I said Secretary Perry, I respect you, 
you are a good and decent man. Do you agree with Members of 
Congress being denied briefings on emerging threats coming from 
Russia? He said absolutely not, Congressman. I went on to 
explain this. Secretary Perry got us the approval 7 months 
after I requested it to have Dale Darling come in and brief 
Democrat and Republican Members of the House.
    Dale Darling has been back several times since. We continue 
to engage him. We didn't use that material to go out and create 
some scare tactic with Russia, but it was important to the 
process of us understanding what is happening in Russia, that 
all is not rosy, that there are problems there.
    Let me talk about a couple of CIA cases. These individuals 
are not here. One will not show because his career is still in 
jeopardy. He is a lifetime CIA agent, one of our experts.
    He came to me because he has a relative that worked for me. 
He is an expert assigned to monitor our policy involving the 
U.S. involvement in peacekeeping missions. He was assigned to 
the panel that drafted the Presidential Decision Directive 25 
dealing with the use of force in peacekeeping efforts. This 
analyst revealed to his superiors that an intelligence leak was 
occurring in Somalia that compromised United States security.
    So he did what he was supposed to do. He said we have got 
to watch and be careful that we are not giving classified 
capability to the NATO countries that could eventually be 
leaked out and used against us. He was doing his job. He 
objected to what was being done, and instead of being praised 
for what happened, he was asked to submit to a drug test, a 
medical exam for brain tumors, and a psychiatric evaluation.
    Mr. Chairman, I have heard of that kind of activity in 
Russia, where they used to charge people with crimes against 
the state and commit them to psychiatric institutions. I have 
never heard of a professional intelligence analyst in this 
country being asked to undergo a psychiatric examination.
    Ultimately it took a group of seasoned attorneys, whom I 
have met with several times, to bring an abrupt end to his 
harassment and ensure his exoneration, which has occurred 
today. This individual will come before your committee, but 
only under the conditions of his attorneys. I have given your 
committee staff his name and you know the process that this 
gentleman needs to go through. I want it to be bipartisan. This 
is not a partisan issue.
    Another example, and this is something that every member of 
this committee understands. Remember when Benjamin Netanyahu 
told us that he had evidence that Israel had documents linking 
up the Russian Space Agency headed by Yuri Koptev and the 
Iranians on building medium range missiles? That was a major 
national headline in this country.
    Well, we had been briefed in the Congress by the then 
Director of the CIA Nonproliferation Center, Dr. Gordon Oehler. 
He came over and briefed members of the Intelligence Committee, 
the International Affairs Committee, and the Armed Services 
Committee about Russia's involvement with Iran. He told us that 
this is a concern, because Iran is going to build a medium 
range missile that is going to threaten Israel. The Israelis 
were absolutely outraged over this, and so was Congress.
    The distinguished gentleman from New York, Ben Gilman, 
along with Jane Harman, introduced a bipartisan Iran missile 
sanction bill. We went down to the White House twice. I was 
invited by Al Gore twice, once before the House vote and once 
before the Senate vote. There were 11 Members of Congress 
there, Senators and House Members. He pleaded with us not to 
have this vote come up on the floor. When he finished, I said 
Mr. Vice President, it is too late. The Congress feels we are 
not doing enough to stop the proliferation from Russia which 
Netanyahu and Gordon Oehler told us about.
    The House voted 396 in favor of that bill, the Senate voted 
96 to 4 in favor of it. The President's veto could have been 
overridden, but Speaker Gingrich didn't want to bring the bill 
to the floor in the September before the elections. A little 
known fact, but I was there with AIPAC when AIPAC was talking 
to the Speaker about the veto override. It was his choice not 
to bring the bill up.
    But the point is Gordon Oehler had no intention of 
retiring. But when he told Congress about the cooperation 
between Russia and their space agency with Iran on the Shahab 
3, which was supported by the Israeli Government publicly, 
which they knew about, he felt so much pressure that he took 
early retirement. Again, you might want to talk to Gordon 
Oehler, recognized in both parties, recognized by liberal arms 
control groups as an outstanding expert on proliferation. He 
felt the pressure because he was simply telling us in a private 
way about problems that were occurring with Russian technology 
transfers.
    Mr. Chairman, let me get to Jack Daly. I work with the 
military all the time, I know my colleagues and friends have a 
high regard for our military personnel. Lieutenant Jack Daly 
has served a distinguished career in the Navy for 16 years. He 
is a Navy intelligence officer.
    On April 4, 1997, he was flying in a helicopter on an 
intelligence mission with a Canadian pilot. They were 
monitoring Russian trawlers off the coast of Seattle that we 
felt were tracking our nuclear submarine fleet, and they knew 
these trawlers were not bringing cargo into ports or taking 
cargo out, so they were highly suspected of being there for 
intelligence gathering purposes for Russia.
    In one of their missions on April 4, while flying over this 
one trawler, there was a flash of light from the trawler which 
was later found out to be a laser. Lieutenant Daly and the 
Canadian officer's eyes were damaged by a laser device being 
pointed at them in the helicopter. We don't know whether that 
laser was being used to detect the capabilities of that 
helicopter, and Lieutenant Daly can give you the reason, and he 
is willing to come before this committee, by the way. I met 
with him yesterday again. But the fact is we had a military 
officer who was personally harmed by a Russian vessel. I can 
tell you following Lieutenant Daly's incident there was an 
inspection. The inspection only took place in the public parts 
of that ship. Up until now and recently, we haven't been able 
to see the classified documents relative to what we did as a 
Nation to respond to Lieutenant Daly's problem.
    If you read the book ``Betrayal'' by Bill Gertz, in the 
back of that book, and this is unfortunate that he did it, but 
Members need to understand he has released classified 
documents. The first four or five classified documents are the 
internal memoranda from Strobe Talbott and the current 
Ambassador for the United States in Moscow, Ambassador Collins, 
relative to Jack Daly's case. The highest level of our 
government knew the severity of the Jack Daly incident. What 
did we do? We went after Jack Daly.
    Prior to this incident, he had received the highest 
commendation a Navy officer can receive in serving his country. 
On the following evaluation after this incident, he received 
one of the lowest commendation levels that can be garnered by a 
Navy officer.
    Let me give you the quote of what his direct superior 
officer said to him in the course of following up on this laser 
incident, ``You don't know the pressure I am under to sweep 
this under the rug.''
    Mr. Chairman, if that is true, that is not America. It is 
not America, if Navy personnel doing their job and protecting 
our people feel that when they come forward and they are 
injured personally, that they are going to be the scapegoat 
because of some larger policy issue.
    Mr. Chairman, I can tell you that Jack Daly and the Navy 
officer who has never been talked to, never, are willing to 
come before your committee, and I would ask you to bring both 
of them in.
    Mr. Chairman, in terms of the other witnesses you are going 
to have today, just a couple of comments, because I know their 
cases, a couple of them I am working with personally. I want to 
first of all acknowledge the distinguished work of our friends, 
both Fred Upton and from the State of Pennsylvania, my good 
friend Ron Klink. They have taken up the McCallum case, they 
have written Dear Colleague letters, they have written to Bill 
Richardson in a bipartisan way. They have asked, as Mr. Waxman 
has, for a full explanation of why Mr. McCallum has been 
treated the way he has.
    I did a special order on Mr. McCallum several weeks ago, 
and something came to me through e-mail that kind of surprised 
me. I didn't ask for this, it just came to me. I know the 
fellow who wrote it, but it is surprising, because of all the 
pressure he has been under and the fact that he has really come 
out as a champion for the administration on cleaning up our 
labs. I would like to read the very brief e-mail to you.
    This is about Ed McCallum's case.

    Thank you for bringing attention to this miscarriage. I 
have worked with Ed for several years and have always found him 
to be professional in every way. The allegations against him by 
the Department are inexplicable. I have little doubt that the 
Department's actions are part of the broader pattern of 
harassment and retaliation against any and all whistleblowers 
concerned about national security issues. Sincerely, Notra 
Trulock.

    Mr. Chairman, the McCallum case is an example of a system 
gone wrong. You are going to follow that up with the witnesses 
from DTSA, two outstanding people, Mike Maloof and Dr. Peter 
Leitner. These two individuals are career technical experts. 
Again, they are not partisan, they are not in favor of any one 
point of view. Their job is to assess technologies that come 
back to harm us.
    If you question them, I ask you to ask Dr. Leitner, and 
they both testified before the Cox committee, if he ever had an 
incident where a recommendation he made in his computer was 
changed by someone above him while he was on vacation from a no 
recommendation to either a positive recommendation or another 
recommendation.
    Ask him about the changes within the agency and the 
pressures brought to bear on them as professionals. Both Mike 
Maloof and Peter Leitner are outstanding employees.
    Now, I can't verify all the accuracy of what they are going 
to say, but that is what this committee can do. I implore my 
friends on both sides of the aisle, this is not a partisan 
issue. These are security concerns. These need to be issues 
that we deal with because I don't care if the next President is 
a Republican or a Democrat. We need to have good solid 
intelligence information to deal with threats that we see 
emerging.
    The other cases, I think, are of equal concern, the cases 
involving Livermore and the cases involving Los Alamos and the 
case involving Mr. Fox.
    Mr. Chairman, I would just ask you and I would implore the 
distinguished ranking member and all of the members of the 
committee to work with us. I think there is some need for some 
legislative change. I will make two suggestions, and I am not a 
policy expert in this area. I will let you all decide how to 
handle it.
    My understanding is that today, a Federal employee who has 
classified status, cannot take advantage of the Merit Systems 
Protection Board. They are specifically excluded because they 
are in a classified position.
    One of the things I would suggest that you might look at is 
to ask the Merit Systems Protection Board to set up a separate 
process just for those employees who have classified 
intelligence status, to give them a means of going through a 
process to protect their rights.
    Second, I would ask you to consider whether or not it is 
worthwhile that we put into place legislation requiring every 
Inspector General to establish an office of employee advocacy 
so there can be a separate office within the IG's office that 
would be an advocate for the employees. I can tell you, if you 
talk to the employees I mentioned here today, and the ones that 
are not here, they are going to tell you in some cases the IG's 
office do not and cannot do the job. Maybe it is time to put 
into place a separate internal entity in each IG's office just 
for employee's advocacy, especially for those who have 
classified status.
    Mr. Chairman and Mr. Ranking Member, I thank you for your 
time. I appreciate the sincerity with which you are taking this 
hearing. I have tried to make this as bipartisan and 
nonpartisan as I can, because I want to continue to work with 
friends on both sides of the aisle to solve these problems. I 
say again, these problems have existed in previous 
administrations. Chairman Dingell did a fantastic job in 
previous years in exposing problems involving whistleblowers, 
and I have applauded him publicly for that. I would ask this 
committee to do the same. Thank you.
    [The prepared statement of Hon. Curt Weldon follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.019
    
    [GRAPHIC] [TIFF OMITTED] T2262.020
    
    [GRAPHIC] [TIFF OMITTED] T2262.021
    
    [GRAPHIC] [TIFF OMITTED] T2262.022
    
    [GRAPHIC] [TIFF OMITTED] T2262.023
    
    [GRAPHIC] [TIFF OMITTED] T2262.024
    
    Mr. Burton. Thank you very much, Mr. Weldon, for a very 
thorough analysis of many problems. You may rest assured that 
our legal staff will contact those people and have them come 
in, and we will undoubtedly have more hearings on this.
    Mr. Weldon. I forgot one other point.
    Mr. Burton. I would ask you to request to put the memo or 
e-mail from Mr. Trulock into the record.
    Mr. Weldon. I ask unanimous consent to put it in the 
record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.025
    
    Mr. Weldon. When you bring up Mr. Maloof and Dr. Leitner, 
let me mention this point to you. The bipartisan Cox committee 
recognized that we had serious problems within DTSA, and wanted 
to talk to the employees in that agency. We asked as a 
bipartisan committee that we thought maybe these two were just 
exceptions and maybe the other employees would discount what 
they were saying, which is the point Mr. Waxman raised. Maybe 
they are examples. So I recommended to the full committee, 
these are all in private sessions, that we ask the Department 
to allow us to bring in DTSA employees. They said no. I then 
came back and said can we do a random selection? Just randomly 
pick employees and bring them in for the committee in a 
classified way to talk to them. They said no.
    On page 213 of the Cox committee report, which all of you 
got, I would like to make sure this is in the record, there is 
a separate paragraph, and I would like to read just the title 
of it to you. It is entitled, ``Inability to Survey Defense 
Technology Security Administration Employees Regarding Agency 
Management Issues.''
    We were denied the opportunity to talk to any other DTSA 
employees besides these two.
    Mr. Burton. Well, we will ask unanimous consent that that 
part of the Cox report be included in the record, because it is 
relevant. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.026
    
    [GRAPHIC] [TIFF OMITTED] T2262.027
    
    Mr. Burton. I think you covered this, and I will not 
belabor it because you covered this very, very thoroughly, but 
why do you think, as a person who has analyzed this, why do you 
think these kinds of patterns are emerging in these agencies?
    Mr. Weldon. Mr. Chairman, I don't have the long-term answer 
to that, but let me just say as a student of Russia who 
probably is Russia's toughest critic but their best friend, who 
wants Russia to succeed, and supports every program the 
administration has, they call me to get the votes for this and 
I deliver on this every year, to support all their initiatives, 
I want the same objective that Bill Clinton and Strobe Talbott 
wants with Russia and China, but I think there is a fundamental 
problem here. I think the fear has been we don't want to do 
anything that might be perceived to be an embarrassment of 
President Yeltsin or President Jiang Zemin.
    Let me give you another example. I was going to mention 
this in my testimony, but didn't. During the last several 
years, and it started under the Bush administration, we didn't 
want to embarrass Yeltsin with the reforms. So when we caught 
Russia violating arms control agreements, which all of us have 
voted on and supported, we didn't call into question those 
violations.
    I did a floor speech last July where I documented 37 
violations of arms control agreements by China and Russia. This 
wasn't prepared by me, it was prepared by the Congressional 
Research Service. These were cases where Russia and China were 
sending off chemical, biological, nuclear, machine tooling, and 
other technologies to Iran, Iraq, Libya, Syria, North Korea, 
India, and Pakistan. Out of the 37 times, we only imposed the 
required sanctions twice. We waived the sanctions each time.
    I was in Moscow in January the year President Yeltsin was 
going to be reelected and was meeting with Ambassador 
Pickering. The Washington Post had just reported a front page 
story about the illegal transfer of Russian guidance systems to 
Iraq. So I asked the Ambassador, what was the response when you 
asked the Russians about the transfer of accelerometers and 
gyroscopes? He said Congressman, I can't ask that question. 
That has got to come from Washington.
    I came back and wrote to the President at the end of 
January. He wrote me a three-page letter in March. He said, 
Dear Congressman Weldon, these allegations that the Post has 
raised are serious. If they are true, they would be a violation 
of the MTCR and we will take aggressive action. But we have to 
have proof. We have to know it took place.
    Now, the Israelis knew it took place, and we knew it took 
place. I didn't know at the time. Our intelligence community 
had 120 sets of these devices. Here are two of them. One is an 
accelerometer and one is a gyroscope. You want to examine them? 
They have Russian markings on them. They were clipped off of 
Russian SSN-19 missiles. They are long-range missiles that were 
used in their submarines aimed at American cities. We caught 
Russia three times sending these to Iraq. We never imposed the 
required sanctions.
    We were given the assurances, and I can tell you that Gary 
Ackerman and Tom Lantos and a bunch of Democrats were very 
aggressively involved in this transfer. We were assured that 
there will be an internal investigation done in Russia that 
will result in criminal prosecutions. That never happened. So 
Russia transferred three times these devices that we know of to 
Saddam Hussein to improve the accuracy of their missiles.
    Mr. Chairman, I just think that we didn't want to raise 
that issue that year because Yeltsin was running for 
reelection. We were so concerned over the past 8 years of not 
embarrassing Boris Yeltsin that we didn't call into question 
when Russia was in violation. We didn't want issues to surface 
that would maybe embarrass Russia.
    Mr. Chairman, I am a friend of Russia, and I will go to the 
wall with Russia for anybody, but you can't ignore reality and 
you can't punish innocent Federal employees for doing their job 
because what they are saying we don't want to hear.
    That is not the way you base your security policy. Yes, 
Russia has problems. It doesn't mean we want Russia to be the 
evil empire. China has problems. I am going to vote for MFN for 
the President. I am going to be opposed by many of my 
colleagues on our side. I want to engage China. But our 
Government has got to set the tone. We have to understand it is 
not wrong to be strong and consistent and transparent with 
these two countries. I think you get weaker when you ignore 
that.
    So my bottom line feeling is that we have just been so 
preoccupied with not wanting to embarrass each country, that we 
don't allow issues to rise that we think may cause problems.
    Mr. Burton. Let me just ask you a real quick question about 
these two devices that you have there on the table, because 
those are objects that can maybe make the point.
    These were given by Russia, sold by Russia, to Iraq?
    Mr. Weldon. Given or sold, we don't know.
    Mr. Burton. Given or sold. But on three separate occasions 
you said?
    Mr. Weldon. Twice we found them in the Tigres River Basin. 
Once with the help of our allies in that area that I can't 
name, they were given to us.
    Mr. Burton. The point is, these were more accurately 
targeted missiles----
    Mr. Weldon. Against Israel.
    Mr. Burton. And could they be used beyond Israel?
    Mr. Weldon. Absolutely. These are long-range guidance 
systems. Iraq does not have the capability to build these 
systems. Neither does Iran. They have to get this technology 
from either the United States, Russia, or now China, even 
though China got some of its technology from us. So here you 
have Russia giving this kind of sophisticated technology out, 
and we catch them, and we don't want to ask them about it. We 
want to pretend it didn't happen. You can't do that. I am not 
an enemy of Russia. I am a friend of theirs.
    Mr. Burton. I think you made the point, and I appreciate 
that.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. Mr. Weldon, what you 
had to say was very interesting. I think it is unprecedented, 
however, that you were given 20 minutes to make an opening 
statement. I have never seen that happen before, and I hope the 
chairman will allow all the witnesses to speak as long as they 
feel they want to, because otherwise what we will be doing is 
showing favoritism to a Member of Congress and telling 
witnesses they have to be restricted in what they want to say.
    Mr. Weldon. I apologize. As a teacher I tend to talk too 
long.
    Mr. Waxman. But on the other hand, it is impossible, as a 
former chairman, to have a hearing where everybody gets to talk 
as long as they want to talk. Usually there are time 
constraints.
    You have raised a lot of issues. I have no knowledge about 
these cases, and you feel very passionately about them. I hope 
the chairman will look into them, because if there are 
situations where people are being retaliated against because 
they have information that ought to be made public or ought to 
be given to the Congress, then I think that it is of great 
concern to us. But I just want to raise some skepticism about 
an issue, just to point out there may be two sides to the 
question.
    You said you are going to vote for MFN. Many of your 
colleagues, even on the Republican side, may not. Suppose I sat 
down with my staff and I said, well, let's talk about this 
issue. Should I vote to continue trade relations with China, as 
we have had it in the past, or should I vote to withhold that 
kind of privilege as a way to protest China's human rights, 
China's activities in proliferation of weapons, and China's 
spying on the United States? How else can I as a Member of 
Congress express myself?
    I go back and forth with my staff, and one of my staffers 
decides when I reach the conclusion that he ought to go public, 
she ought to go public, and say I am doing it for the wrong 
motives? That perhaps I am voting for MFN for China because I 
don't care about human rights, or I am voting against MFN for 
China because I don't care about the economic interests of 
businesses in the United States?
    Do you think your staff should be allowed to do that?
    Mr. Weldon. My staff I hire, and I want them to have their 
own opinions. I don't hire the people in our intelligence 
community and they don't change from administration to 
administration. I would assume their loyalty to their job and 
their professionalism is giving us their best judgments.
    Mr. Waxman. I don't disagree with you. The point also has 
to be, how do you run an agency? How do you make any kind of 
decisions in an agency on policy matters if everyone is free to 
go out and express their opinion and accuse those who reach a 
different opinion of being disloyal?
    Mr. Weldon. You make an excellent point. They shouldn't do 
that and shouldn't go public, but they shouldn't be harassed, 
have their job ended, be demoted, have their documentation 
shredded. I agree with the gentleman.
    Mr. Waxman. We are obviously arguing on a theoretical 
level. I don't know fully about the individual cases we may 
hear from today. But in my mind, there have to be some 
situations where people, whether they are career or political 
appointees, when the policy is articulated, can't go out on 
their own, to criticize it and then try to have it portrayed as 
someone being disloyal. I assume all the points you raised are 
not just unique to the Clinton administration.
    Mr. Weldon. I think I made that point fairly clear in my 
statement.
    Mr. Waxman. People have been criticized by their superiors, 
in fact discharged by their superiors, both in the Bush 
administration as well as the Clinton administration and the 
Reagan administration and at other times as well, for the same 
reasons you have outlined.
    Mr. Weldon. In fact, I praised Chairman Dingell for his 
work.
    Mr. Waxman. Well, as I said in my opening statement, which 
was all too brief in comparison to you and the chairman, I had 
to say what I had to say and I said it, and that is we need to 
be protective of whistleblowers, because whistleblowers do give 
us information that ought to get out, and in many cases they 
are very courageous, and I fully support that concern. On the 
other hand, I just want, as you do, a way to be sure that we 
are dealing with truth and not criticizing people because they 
have taken different policy positions or are acting improperly 
as people disagree.
    Mr. Weldon. I agree.
    Mr. Waxman. Thank you, Mr. Chairman. I am not using my full 
5 minutes.
    Mr. Burton. Thank you, Mr. Waxman. Mr. Shays.
    Mr. Shays. I just want to publicly say, Curt, I thought 
your presentation was really outstanding. What I take 
particular satisfaction in, is you have been someone who has 
labored in the vineyard year in and year out, not just issued 
press releases, done really substantive work, and we are seeing 
the fruit of your labor. It is extraordinary in so many areas. 
You are, for instance, a strong supporter of an alliance, good 
working relationship with the former Soviet Union. You have 
more contacts in the Soviet States than most people in the 
administration. So as one Congressman to another, I just want 
to say to you, I am really in awe of how long you have labored 
in this area, how you have kept it to yourself for so long, not 
issued press releases, not made an issue of this, just done 
your homework like no one else has.
    As a result, you know a heck of a lot more than almost 
anyone that I know on these issues. So your testimony was very 
valued.
    Mr. Weldon. Thank you, Mr. Shays. If you will yield to me 
or if you will give me time to respond and just say that Steny 
Hoyer, who is my co-chair on the Russian initiative, has been 
laboring long before I was in Russian relations. It is a 
bipartisan effort.
    We supported the administration. I was proud to go over to 
Moscow to help the administration convince the Russians that 
our policy in Iraq was the right one, and the administration 
knew what I was doing because I felt it was the right thing.
    What we are doing is right for the country and it is not 
meant to try to create any undue embarrassment for anybody, but 
I appreciate your good comments, Mr. Shays.
    Mr. Burton. Does the gentleman yield back his time?
    Mr. Shays. Yes, sir.
    Mr. Burton. The gentleman yields back his time.
    Mr. Wise.
    Mr. Wise. Thank you, Mr. Chairman.
    Mr. Weldon, I was interested in your presentation because I 
often tell groups at home that the Congress is like a giant 
university, in the sense that you can't come here and 
specialize in everything but you have got to specialize in a 
few things, and then you develop expertise and people come to 
respect you. And you certainly have done that in the national 
security area, and I think that is very important.
    It is just like I learned a long time ago, since most of us 
have to stand uphill in West Virginia, I learned not to spend a 
lot of time on agriculture and I leaned to others, and by the 
same token on national security I look to you and to others on 
both sides of the aisle; whereas, I hope to focus on 
transportation and matters that are important. But I want to 
thank you very much for your presentation.
    There was one point that you made that I think points out 
some complexities, and I wanted to take it up with you for just 
a second, if I could. You spoke about, a number of times, where 
it was observed that Russia is probably involved in selling to 
Iraq, and the United States didn't take action, didn't impose 
sanctions.
    I, like you, have been a supporter of MFN. I am wondering 
about it at this time, because I keep saying each year that I 
am waiting to see further progress be made. So I am wondering 
about MFN for China.
    But it is also the case that I think there are a number of 
incidents where China clearly, and even some of the 
investigations that the chairman and this committee have done, 
where China makes you wonder about whether we ought to say no 
to get their attention, but we haven't. And you voted the way 
you have and I have voted with you, incidentally, in that area, 
because we felt that the complexity was such that while this 
was bad and we had to call attention, whether it was human 
rights or missile proliferation or whatever it was, that we 
needed to stay engaged. So that could also be the 
administration's rationale on the Russian situation as well.
    Mr. Weldon. No, I understand. As I said, Mr. Wise, I have 
supported the administration's engagement with Russia. In fact, 
I have encouraged them to do more. I am trying to get them to 
help establish a Russian mortgage housing financing system for 
the Russian people. I have been working on that for 2\1/2\ 
years.
    I think we have to--I think many of our problems in dealing 
with Russia and China are of our own creation. We think we 
can't talk to them--when things occur that they shouldn't be 
doing, we should be confronting them with that; not walking 
away and pretending it didn't happen. I think they lose respect 
for us.
    You know, Russians understand when you are honest and open 
and tell them what they are doing wrong. They respect you for 
that. But when you don't tell them and when you pretend it 
didn't happen, I think they lose respect. So I support the 
administration's engagement policy. I think it is the right 
policy. I think in many cases our own government has failed 
itself, and I say the Congress with it. I am not just trying to 
blame the administration. There are some times where Members of 
Congress in both parties have pressured the administration in 
the case of China to lower the export controls, you know, but I 
mean there is a problem here that we have to understand. As Mr. 
Waxman said and you said, it is very complex, it is not easy, 
but I am convinced that we need to continue to engage both 
countries.
    They are not going to go away and it is not going to get 
better if we ignore them. I think it will get worse. But we 
should engage them on our terms and we should engage them 
around people like the two professionals sitting behind me, or 
the five, to basically tell us what we can transfer and what we 
can't, and when they try to get stuff that they shouldn't get, 
then we hold them accountable, and when they sell this kind of 
stuff, we slap their hand.
    Mr. Waxman. Will the gentleman yield to me?
    Mr. Wise. Sure.
    Mr. Waxman. Let's look at Russia as an example. The United 
States could have determined, and probably should have 
determined, we were better off with Yeltsin winning that 
election than Zyuganov winning the election.
    Mr. Weldon. Absolutely.
    Mr. Waxman. And having restoration of the Communist party.
    Mr. Weldon. Absolutely.
    Mr. Waxman. So if the administration sees that there is 
information, if it is presented in a certain way, could have 
consequences in Russia----
    Mr. Weldon. Absolutely.
    Mr. Waxman [continuing]. Aren't they responsible, as the 
ones running our foreign policy, to make sure that we don't do 
harm in Russia? Let's say someone within the Department, a 
career person, wanted to hold Russia accountable, which is 
proper, but hold them accountable in a time and in a manner 
that could have adverse consequences. He may not/she may not be 
thinking of the bigger foreign policy picture and the U.S. 
policy, which is not set by career people in the Department, 
but by the Secretary of State acting under the President of the 
United States?
    Mr. Weldon. No, I agree with the gentleman. I would say 
that is the prerogative of the President and the administration 
and the State Department, but this was 4 years ago. The 
election took place 4 years ago. We never followed through, and 
the Israelis know this. We never followed through to hold this 
agency, these entities, accountable for what they did.
    Mr. Wise. Can I get my time back so I can just close up? 
Thank you.
    Mr. Weldon, I just want to thank you again and just say 
that I agree in the case of both Russia and China, they need to 
be held accountable. I think what we have both been saying is, 
maybe in roundabout ways, there are often other factors that 
determine how you hold them accountable and when.
    Mr. Weldon. Yes.
    Mr. Wise. I appreciate that. Thank you.
    Mr. Burton. The gentleman's time has expired.
    Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman.
    I want to say you have done a brilliant job, as you usually 
do, Curt. I have learned in the last 7 years in the House of 
Representatives where the experts are, and you are truly on the 
list of the top three or four, we all know that, and you do 
operate on a bipartisan basis, and those are the people around 
here that get respect and get things done, and I think you have 
proved this morning you have both.
    I think, Mr. Chairman, it is outrageous when professional 
career servants who are doing their duty, as they see the right 
to do that duty, are squashed by any administration, and I 
would hope this committee would treat a Republican 
administration like they would treat a Democratic 
administration.
    If the Congress cannot get the information it needs in 
executive session or whichever way, then we have got a major 
problem in this country. We cannot base our decisions on simply 
propaganda from either a Republican or a Democrat 
administration.
    I realize that often there are people more loyal than the 
king, shall we say, and that is true. We have seen that over 
the years, but we need that information to make judgments. And 
if we let that fail and people do get harassed, driven out and 
even sent off to what I think the FBI used to do, Boise, ID or 
Montana or someplace, that is just plain wrong and we have got 
to make sure that doesn't happen.
    Thank you very much for coming.
    Mr. Burton. Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman.
    I too want to join my colleagues in commending you, Mr. 
Weldon, for your expertise and knowledge that you have brought 
to this committee. I think you have raised some very 
interesting questions that this Committee on Government Reform 
must look into.
    Saying that, I think I have to concur with the ranking 
member, Mr. Waxman, in saying that there is a big difference 
between a disagreement on policy and the way in which an 
executive agency deals with those disagreements in terms of 
harassment and intimidation and demotions and all sorts of 
matters that--or manners in which they can deal with these 
individuals. And I think that that is really within the 
prerogative of this committee to investigate and correct, if 
necessary, if these behaviors are a part of the systematic 
procedure to try to coerce their experts and their specialists 
into a political--a politically correct kind of recommendation 
or a management decision. Then we would be denying the 
opportunity to gain and benefit from expertise if we are 
conditioning their expertise to following a particular line 
that may be the policy line of a current administration.
    So I think that the issues that you bring before us are 
very important, and I would hope that the committee would 
pursue those from that vantage point than an inquiry as to 
whether the policy was correct or incorrect.
    Mr. Weldon. No, I understand. And I agree.
    Mrs. Mink. Thank you very much, Mr. Chairman.
    Mr. Burton. Thank you, Mrs. Mink.
    Is there further questioning of the witness?
    If not, thank you very much, Mr. Weldon, for your 
testimony.
    Mr. Weldon. Sorry I took so long.
    Mr. Burton. It has been very, very helpful. We really 
appreciate it.
    Mr. Weldon. I owe you one, Henry.
    Mr. Burton. We have a vote on the floor. Since we have a 
vote on, rather than start with the next panel I think we will 
go vote and come right back and we will start with the next 
panel as soon as we return. So please excuse us. We stand in 
recess until the fall of the gavel.
    [Recess.]
    Mr. Burton. The committee will reconvene. We have members 
that will be drifting back in because the vote has just 
concluded on the floor on the final passage of the flag burning 
amendment.
    So I would like to have the five witnesses, Mr. Bransford, 
Lieutenant Colonel McCallum, Dr. Leitner, Mr. Maloof, and Mr. 
Fox come forward.
    Is Mr. Fox here?
    Mr. Maloof. Yes.
    Mr. Burton. I guess we don't have it in order here. Where 
is Mr. Maloof? Where is Mr. Fox?
    Mr. Maloof. I think he stepped out for a minute, Mr. 
Chairman.
    Mr. Burton. We probably ought to wait for Mr. Fox because I 
need to have you sworn in.
    Everybody run and check the men's room, or wherever he 
might be.
    Would you all please stand and raise your right hands, 
please.
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    Lieutenant Colonel McCallum, we will start with you. I 
understand that we are going to allow each one of you 10 
minutes because your story is going to take a little bit more 
time than normal. So you have 10 minutes to testify.
    Mr. Bransford. Mr. Chairman.
    Mr. Burton. Yes.
    Mr. Bransford. My name is William Bransford. I am Colonel 
McCallum's attorney and I would request permission to make just 
a very brief statement before Colonel McCallum talks.
    Mr. Burton. Proceed.

STATEMENTS OF LT. COL. EDWARD McCALLUM, DIRECTOR OF THE OFFICE 
    OF SAFEGUARDS AND SECURITY, U.S. DEPARTMENT OF ENERGY, 
  ACCOMPANIED BY WILLIAM L. BRANSFORD, ESQ., SHAW, BRANSFORD, 
    VEILLEUX & ROTH, WASHINGTON, DC; PETER LEITNER, SENIOR 
   STRATEGIC TRADE ADVISER, DEFENSE THREAT REDUCTION AGENCY; 
   MICHAEL MALOOF, CHIEF OF TECHNOLOGY SECURITY OPERATIONS, 
 DEFENSE THREAT REDUCTION AGENCY; AND JONATHAN FOX, ESQ. ARMS 
       CONTROL SPECIALIST, DEFENSE SPECIAL WEAPONS AGENCY

    Mr. Bransford. Thank you, Mr. Chairman.
    Yesterday afternoon, I received a surprising fax from Mary 
Anne Sullivan, General Counsel to the Department of Energy, a 
copy of which I provided to committee staff. I received this 
fax in the afternoon, even though I had previously notified the 
General Counsel that Colonel McCallum's written testimony was 
due to the committee before 10 o'clock yesterday morning.
    General counsel's letter limits Colonel McCallum's ability 
to respond to the Department of Energy's charges against him. 
We interpret the letter as allowing Colonel McCallum to make a 
general denial about his disclosure of classified information, 
but not to reinforce his position by any specific information, 
even if he can do so with reference to unclassified guides and 
procedures. We hope the committee understands Colonel 
McCallum's situation.
    He has been placed in an untenable position. He is being 
told he cannot defend himself; he cannot tell this committee 
why the Department of Energy is wrong, even though the 
Department of Energy did not itself follow its own procedures.
    Under current law, the Department has unbridled power to 
make classification decisions without review and then use that 
authority to retaliate against executives like Colonel McCallum 
who tell them about specific threats to the health or safety of 
the American public.
    For these reasons, we have drafted a legislative change to 
5 U.S.C. section 7532 that would allow for interagency review 
of classification issues like those affecting Colonel McCallum. 
We offer it for the committee's consideration.
    We hope the committee understands that Colonel McCallum may 
have to limit his answers because of the threats in the General 
Counsel's letter, and I would request that the letter from the 
General Counsel to me yesterday and the draft legislation that 
we have prepared be admitted in the record.
    Mr. Burton. Without objection, so ordered.
    But let me make sure I understand this. There have been 
threats issued in this letter, and I have not yet read it, that 
will limit the testimony that is not classified pertaining to 
what Lieutenant Colonel McCallum is going to tell us?
    Mr. Bransford. The letter to me, Mr. Chairman, states that 
Colonel McCallum is not at liberty to describe in his testimony 
his views of the correct classification of the information in 
dispute, even if he can do so by reference to unclassified 
information. So he is very much limited in what he can say and 
we are very much concerned that if he doesn't limit his 
testimony, the Department could take action against him based 
upon his actions in that regard.
    Mr. Burton. Can he give this information to us in a closed 
hearing?
    Mr. Bransford. Mr. Chairman, I don't know. It is hard to 
say whether he could or couldn't.
    I would think that he could. It is my interpretation of the 
letter that he can make a general denial, and I think that is 
sufficient. I think the written testimony we provided the 
committee yesterday----
    Mr. Burton. All right. We will let him go as far as he can, 
but I just want to say that the Department of Energy and Mr. 
Richardson, the head of the Department of Energy, has done 
everything possible in his power to try to stop this hearing 
today. I have never seen any kind of pressure exerted like 
this. I mean, they have gone to the leadership of the House and 
everything else to try to stop this hearing, and now we are 
getting a letter from the Department of Energy trying to 
harness what Lieutenant Colonel McCallum says. I think it is 
despicable and I just want the Department of Energy to know 
this isn't the end of it. Whoever is here from the Department 
of Energy, this isn't the end of it. We are going to pursue 
this. This is baloney.
    The Congress of the United States has a right to know these 
things, and so do the people of the United States, if our 
national security has been imperiled because of actions that 
they have taken or nonactions that they have taken.
    Lieutenant Colonel McCallum, you are recognized for 10 
minutes.
    Colonel McCallum. Mr. Chairman, Congressmen, Congresswomen, 
thank you for the opportunity today to speak with the committee 
about lapses in the Department of Energy's Nuclear Safeguards 
and Security Program and the Department's long history of 
suppression and reprisal against individuals attempting to do 
their jobs.
    Mr. Burton. Would you pull the mic a little bit closer? We 
want to make sure we hear everything you say.
    Colonel McCallum. DOE's arrogant disregard for national 
security is clearly described in the recent report on security 
at the Department of Energy by the President's Foreign 
Intelligence Advisory Board and Congressman Cox's committee 
report on espionage in our national laboratories.
    It is clear today that the DOE has sacrificed nuclear 
security for other budget priorities and has jeopardized 
national security by failing to protect its laboratories 
against widespread espionage or against the possibility of 
terrorist attack.
    Over the last 9 years, I have served as the Director of 
DOE's Office of Safeguards and Security. In this capacity, I 
have been responsible for developing the policy that governs 
the protection of the Nation's nuclear assets, including 
weapons, nuclear materials from which nuclear weapons are made, 
highly classified information, and personnel security 
clearances. My office is also charged with investigating 
security incidents involving the possible loss of nuclear 
materials and the unauthorized disclosure of classified 
information.
    You will note that these authorities did not include 
implementation at our sites or an oversight responsibility, 
which are a significant organizational flaw which I describe in 
my more extensive written testimony and in some of the reports 
that have been written for the Department.
    As you may know, or as you know now, the Department of 
Energy placed me on administrative leave on April 19th. Some 
DOE officials allege that I committed a security infraction. 
They claim that I disclosed classified information during a 
discussion with a whistleblower from a DOE site.
    This is not true. Based on the Department's published 
classification procedures and guides, these allegations are 
completely unfounded. I have released no classified 
information. I have been an authorized classifier in the 
Department of Energy for over 25 years, and helped develop the 
first classification guide in the safeguards and security area 
in the mid-1970's. I am also the Department's subject matter 
expert on the areas of tactics, use of forces and protection of 
our facilities.
    Yet, it is strange that the Department did not consult my 
staff, nor me, before taking this action. They failed to follow 
their own procedures in investigating this incident and, 
indeed, in following up with an appeal before I was placed on 
administrative leave. In fact, the office that is designated by 
regulation in the Department to adjudicate these issues, the 
Office of Declassification, was directed not to do their duties 
and provide the review.
    This is incomprehensible. Instead, the Assistant Secretary 
for Defense Programs, an organization which my office has been 
extremely critical of in recent years because of incidents that 
have become public in recent months, was tasked to do the job. 
The outcome was not a surprise. Their approach was sophomoric, 
based on speculation and supposition and a clear lack of 
tactical technical expertise. I believe this action to be a 
clear and obvious act of retaliation against myself and the 
office that has tried to bring forward an increasingly 
distressing message of failed security at the DOE laboratories.
    The timing of these charges shows a clear attempt to 
discredit and intimidate me immediately before I was to testify 
before the PFIAB, and most certainly before the Congress, 
relative to the recent espionage issues at the Department labs. 
I informed DOE that I had been asked to appear before Senator 
Rudman's panel to discuss DOE security on April 16. I was 
placed on administrative leave on April 19th; then called the 
next day and asked to delay my appearance before the panel 
until after Secretary Richardson could speak to them first.
    What is most disturbing, although doubtlessly ironic, is 
the Department's defense of its action by invoking the mantra 
of national security. The Department has adopted this position 
and the position that the content of the so-called security 
infraction is so secret that neither congressional staffs nor 
my attorneys can review the information in question. It is a 
variation on the old adage, ``I could tell you all about it but 
then I would have to kill you.''
    The fact that I must discuss this allegation in such a 
public forum is personally and professionally distressing. 
However, I feel compelled to do so because this action is one 
in a long history of suppression and reprisal against others 
and myself and, as such, I feel constitutes a serious and 
continuing abuse of power. I speak out in the trust that this 
committee and other Members of Congress will take the 
legislative steps necessary to protect individuals who continue 
to fulfill their responsibilities.
    Many career civil servants and contractors carry on their 
mission despite the likelihood that should they become the 
bearers of bad tidings they face harassment, open threats, and 
the loss of their careers and certainly their reputations. 
These men and women are sometimes all that stand between 
callous risk to the Nation's welfare and individuals who choose 
to say whatever will deliver the most favorable spin at the 
moment.
    I am here to tell you that these civil servants and 
Government contractors are watching what is happening to me and 
the other men at this table today. They are watching because 
they already know what has happened to others. Men such as John 
Hnatio, Jeff Hodges, Dave Leary, Jeff Peters, and Mark Graff 
have all had their careers ruined for coming forward and 
addressing serious lapses of security at DOE facilities. Can we 
continue to allow such intimidation, neglect and indifference 
regarding these serious matters? I tell you, the message that 
our employees have received thus far is, do your duty but do so 
at the risk of being smeared, fired, or both.
    This year, one of our best and longest-serving field 
Security Directors suddenly retired after attempting to take 
action against a contractor employee who willfully violated 
security procedures and admitted a Russian visitor with an 
untested computer to a security area at one of our facilities.
    In January 1997, David Reidenour, head of security for one 
of our sites, retired in disgust after only 90 days on the job. 
Mr. Reidenour said, ``In my professional life as a military 
officer, as a registered professional engineer and as a 
technologist, I have never before experienced a major conflict 
between loyalty to my supervision and duty to my country and 
the public. I feel that conflict today.'' Men like Rich 
Levernier, Gary Morgan, Don McIntyre, and Jay Stewart are 
joined by contractor Security Directors like Bernie Muerrens 
and Link White who tried to do the right thing for their 
country but were rewarded by replacement or reprisal.
    Today, men and women of conscience within the Department of 
Energy are falling silent because they do not see support from 
the top at a national level, and some simply cannot afford to 
go without the income they need to support their families. Mr. 
Chairman, these people shouldn't have to choose between doing 
the right thing and supporting their families.
    As the Director of the Office of Safeguards and Security, 
my team has provided senior DOE management with sound judgment 
regarding security at our Nation's most critical strategic 
nuclear facilities. We have provided specific action plans to 
correct shortcomings, sometimes even though much of what we 
have recommended has not been welcomed nor considered 
politically correct now that the cold war is over.
    However, the steady decline in resources available to the 
DOE Safeguards and Security Programs, as well as a lack of 
priority, or indeed in many cases no priority, have allowed the 
Department's security posture to deteriorate to a point where 
its effectiveness is highly questionable.
    I have included in my written testimony some references to 
unclassified reports from the Office of Safeguards and Security 
issued between 1994 and 1999, which document the reduction in 
the Department's nuclear security readiness. These reports are 
supported by hundreds of classified reports which provide 
detailed analysis of our sites. The information presented in 
the testimony I submit today is not new. The message of lax 
security has been repeated consistently over the last decade in 
reports prepared by my office, such as the Annual Reports to 
the Secretary in 1995, 1996, and 1997. In fact, these reports 
were frequently referenced and footnoted in the PFIAB report. 
They cite a litany of failed efforts, such as a computer 
security regulation that was rejected in 1995 by the 
laboratories and their DOE program Assistant Secretaries as too 
expensive. This change, which would have only required simple 
firewalls, passwords, and prudent business practices, may have 
prevented many of the losses of classified information which we 
have reported recently and, in fact, would have been less 
costly than the several days of shutdowns at our national 
laboratories, which we have already seen executed this year, to 
try to react to those losses.
    The 1997 Annual Report to the Secretary points out that 
most of our facilities by that time were no longer capable of 
recapturing a nuclear weapon or a nuclear facility if it were 
lost to an adversary, and describes the DOE security force as a 
hollow force because of excessive reductions in personnel and 
in training to our security police officers. Storage facilities 
are seen as aging and inadequate, and security alarm systems 
increasingly obsolete. These serious deficiencies are described 
and contrasted against the backdrop of increased openness to 
our sites, increased openness to our data, increased foreign 
visitation to both the sites and the security areas within the 
sites; increased declassification of information, while at the 
same time facing a 30 percent increase in the amount of special 
nuclear material which we were required to store, and a 40 
percent decrease in our budget.
    External reviews such as the earlier report to the 
Secretary by General James Freeze, or the Nuclear Command and 
Control Staff Oversight cite similar concerns. There have also 
been numerous GAO reports. However, the Department has not 
chosen to resolve these serious and longstanding problems.
    Secretary Richardson recently announced the selection of a 
new security czar. Based on the Secretary's announcement, many 
of these ongoing concerns could be answered. However, the 
Secretary's statements and the actual events occurring within 
the Department are strikingly different. A disturbing document 
entitled, ``Safeguards and Security Roles and 
Responsibilities'' has been circulated by the Under Secretary 
and some laboratory proponents that would give the security 
czar less authority than I had in the Department for the last 
10 years. Specifically, in the proposed structure, critical 
approvals would be delegated from the headquarters to the very 
laboratories that have allowed critical losses. Important 
security plans, as well as exceptions to national and 
departmental regulations, would be delegated to the field. And 
finally, oversight inspections would be conducted only ``for 
cause.''
    Based on initial reviews, ladies and gentlemen, this 
devolution of the few authorities reserved to the Department is 
in direct conflict with the serious negligence identified in 
both Congressman Cox's report and that of the PFIAB. It is the 
organizational equivalent of sending the fox in to count the 
hens. The head of such an eviscerated organization could hardly 
be called a czar. This proposal developed by the labs at a cost 
of almost $2 million is a perfect example of the organizational 
and policy interference by the labs that is well documented, I 
believe, also in the PFIAB report. It begs the question, who is 
in charge?
    May I have 30 seconds to close, sir?
    Mr. Burton. Yes.
    Colonel McCallum. Mr. Chairman, although the DOE security 
policy is carefully coordinated with the interagency through 
the U.S. Security Policy Board and is consistent with the DOE 
and other high security agencies, it has never been fully or 
successfully implemented in the DOE.
    The arrogant disregard for regulations and contract 
requirements and the long history of denial by the laboratories 
and DOE program Assistant Secretaries, have resulted in an 
ineffective program of protection and the loss of our Nation's 
most critical secrets.
    External oversight and separate line item funding--and I 
would like to underscore that--external oversight, such as 
proposed by the Senate, and separate line item funding for 
security are essential if the reform which the Department is 
talking about is to be effective.
    Meanwhile, the Department's history of harassment and 
reprisal has sent a clear warning that the government does not 
want to keep or attract its best and brightest. Despite current 
legislation, gaps exist in protections where classified 
information may be part of the issue. Willful negligence has 
flourished in the Department and will continue to do so as long 
as officials can hide behind capricious and sometimes malicious 
acts under the mantra of national security.
    While I place no higher value than duty to my country, some 
forum must be identified or chartered to assure that everyone 
has a fair and impartial hearing when they bring out 
wrongdoing. All of us must have the same right to due process 
which we expect as citizens and as provided for by our 
Constitution.
    Mr. Chairman, career civil servants are charged foremost 
with ensuring the public health and safety and the protection 
of our environment. However, if civil service is based solely 
on a personal or political whim, then the public will be 
protected and served only as long as it is politically 
expedient to do so.
    It is time to accept the responsibility that we have for 
nuclear and national security, correct past failures and 
rebuild our programs. Thank you, sir.
    Mr. Burton. Thank you, Lieutenant Colonel McCallum.
    [The prepared statement of Colonel McCallum follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.028
    
    [GRAPHIC] [TIFF OMITTED] T2262.029
    
    [GRAPHIC] [TIFF OMITTED] T2262.030
    
    [GRAPHIC] [TIFF OMITTED] T2262.031
    
    [GRAPHIC] [TIFF OMITTED] T2262.032
    
    [GRAPHIC] [TIFF OMITTED] T2262.033
    
    [GRAPHIC] [TIFF OMITTED] T2262.034
    
    [GRAPHIC] [TIFF OMITTED] T2262.035
    
    [GRAPHIC] [TIFF OMITTED] T2262.036
    
    [GRAPHIC] [TIFF OMITTED] T2262.037
    
    [GRAPHIC] [TIFF OMITTED] T2262.038
    
    [GRAPHIC] [TIFF OMITTED] T2262.039
    
    [GRAPHIC] [TIFF OMITTED] T2262.040
    
    Mr. Burton. Dr. Leitner.
    Dr. Leitner. Mr. Chairman, members of the committee, I 
would like to express my appreciation for your collective 
concern over the mistreatment of career civil servants 
essentially for speaking ``truth to power'' concerning the 
systematic pillaging of the United States Defense industrial 
base and our Nation's most precious military and nuclear 
secrets by the People's Republic of China.
    Appearing before you today is both an honor and a rather 
dubious distinction. To be victimized by my own government, 
particularly the Defense Department, for consistently putting 
the near- and long-term national security interests of the 
United States ahead of all other considerations, is something 
which I still find astounding to this day. I believe that a 
deadly combination of corruption, greed, careerism, indolence 
and possibly darker motives have brought us to this sad turning 
point in the nature of the military threats to the United 
States and countries along the Chinese periphery, extending 
from the Central Asian republics through the Indian Ocean and 
along the Pacific Rim.
    My particular story revolves around my documenting evolving 
military threats to the United States spurred by reckless 
transfers of advanced Western technology, technology capable of 
allowing potential military rivals such as the PRC to leapfrog 
generations of technological development and trillions of 
dollars of expenditures and to field advanced weapons systems 
faster than our experts have predicted. I have been 
systematically penalized for my initiative and efforts.
    From 1986 through 1990, I was consistently praised by DOD 
officials for my effectiveness in documenting and persuasively 
defending American technology security interests around the 
world in international negotiations, but all that changed in 
1990. That is when I authored the memo and charts presented as 
attachment A to my written testimony. That memo pointed out 
dangerous flaws in the methodology DOD was using in determining 
which technology to drop from international export control 
lists. For the mere act of composing this message for my chain 
of command, I was summarily recalled from Paris and ordered to 
get on the next flight home, where I was confronted by the 
first in a series of DTSA managers who place their personal 
interests and career advancement ahead of all else. I was told, 
``You are to be placed in a position of least trust in this 
organization: licensing.'' A remarkable statement as export 
licensing is the raison d'etre for the organization.
    After my being banished into licensing, I began to detect a 
disturbing pattern of Indian acquisition of United States and 
British parts and components for their attempt to build a so-
called indigenous supercomputer. I wrote a paper on this issue 
that received the support of the Defense Intelligence Agency 
and numerous technical experts. The DOD response: I was barred 
from looking at export licenses involving India.
    After these two incidents, my performance appraisal dropped 
from outstanding to an entire grade lower. My supervisor at the 
time told me he was ordered by the Director and Deputy Director 
of DSIA not to give me an outstanding rating. He then advised 
me that he would lower my written communication category 
because, after all, it was my memos that resulted in all of 
this.
    Earlier that year, I had been told I would be given a 
quality step increase as a result of my outstanding 
performance. This was quickly scrapped and I was denied a 
$2,600 pay raise. This was to be the first in a series of 
retaliatory financial sanctions which, in my reckoning, has 
cost my family between $75,000 to $100,000 to date, and over 
the course of my lifetime, certainly much more. The loss of 
income punishes not only me, but also my wife and four 
children.
    In May 1991, I authored a technical paper entitled, 
``Garrett Engines to the PRC: Enabling Its Long-range Cruise 
Missile Program.'' The controversy generated by this paper ran 
well into 1992 but eventually stopped a potentially disastrous 
technology transfer from taking place. The new administration 
was fighting tooth and nail to approve the transfer of cruise 
missile manufacturing technology to the PRC. While the 
technology transfer was prevented and the potential threat to 
the United States mitigated, I was nonetheless punished for my 
having been right.
    In 1994, I wrote a technical paper entitled, ``McDonnell-
Douglas Machine Tool Sales to the PRC: Implications for U.S. 
Policy,'' and refused a direct order to change my denial of the 
transfer of the Columbus, OH, B-1 bomber/MX missile/C-17 plant 
to China. The incident was the subject of a recent 60 Minutes 
broadcast.
    Later, I co-authored a study entitled, ``Transferring 
Stealth Technology to the PRC: Three Pieces to the Chinese 
Puzzle.'' This paper revealed how the PRC was targeting United 
States companies for technology acquisition with surgical 
precision.
    Late in 1995, a series of events heralded a new round of 
internal retaliation against me. First was the publication of 
my first book, ``Decontrolling Strategic Technology, 1990-1992: 
Creating the Strategic Threats of the 21st Century.'' The 
reaction of DTSA management, after desperate attempts to 
prevent publication of the book, was to artificially lower my 
performance appraisal and insert all manner of political 
language into my civil service rating. I appealed the rating, 
and while the score was raised somewhat, the political language 
was allowed to stand and I was again penalized financially.
    In 1997, reprisals began to intensify upon the publication 
of my second book and my being invited to appear before the 
Joint Economic Committee to discuss Chinese economic espionage 
and strategic technology transfer. Just before the hearing was 
to convene, DTSA management held a Directors meeting, where it 
was announced that no DTSA employees would be permitted to 
attend that hearing, and if any applied for annual leave for 
that purpose, it would be denied.
    It was in December 1997 that a campaign to further isolate 
me began; this time to confiscate my office computers, a laptop 
and a desktop. I was told DTSA management was afraid that I may 
use the computers to write testimony, books, or articles 
critical of DTSA actions or policies. Therefore, DTSA 
management reasoned, take the computers away and I will no 
longer be able to write or testify.
    About this time, I began to see and issue denials for a 
large number of export licenses originating with the DOE 
sponsored national laboratories. These licenses were to 
transfer a variety of high-tech equipment with direct 
applications to nuclear weapons development to Russia and 
China. I objected then and continue to object today to these 
so-called lab-to-lab transfers because there was no evidence of 
a security plan to protect U.S. technologies from being used 
against us. There was no evidence that the Department of Energy 
exercised any credible level of control over these activities. 
And after meeting with lab officials, it was apparent to me 
that the labs had become entrepreneurial and were creating 
programs, as much to resolve the loose nukes program, as it was 
to keep themselves employed and to avoid layoffs.
    In 1997, I witnessed the intentional orchestration by the 
administration of a series of events resulting in the false 
certification to Congress that China is not a nuclear 
proliferant. This provided the Chinese legal access to many 
nuclear technologies to complement that which they were engaged 
in stealing.
    I am proud to have been associated with Mr. Jonathan Fox, 
who had the courage to do what extremely few in government 
appear capable of doing these days: that is, recognizing and 
telling the truth.
    In April 1998, I again appeared before the Joint Economic 
Committee to discuss continuing problems with the growing 
strategic threat from China. Next I was subpoenaed to appear 
before the Senate Governmental Affairs Committee in June. My 
Senate testimony resulted in an investigation by the Inspectors 
General of six agencies of the management of the export control 
process.
    In August, I was called before the Cox/Dicks committee 
where I testified on the PRC threat and worked very closely 
with that staff, providing over 18 inches of documents and 
hours of follow-up interviews with staff.
    Ever since these testimonies, I have been subjected to, in 
staccato fashion, one adverse harassing act after another; the 
most prominent of these, further lowering of my performance 
rating, attempts to isolate me from attending meetings 
concerning nuclear exports--particularly when the IGs were 
visiting the interagency meetings as part of the followup on 
the Senate-requested investigations--a trumped-up letter of 
reprimand; sick leave harassment; a falsified charge of 
security violation, Colonel McCallum is well aware of how that 
affects you; and implied threats to charge me with 
insubordination or defiance of authority.
    These actions were deemed so serious that Senator Thompson 
twice wrote to the Pentagon, including to Secretary Cohen, 
expressing concern for his witness. In addition, the Office of 
Special Counsel has accepted my case for a full investigation 
of political reprisals and illegal retaliation.
    The politization of the career civil service is an 
extraordinarily dangerous and insidious process aimed at co-
opting, bypassing or eliminating unbiased professionals. 
Without a nonpartisan professional civil service, this Nation 
will be subjected to wild mood swings and radical policy 
changes that will wreak havoc. The professional career civil 
service is, in a manner of speaking, a dampening force, or, the 
Ritalin in the body politic which prevents dangerous and 
intemperate initiatives from getting out of control.
    DOD routinely engages in two questionable personnel 
practices: the militarization of DOD's civil service, by 
allowing widespread conversions of military personnel to 
civilian positions; and the inappropriate, possibly illegal 
use, of the Intergovernmental Personnel Act to directly appoint 
individuals without competition and avoid ceilings on political 
appointments. In many cases, particularly within the Defense 
Threat Reduction Agency, civil servants with decades of 
expertise in strategic weapons programs were shoved aside and 
demoted, while DOE lab employees were brought in to fill their 
posts.
    Between downsizing, contracting out, military rehires, and 
the abuse of the IPA program, the fundamental relationship and 
connectedness of government to the general population is being 
radically altered.
    I would like to call upon members of the Civil Service 
Oversight Committee to investigate the developments I have just 
described and prepare a legislative remedy to ensure that the 
congressional vision of the character of the career civil 
service and its importance to a free and open society is 
mirrored by reality.
    In the meantime, Congress should act swiftly to ensure that 
the pay cap on double dipping by retired military personnel be 
kept firmly in place. Removing the dual-compensation ceiling 
will only exacerbate the problems I have outlined above.
    It has been almost exactly a year to the date, June 28, 
1998, that I gave sworn testimony before the Senate 
Governmental Affairs Committee on the sad state of the export 
control process. It was 1 year prior to that testimony when 
Michael Maloof and I went to the DOD Inspector General's office 
to request a formal investigation of technology transfer to 
China and the national security threats it was creating. We 
were quite surprised when an IG Division Director said he was 
not interested in what we had to say and bluntly asked us to 
leave; simply threw us out.
    Is it any wonder that almost 10 months after Senator 
Thompson directed the IGs of the Defense, Commerce, State, 
Energy, Treasury, and CIA to undertake an extensive review of 
the export licensing process, that the DOD report is very weak? 
It does not reflect many of the issues brought up by DOD 
personnel.
    Should I be surprised that of the six IGs directed to 
followup on the concerns I expressed to the committee, only 
one, the DOD IG, even attempted to contact me? While I spent 
many hours speaking to the DOD IG, the reams of evidence I 
presented were minimized or shrugged off with statements like, 
``It is beyond the scope of our audit.''
    In fact, the Air Force's preliminary review of the draft 
report excoriated the IG on many issues.
    Tragically, nowhere in this government are analyses being 
performed to assess the overall strategic and military impact 
of these technology decontrols I described in my testimony 
before the Joint Economic Committee. Nor are any analyses being 
performed on the impact of the day-to-day technology releases 
being made by the dysfunctional export licensing process. Yet 
it is precisely at the big-picture level where the overall 
degradation of our national security will be revealed. Without 
such assessments, the government will continue to blunder 
along, endangering the lives of our citizens unnecessarily.
    On three separate occasions, I formally recommended the 
creation of a modeling simulation and research branch which 
would be dedicated to conducting such cumulative and tactical 
impact assessments. To date, the only cumulative impact 
assessments created within DTSA are those which I undertook 
independently and for which I was routinely subjected to 
reprisal.
    It is amazing to me how much time and effort has been spent 
on attempts to break or contain me, rather than monitor, 
analyze and protect our national security. I cannot begin to 
count the number of times I have been asked, ``How do you put 
up with this treatment? How do you manage to survive in that 
environment?'' Of course, the correct question should be: Why 
are people with such mean and self-serving agendas allowed to 
flourish, even be rewarded, for engaging in such ruthless and 
destructive behavior?
    As with the case of the six IGs, where only one deigned to 
contact me regarding the concerns I expressed to the Senate, 
why is it that at no time over these past 9 years has even one 
DOD official in my chain of command called me in to hear and 
perhaps even address the issues I raised? Even though DOD 
officialdom has been summoned to testify in open hearings and 
respond to my congressional testimony, I have yet to be called 
or invited to speak with anyone inside the Defense Department. 
Rather than address the issues, DOD's hierarchy appears more 
comfortable with targeting me for their minions to exact 
punishment and penalties, with the apparent goal of destroying 
my career.
    I am well aware that every move I make is being 
intentionally misconstrued by several henchmen within my 
organization as part of some next step in the retaliation 
process. The increasingly politicized and compliant bureaucracy 
cannot be relied upon to restore balance to the system. Only 
detailed and vigorous congressional oversight is capable of 
preventing these excesses and the dangerous legacy from 
undermining our children's future. Thank you.
    Mr. Burton. Thank you, Dr. Leitner. Very illuminating.
    [The prepared statement of Dr. Leitner follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.041
    
    [GRAPHIC] [TIFF OMITTED] T2262.042
    
    [GRAPHIC] [TIFF OMITTED] T2262.043
    
    [GRAPHIC] [TIFF OMITTED] T2262.044
    
    [GRAPHIC] [TIFF OMITTED] T2262.045
    
    [GRAPHIC] [TIFF OMITTED] T2262.046
    
    [GRAPHIC] [TIFF OMITTED] T2262.047
    
    [GRAPHIC] [TIFF OMITTED] T2262.048
    
    [GRAPHIC] [TIFF OMITTED] T2262.049
    
    [GRAPHIC] [TIFF OMITTED] T2262.050
    
    [GRAPHIC] [TIFF OMITTED] T2262.051
    
    [GRAPHIC] [TIFF OMITTED] T2262.052
    
    [GRAPHIC] [TIFF OMITTED] T2262.053
    
    [GRAPHIC] [TIFF OMITTED] T2262.054
    
    [GRAPHIC] [TIFF OMITTED] T2262.055
    
    [GRAPHIC] [TIFF OMITTED] T2262.056
    
    [GRAPHIC] [TIFF OMITTED] T2262.057
    
    [GRAPHIC] [TIFF OMITTED] T2262.058
    
    [GRAPHIC] [TIFF OMITTED] T2262.059
    
    [GRAPHIC] [TIFF OMITTED] T2262.060
    
    [GRAPHIC] [TIFF OMITTED] T2262.061
    
    [GRAPHIC] [TIFF OMITTED] T2262.062
    
    [GRAPHIC] [TIFF OMITTED] T2262.063
    
    [GRAPHIC] [TIFF OMITTED] T2262.064
    
    [GRAPHIC] [TIFF OMITTED] T2262.065
    
    [GRAPHIC] [TIFF OMITTED] T2262.066
    
    [GRAPHIC] [TIFF OMITTED] T2262.067
    
    [GRAPHIC] [TIFF OMITTED] T2262.068
    
    [GRAPHIC] [TIFF OMITTED] T2262.069
    
    [GRAPHIC] [TIFF OMITTED] T2262.070
    
    [GRAPHIC] [TIFF OMITTED] T2262.071
    
    [GRAPHIC] [TIFF OMITTED] T2262.072
    
    [GRAPHIC] [TIFF OMITTED] T2262.073
    
    [GRAPHIC] [TIFF OMITTED] T2262.074
    
    [GRAPHIC] [TIFF OMITTED] T2262.075
    
    [GRAPHIC] [TIFF OMITTED] T2262.076
    
    [GRAPHIC] [TIFF OMITTED] T2262.077
    
    [GRAPHIC] [TIFF OMITTED] T2262.078
    
    [GRAPHIC] [TIFF OMITTED] T2262.079
    
    Mr. Burton. Mr. Maloof.
    Mr. Maloof. Thank you.
    Mr. Chairman, members of the committee, I am appearing 
today in response to a subpoena from the committee. My name is 
F. Michael Maloof. I am Chief of the Technology Security 
Operations Division in the Technology Security Directorate of 
the Defense Threat Reduction Agency in the Department of 
Defense.
    You asked that I address the administration's effort to 
curb the flow of dual-use technology to China and efforts to 
safeguard United States facilities. You also asked for my 
testimony on intimidation or retaliation against government 
employees who have been involved in these policy areas and have 
expressed either reservation or opposition to administration 
policies. I am not in a position to discuss the 
administration's effort to safeguard U.S. facilities. However, 
I can address the issues of dual-use technology flows to China 
and intimidation.
    By way of brief background, Mr. Chairman, I have been with 
the Department of Defense since 1982. I have been a member of 
the senior management in the Technology Security Directorate 
since the creation of the Defense Threat Reduction Agency last 
year. Before that, I had been Director, since May 1985, of 
Technology Security Operations in the Defense Technology 
Security Administration when it was in the Office of the 
Secretary of Defense.
    The duties of my staff are to work with other agencies to 
monitor and to act as a catalyst to halt the diversion of 
sensitive technology to prescribed destinations, their weapons 
of mass destruction, and strategic conventional weapons 
development programs.
    From the data collected and detailed analysis conducted 
relating to diversion activity, my staff determines what 
technologies are being targeted, and by whom, and then 
identifies and develops policy issues and appropriate 
responses.
    In this connection, my office also works closely with the 
intelligence community and enforcement agencies. This was the 
case during the cold war during which we were responsible for 
halting diversions of sensitive technologies to COCOM 
proscribed countries of the former Soviet Union and Warsaw 
Pact, as well as China.
    One of our major cases during that period was the highly 
publicized Toshiba case in which the former Soviet Union 
illegally acquired militarily sensitive embargoed technology 
used in manufacturing specially skewed propellers to quiet 
submarines and thereby prevent their detection. Our efforts not 
only included the detection of this development, but working 
with the governments of other COCOM members, we were able to 
stop further Western assistance to that program.
    During Desert Shield and Desert Storm, my staff, along with 
a Naval intelligence reserve unit assigned to our organization, 
identified, analyzed, and sought to halt Western technologies 
on which Iraq depended for its conventional and unconventional 
weapons development programs. One of those cases involved 
uncovering the diversion of sensitive night vision devices to 
Iraq by a Dutch company. The timeliness of this discovery 
allowed for appropriate countermeasures to be developed and 
delivered to our troops on the ground prior to the start of 
Desert Storm. I like to believe that our efforts resulted in 
saving the lives of many of our troops.
    Another case involved the ultimate seizure by United States 
Customs of a high-temperature furnace which was about to be 
exported to Iraq. It was to be combined with a number of other 
uncontrolled furnaces to form a complex for the melting of 
materials essential for nuclear weapons development.
    After the Gulf war, this case served as a basis for 
expanding export regulations to include a catch-all provision 
for uncontrolled technologies with application for chemical and 
biological weapons development and their delivery systems.
    The duties of my office also include doing end-user and 
end-use checks for license applications, whether dual-use or 
munitions. We make every effort to apply analysis, information 
from the intelligence community and enforcement data to every 
application.
    With this background, Mr. Chairman, it was natural for me 
in the early 1990's to raise concerns with my management over 
what I would call the beginning of wholesale liberalization and 
decontrol of militarily critical technologies without the 
benefit of thorough strategic analysis. In my opinion, such 
sweeping initiatives made virtually irrelevant any analysis as 
to their strategic consequence. Technologies included such 
areas as machine tools, high-performance computers, 
telecommunications, propulsion for power projection, stealth 
and technologies with application for nuclear uses.
    Even though we were undergoing a change in policy, it was 
apparent that it was designed to allow greater technologies to 
go to China. This policy change assumed a good end-user/end-
use. In China, that was almost impossible to detail since 
Chinese officials had placed a ban on United States officials 
from undertaking prelicense and postdelivery shipment checks 
for sensitive technology exports.
    The previous policy, in coordination with the Joint Chiefs 
of Staff, had identified six special mission areas for which 
technologies for any one of them would be subject to close 
scrutiny, regardless of end-user and end-use.
    On a number of occasions, I had suggested to my management 
that a policy review of these special mission areas was 
necessary to update them and steer away from what I believe was 
a questionable end-user/end-use approach.
    I also expressed concern many times with my front office 
about not escalating cases on which we initially would 
recommend denial in interagency appeal sessions. All that the 
other agencies had to do was wait us out, knowing that our 
front office would not escalate a serious case to higher level 
policymakers, and it would be approved.
    In addition, I suggested on numerous occasions that we 
needed to undertake cumulative impact assessments of those 
technologies which had been approved to determine the strategic 
impact of those exports.
    One of a number of such cases which manifested all of these 
concerns was the export in 1994 to China of a considerable 
number of controlled and uncontrolled machine tools from the 
McDonnell-Douglas facility in Columbus, OH. Dr. Leitner and I 
recommended denial on this case.
    My concern here was over the potential for diversion of 
some or all of these machine tools, and that is exactly what 
happened. And because that case, almost 5 years later, still is 
under criminal investigation by the Justice Department, I guess 
it would not be appropriate for me to go into detail of it 
here.
    So it is not surprising that my management would regard me 
and my views on China as a ``Cold war throwback who can't 
reconcile himself to the inevitable easing of export 
controls,'' according to the attached November 27, 1998, Wall 
Street Journal.
    My concerns, however, were and remain over the strategic 
impact of these exports, not the commercial advantage they 
would give to certain companies.
    I can only presume that it is this perspective which led to 
an open clash between me and my management over China, 
beginning in April 1998, over the Hughes-Loral satellite 
matter.
    A New York Times article had detailed how the 
administration was allowing further space activities with 
China, despite the fact that a grand jury was meeting 
concerning the possible illegal release of sensitive technical 
data to the Chinese.
    The technical data involved assisting China in solving 
certain guidance problems of rockets used to orbit commercial 
satellites. On the day of the New York Times piece, I received 
a call from Assistant Secretary of Defense for Public Affairs, 
Ken Bacon. He said he wanted to know what was behind the story, 
that the Secretary of Defense had been having breakfast with 
reporters and was, ``blind-sided,'' by events surrounding this 
story.
    I gave him a brief summary. He called back later for more 
details and I offered to go to his office to show him what we 
had on the case as background for the Secretary. He accepted. I 
also informed my front office.
    The initial front office reaction was that no materials 
were going to be provided to Mr. Bacon. Later, Mr. Bacon called 
my front office and it was agreed that my boss would take the 
meeting with Mr. Bacon but I was not to accompany him. My boss 
said that he had to inform Mr. Bacon of events which were 
occurring on this case, but he would not elaborate.
    I then received a call from an individual in C3I inquiring 
about the background of the news story. That individual did an 
electronic mail summary to her boss. My front office obtained a 
copy. I was called in, asked why I discussed the issue on 
something which I was not working.
    I corrected my bosses and informed them that we had been 
involved earlier in the process and I had some 10 volumes of 
binders from the exporters in my office to prove it. The 
immediate response was disbelief and a further admonition that 
I had not been working on the issue.
    This comment was my first indication that issues relating 
to satellites were being handled but only by a few people in 
our entire organization, with my office being bypassed for the 
most part. Furthermore, my front office accused me of using, 
``poor judgment,'' in talking to the individual at C3I. This 
reaction and its vitriolic tone took me totally by surprise.
    I sought to obtain what the New York Times described as a 
``highly classified Pentagon report,'' on the satellite issue, 
but was informed that I could not have access to it since I did 
not have a ``need to know.'' It is my understanding that the 
report developed in cooperation with the Department of State 
was very critical of certain U.S. satellite exporters.
    Indeed, in subsequent cases relating to China, my front 
office continued to use this mantra of not having ``a need to 
know,'' as justification to keep me from learning details or 
the outcome of certain China cases, many of which I had worked 
on at various stages.
    I expressed my dismay to the front office over this kind of 
treatment. I informed them that in all the years I had worked 
at the Department of Defense and looked into possible 
diversions, I never had been told to refrain from looking into 
a possible export control violation.
    Despite the admonition not to speak to anyone about the 
Hughes-Loral matter, I called our U.S. Customs liaison officer, 
who confirmed that there had been an ongoing Justice Department 
investigation of the case for almost a year. Customs was 
pursuing the investigation on behalf of the Justice Department. 
He further stated that continued approval of satellite exports 
was damaging the case. It then became apparent to me that the 
reason for handling Chinese satellite issues among a very few 
people and keeping quiet any information concerning an 
investigation was to ensure that satellite cases continued to 
be approved, unimpeded.
    I can only surmise that my front office recalled previous 
cases in which we had suspended all license applications of an 
applicant prior to any indictments or convictions even before 
the completion of an investigation. There were two other cases, 
one of which involved the Dutch company diversion of night 
vision devices to Iraq, a case I referred to earlier. Given the 
admonition not to speak to anyone outside of DTSA about the 
Hughes-Loral matter, I did not think such a restriction applied 
to people within DTSA.
    I approached our satellite technical expert who immediately 
became quite nervous. I specifically wanted to know if we were 
seeing any of the Presidential waivers and what technologies 
they may have encompassed. The waivers were required because of 
Tiananmen Square sanctions to satellite exports to China. The 
engineer stated that he was under a gag order, had been 
interviewed a year earlier by the Justice Department concerning 
its investigation, and that our boss had known about the 
investigation for all that time.
    In response, the engineer said that our boss had 
electronically ``firewalled,'' any recommendations to the front 
office that he had made on the cases so that even he could not 
retrieve them. In addition, the engineer said that he had been 
ordered to destroy any hard copy of his recommendations. As a 
career employee, I felt obliged to report this episode to the 
U.S. Customs agents who were investigating the Hughes-Loral 
matter on behalf of the Justice Department. By this time, I had 
been working with the investigators to provide background 
papers and positions on previous cases, all relating to China. 
The Assistant U.S. Attorney and Customs investigators 
interviewed the engineer. He returned after a number of hours, 
confronted me and said that the Assistant U.S. Attorney and 
Customs agents had identified me as the source of their 
information. The engineer then proceeded to inform the front 
office.
    All of this took place in April 1998. It was during this 
period and succeeding months that all of our records pertaining 
to China, including past cases, were subpoenaed by law 
enforcement authorities. The same materials were made available 
in the central reading room, under the control of the Defense 
Department General Counsel, to the myriad of congressional 
committee investigators from the House of Representatives and 
the Senate.
    I personally received two congressional subpoenas, one from 
Senator Fred Thompson, chairman of the Senate Governmental 
Affairs Committee, and the other from Representative 
Christopher Cox. All of my records pertaining to China also 
were in the hands of the Cox committee, and I was asked about 
them in depositions to the committee staff.
    Since then, the front office has systematically isolated me 
from any of the major issues with which our organization is 
involved. In seeking to find out what those issues are, my 
bosses interpreted my inquires as ``spying,'' and asked me why 
I wanted to know. In addition, virtually all weekly Directors' 
meetings had ceased, which remains the case to this day.
    The front office also had created a so-called COMSAT group 
comprised of representatives from every division within DTSA, 
except mine. My staff and I were kept from any satellite 
discussions.
    This also was the period in which job appraisals were due. 
I was informed that I would be given an outstanding rating but 
would not be given a cash bonus. I later was informed that I 
was the only DTSA Director who received an outstanding rating 
but did not receive any cash bonus.
    The reason given was that I needed to do more work in 
keeping with senior DTSA management priorities. I asked my 
bosses how I could be accused of spying, on the one hand, to 
determine DTSA priorities, but be admonished for not following 
them in view of the isolation treatment. There was no ready 
answer.
    In my opinion, this act constituted political retribution. 
The isolation continues to this day. Discussion and action on 
issues are conducted by the front office, with the 
participation of a chosen few.
    In addition, as people have rotated from my staff, the 
positions either are not allowed to be filled or the billet is 
taken away. This was the case recently when one of my Navy 
personnel retired. This billet was transferred to accommodate 
an increase in satellite monitors. Congress recently authorized 
some 30-such billets to DTSA. I then asked if that slot could 
be returned due to the need we had to fulfill our analytical 
and monitoring duties. I never received a response.
    My Deputy of many years recently transferred to another 
part of the agency, but to this day the front office has not 
allowed me to fill that billet either. Instead, I have had to 
write a series of memos to justify the need to fill it. Still, 
no response. This slow chipping away comes at a time when we 
should be doing more analysis and cumulative assessments of 
technology transfers and determining their impact on U.S. 
strategic capabilities.
    In my opinion, this is one of the value-added roles of the 
Department of Defense in the export licensing process.
    Mr. Burton. Mr. Maloof, I am sorry to interrupt you but we 
are trying to stay as close to the 10 minutes as we can. Could 
you wrap up here? And anything else that you have, we will 
submit for the record. I don't want to miss any of your 
testimony, but we do have to finish.
    Mr. Maloof. OK. Fine.
    I would say that in terms of looking for cumulative 
assessments, Mr. Chairman, I went ahead and started doing my 
own cumulative assessments because we just did not have that 
kind of information available over time. I would add that the 
intelligence community, in my view, still does not look at 
technology transfers as they used to during the 1980's, and in 
that context the types of technologies that we have seen going 
to the Chinese over time have filled many areas that we warned 
about, particularly in terms of ballistic missiles, modernizing 
its military.
    It has also gone for improvement of power projection for 
surface fleets, making more proficient fighters and bomber 
aircraft. And these advances, Mr. Chairman, happen to coincide 
with those special mission areas identified early in the mid-
eighties by the Joint Chiefs of Staff to be concerned about 
regarding tech transfers.
    In referring back to what Mr. Ken Bacon said in that Wall 
Street Journal article, Mr. Chairman, the Defense Secretary's 
spokesman said in talking to Maloof's bosses and others, ``We 
do not believe we have allowed the transfer of technology to 
China that presents national security vulnerabilities.''
    I would suggest that this conclusion is at extreme variance 
with the results of the Cox committee study. I have come to 
realize that there is little recourse for professionals to 
sound an alarm when the system is unresponsive. I am equally 
dismayed over the magnitude of the strategic contributions from 
cumulative technology transfer to China, that they have 
occurred on my watch, even though I sought to avoid such a 
development, but instead was isolated, ignored, and subject to 
political retribution.
    The tragedy is not what is being done to me now. The real 
tragedy is that we will not realize the full military impact 
and national security threat from these technology transfers 
for another 5 to 10 years. Only then will we understand the 
extent and true cost for having mortgaged the security of our 
children and our Nation's well-being.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Maloof.
    [The prepared statement of Mr. Maloof follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.080
    
    [GRAPHIC] [TIFF OMITTED] T2262.081
    
    [GRAPHIC] [TIFF OMITTED] T2262.082
    
    [GRAPHIC] [TIFF OMITTED] T2262.083
    
    [GRAPHIC] [TIFF OMITTED] T2262.084
    
    [GRAPHIC] [TIFF OMITTED] T2262.085
    
    [GRAPHIC] [TIFF OMITTED] T2262.086
    
    [GRAPHIC] [TIFF OMITTED] T2262.087
    
    [GRAPHIC] [TIFF OMITTED] T2262.088
    
    [GRAPHIC] [TIFF OMITTED] T2262.089
    
    [GRAPHIC] [TIFF OMITTED] T2262.090
    
    [GRAPHIC] [TIFF OMITTED] T2262.091
    
    [GRAPHIC] [TIFF OMITTED] T2262.092
    
    Mr. Burton. Mr. Fox.
    Mr. Fox. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Fox, prior to your comments, let me just 
say that I understand that your statement does not go into the 
October 1997 memo and who asked you to write it and what you 
wrote and what happened afterwards. So at the conclusion of 
your remarks, I wish you would allude to that.
    Mr. Fox. Thank you very much, Mr. Chairman. I certainly 
will.
    Mr. Burton. I just want to state to all of you prior to 
your testifying, that if there is any indication of retaliation 
or reprisals because of your testimony, I want you to 
immediately contact my office and we will look into it, because 
I don't think you or your families should be penalized in any 
way for doing your duty.
    Mr. Burton. Mr. Fox.
    Mr. Fox. Thank you very much, Mr. Chairman.
    Mr. Chairman, Members of this honorable House, I am obliged 
to appear before you today by order of subpoena. I have neither 
sought nor solicited this honor. It is an obligation on my part 
which has arisen through disclosures of a public and 
independent nature over which I have had no control or 
influence. It is an obligation not without risk, and I would be 
less than honest if I did not admit that it is undertaken with 
no small concern for my personal and professional future 
prospects.
    Duty compels me to be here today. It is a duty enforced by 
the oath I took as an attorney, and as a member of the public 
service. In its simplest form, it is the duty to obey the law. 
It is the obligation to afford the workings of the law and that 
of a duly constituted legislative inquiry the utmost respect, 
and it is the duty to execute those responsibilities entrusted 
to me without fear or favor.
    It is incumbent upon me to tell the truth. It is a key 
responsibility of public service. I am prepared to answer 
whatever questions you may have with candor and honesty. My 
answers will be grounded upon direct knowledge, information, 
and belief. I cannot speculate upon things of which I have no 
knowledge and will respectfully decline to do so if called 
upon. Unfounded speculation will only hinder the progress and 
credibility of this inquiry, and my respect for this House is 
too great to engage in such conduct.
    Two hundred years ago, President John Adams advised his son 
John Quincy to ``never let the institutions of polite society 
substitute for honesty, integrity, and character.'' My father, 
a concentration camp survivor, memorized that phrase and taught 
it to me when I was very young. I have always tried to comport 
my career in public service according to that standard. Whether 
I have succeeded will be determined to no small extent by the 
impressions you carry away from today's proceedings.
    Mr. Chairman, I am the most unlikely rebel. I make no 
pretensions to any excessive nobility or courage. Whatever 
distinction I possess in this area is entirely due to the 
company I find myself in today, and I thank Mr. Maloof and Dr. 
Leitner for publicly standing by me when few other of my 
colleagues would.
    Mr. Chairman, and members of this committee, this concludes 
my formal prepared opening statement. Thank you for your kind 
indulgence. I am prepared to answer any questions you may have.
    [The prepared statement of Mr. Fox follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.093
    
    [GRAPHIC] [TIFF OMITTED] T2262.094
    
    Mr. Fox. I am informed by correspondence from the Office of 
Secretary of Defense General Counsel that any document requests 
arising from my testimony must be referred to them, and 
therefore I am not authorized to release any official documents 
on my own volition.
    Now, to the points that you asked me to raise, Mr. 
Chairman, as a supplement to my prepared opening statement.
    In October 1997, I served as the DOD technical advisor on 
behalf of my then-existing agency, the Defense Special Weapons 
Agency, to the Interagency Subcommittee on Nuclear Export 
Controls. It was my job, it had been my job since approximately 
November 1996, to provide technical review to the various 
proposed nuclear technology and nuclear material transfer 
arrangements that are governed by the Atomic Energy Act and the 
Nuclear Nonproliferation Act.
    In October 1997, particularly the week of October 23, 1997, 
a request for such a review came across my desk. That review 
concerned a subsequent arrangement of nuclear technology that 
had been negotiated or proposed under the 1985 Agreement for 
Cooperation and the Peaceful Uses of Atomic Energy negotiated 
between the United States and China. As part of the 
implementation of this agreement, Congress mandated that the 
President of the United States must certify that any subsequent 
reciprocal arrangements or technology transfers, particularly 
concerning nuclear technology, concluded under that agreement, 
must be designed to effectively ensure that any nuclear 
materials, facilities, or components provided be utilized 
solely for peaceful purposes. Congress also determined that 
arrangements concerning information exchanges and visits 
negotiated under that agreement would be deemed subsequent 
arrangements, personal intersection 131-A of the Atomic Energy 
Act of 1954, as amended, and subject to the required findings 
and determinations defined under that act.
    As the parties to the 1985 United States and Chinese 
Agreement for Cooperation on the Peaceful Uses of Atomic Energy 
were both nuclear weapons states, diplomatic channels 
establishing mutually acceptable information exchange and 
visitor arrangements were to be utilized in lieu of bilateral 
safeguard provisions.
    I received the request for this technical review on, I 
believe, a Tuesday or a Wednesday. The request had a deadline 
of that Friday, October 24, 1997, with the proviso that all 
reviews must be in, must have been completed, by that date in 
anticipation of the arrival of the Chinese Premier for a summit 
to begin the following Sunday.
    I reviewed the agreement pursuant to a memorandum of 
understanding which I had written, as a matter of fact, in 
1996, a memorandum of understanding which provided technical 
support for the Office of Secretary of Defense Policy Division 
and which allowed our office--and which provided for our office 
to provide technical assistance and evaluative support for such 
nuclear technology transfers.
    I reviewed the proposed information exchange and technology 
transfer agreement proposed between the United States and the 
People's Republic of China and concluded, after my review, that 
the statutory and regulatory requirements dictated by the 
Atomic Energy Act and the Nuclear Nonproliferation Act had not 
been met and that I could not, in good conscience, from a 
technological viewpoint, certify that the proposed agreement 
did not pose a risk of nuclear weapons and nuclear military 
technology proliferation. The United States and China had 
negotiated an information exchange and technical cooperation 
reciprocal arrangement. The Department of Energy requested 
consultative review of this proposed implementing arrangement, 
in compliance with the provisions of the Nuclear 
Nonproliferation Act of 1978.
    I conducted my review and I detailed the results of our 
technical assessment. The terms of the then-reciprocal 
arrangement were relatively simple and direct. The United 
States and China would be afforded annual opportunities to send 
technical experts to each other's civil reactor sites, observe 
operations in reactor fueling, exchange and share technical 
information in the operation and maintenance of nuclear power 
generated at associated facilities, exchange detailed 
confidence-building and transparency information on the 
transfer, storage and disposition of fissionable fuels utilized 
for ostensibly peaceful purposes, and disclose detailed reactor 
site operational data to include energy-generated end-loading.
    The criteria that I was authorized to utilize under the 
support agreement memorandum of understanding was likewise 
relatively simple and straightforward. Section 131 of the 
Atomic Energy Act and related legislation such as the Nuclear 
Nonproliferation Act required a rather thorough inquiry into 
such arrangements, such proposed arrangements.
    The inquiry had to address whether the contemplated state 
action will result in a significant increase of the risk of 
nuclear weapons technology proliferation. It also had to 
consider whether the information and expertise shared under the 
proposed arrangement could be diverted to either a nonnuclear 
state for use in the development of a nuclear explosive device 
and whether the United States could maintain an environment 
where it would obtain timely wording of the imminence of such 
diversion.
    This process was both objective and subjective to no small 
extent. Namely, in light of the answers given to those two 
preceding questions, would the arrangement as proposed not be 
inimical to the common defense and security?
    My assessment concluded that the proposed arrangement 
presented real and substantial risk to the common defense and 
security of both the United States and allied countries, an 
assessment and a conclusion I continue to stand by today.
    I further found that the contemplated action proposed in 
1997 could result in a significant increase of the risk of 
nuclear weapons technology proliferation. I similarly concluded 
that the environment surrounding these exchange measures could 
not guarantee timely warning of willful diversion of otherwise 
confidential information to non-nuclear states for nuclear 
weapons development.
    Concurrently, the agreement as then presented to both us 
and as ultimately presented to the U.S. Congress, could not 
ensure that whatever was provided under this reciprocal 
arrangement could be utilized solely for intended peaceful 
purposes.
    At the time I made this assessment, I was not unmindful of 
the political consequences and the political importance 
attached to this agreement.
    However, the very nature of this contemplated arrangement, 
in my opinion, required a significant examination of the past 
state practices of the prime beneficiary of what I believed, in 
final analysis, to be a technology transfer agreement swaddled 
in the comforting yet misleading terminology of a confidence-
building measure. Inarguably I believe that the People's 
Republic of China benefited most from what technical 
information would be generated by these exchanges. I believed 
then and I continue to believe today that a review of state 
action particularly in technology transfers concerning nuclear 
technology and nuclear materials, where the sole guarantee of 
nondiversion would be diplomatic representations, required a 
review of past state actions of a prime beneficiary.
    Mr. Burton. Pardon me for interrupting, Mr. Fox. Mr. Shays 
is going to cover some of this in his questioning. So I think 
what we will do now, since the time has run out is, we will 
recognize Mr. Shays. We've got a vote that is going to be 15 
minutes, I think you might be able to conclude your questioning 
before we do that.
    Mr. Shays. I would be happy to do that.
    Mr. Burton. Mr. Shays.
    Mr. Shays. First I thank all of our witnesses, and I know 
it's very difficult for all of you to be here, and when you 
serve your country and you serve your country well, to have 
people question it, it must, one, boggle your mind, and, two, 
make you very angry, and, three, be very hurtful as well.
    Mr. Fox, I know you not to be a willing witness in the 
sense you would just as soon not be here, and I also know that 
you have a spouse who works in the Government, and it is not 
easy to do something that might endanger your career or your 
wife's career, and I also know that you're here to answer, 
hopefully, the questions that are going to be put before you.
    What I would request is that the memo that you sent be put 
up on the screen. I believe this is the memo that you wrote. 
It's kind of small up there. Is this the memo that you are 
referring to in your testimony? You can see it on the screen.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.095
    
    [GRAPHIC] [TIFF OMITTED] T2262.096
    
    [GRAPHIC] [TIFF OMITTED] T2262.097
    
    [GRAPHIC] [TIFF OMITTED] T2262.098
    
    Mr. Fox. Yes, it is. This is a copy of the memo of--a 
rather poor copy, but a copy nonetheless, of the memo I wrote.
    Mr. Shays. And the first page I see on the right, keep. Who 
is that? Who wrote that?
    Mr. Fox. The notations in the margin are my words. Those 
are my notes on the memo, and those originate from a discussion 
that I had with my then superior in OSD policy.
    Mr. Shays. And you need to identify your superior.
    Mr. Fox. Mr. Michael Johnson.
    Mr. Shays. Now, Mr. Michael Johnson had taken a look at 
this memorandum that you wrote?
    Mr. Fox. Yes.
    Mr. Shays. And had attempted to reach you just casually, or 
did he want to speak to you about this memorandum?
    Mr. Fox. No, oh, he wanted to speak to me about this. I had 
completed my memo. I completed my analysis recommending the 
nonapproval of the Chinese technology transfer.
    Mr. Shays. I'm going to have you read a paragraph, but the 
bottom line is, he wanted to speak to you. He contacted you 
once, he called again, and you finally called him.
    Mr. Fox. Yes. I sent the memo in Thursday night. Friday 
morning, on my way to the weekly Interagency Subcommittee on 
Nuclear Export Controls, he attempted to reach me several times 
and finally reached me through our divisional secretary.
    Mr. Shays. And was he pleased with what he read?
    Mr. Fox. No. He was quite upset as a matter of fact.
    Mr. Shays. Why would he be upset?
    Mr. Fox. When I finally did get a chance to speak to him, 
he indicated that this was not what was being looked for. He 
indicated that in light of my memo, I would be lucky if I still 
had my job by the end of the day. He indicated that.
    Mr. Shays. Was that with a laugh, you know, ha, ha?
    Mr. Fox. No, it was not a joke, I assure you, and it was 
not communicated to me in a joking manner, and I did not take 
it in a joking manner.
    Mr. Shays. OK. He got your attention?
    Mr. Fox. Oh, he certainly did. Not being independently 
wealthy, any attempt to cut short my income----
    Mr. Shays. You took him seriously, and he wasn't happy, and 
what did he want you to do, throw away your memorandum?
    Mr. Fox. No. He indicated that the matter having been 
decided far above our pay grade, he wanted me to change my 
memorandum in order to have it reflect a more appropriate 
conclusion.
    Mr. Shays. OK. And now he's not even claiming that it was 
his decision, he's saying someone else above his pay level?
    Mr. Fox. Yes, and that is why, sir, I have never held the 
gentleman personally responsible, and I've never held any ill 
will against him. I believe that this was dictated far above 
our mutual levels.
    Mr. Shays. I don't have a sense you have any ill will 
against anyone at the moment, but what I do understand is that 
he then, what, went through the memorandum with you?
    Mr. Fox. Yes, he did.
    Mr. Shays. Paragraph by paragraph?
    Mr. Fox. Yes, he did.
    Mr. Shays. So I assume--the ``keep'' was that he was 
comfortable--explain what the ``keep'' means.
    Mr. Fox. Yes. What had happened was that we spoke, and 
ultimately what was decided was that he wanted from the second 
page on, the portion with the line drawn----
    Mr. Shays. Let's go to the second page, if you can.
    Mr. Fox [continuing]. To be deleted entirely of my 
substantive judgment.
    Mr. Shays. Was that your line or his line?
    Mr. Fox. That was his line.
    Mr. Shays. Pretty clear then.
    Let's go to the next page. The third page has another line. 
So all of that is highlighting, saying out it goes?
    Mr. Fox. Yes, sir.
    Mr. Shays. Now, did Johnson give you any indication of what 
outcome he wanted from your memorandum?
    Mr. Fox. Yes, he did. What happened was when I was 
ultimately counseled by various colleagues to indeed not fall 
on my sword, but rather----
    Mr. Shays. No, I want to know what outcome did he want. You 
said this was not a good agreement. What outcome did he want?
    Mr. Fox. He wanted the memorandum to reflect that there 
would be no inimical impact upon national security.
    Mr. Shays. I'm going to ask you to read in the second page 
that whole paragraph starting with, this assessment concludes.
    Mr. Fox [reads]:

    This assessment concludes that the proposed arrangement 
presents real and substantial risk to the common defense and 
security of both the United States and the allied countries. It 
is further found that the contemplated action can result in a 
significant increase of the risk of nuclear weapons technology 
proliferation.
    The assessment similarly concludes that the environment 
surrounding the exchange measures cannot guarantee timely 
warning of willful diversion of otherwise confidential 
information to nonnuclear states for nuclear weapons 
development. Concurrently, the agreement as presented cannot 
ensure that whatever is provided under this reciprocal 
arrangement will be utilized solely for intended peaceful 
purposes.

    Mr. Shays. Now the question is, did you know that there was 
supposed to be an outcome before you wrote this?
    Mr. Fox. No, I did not.
    Mr. Shays. So you did what you thought you were supposed to 
do, come to an assessment as was your responsibility. What was 
your title at the time?
    Mr. Fox. My title at the time was arms control specialist; 
I was an arms control specialist with this additional duty 
assigned. My title was export control coordinator, something of 
that nature.
    Mr. Shays. So you were doing your job?
    Mr. Fox. I was doing what was assigned to me as well as an 
additional duty to my primary duties.
    Mr. Shays. Now, we could have you read other parts of it, 
but it's pretty clear that you were saying this was not an 
agreement that should be carried forward. You were being told 
that they wanted the exact opposite conclusion.
    Mr. Fox. Yes, sir.
    Mr. Shays. So what I would like is, where did they ask you 
to insert it? In place of what was crossed out, is that what 
was asked to be inserted?
    Mr. Fox. Yes, sir.
    Mr. Shays. Do you have that in front of you?
    Mr. Fox. I certainly do.
    Mr. Shays. Now, was that something you wrote or something 
someone else wrote?
    Mr. Fox. This was language that was provided to me by Mr. 
Johnson.
    Mr. Shays. Now, did you feel comfortable signing this?
    Mr. Fox. No, I did not.
    Mr. Shays. Tell me why you didn't feel comfortable signing 
it.
    Mr. Fox. Because I believed that it was not true.
    Mr. Shays. You were being asked by your superiors to say 
something that wasn't true. In other words, a whole 180 degree 
turn?
    Mr. Fox. Yes, sir, except when this memo was to be--when 
the new memo was to be submitted, I was specifically directed 
not to sign it, but to have a more senior individual sign it. 
My signature on this memo would be too blatant an appearance 
that I had been indeed coerced into changing my mind.
    Mr. Shays. We're running out of time. I just hope that 
further questions just talk about what happened after, to you 
personally.
    Are you still continuing in the same role?
    Mr. Fox. No, sir, I am not, and I have not, with one 
exception, since October 1998.
    Mr. Shays. Mr. Chairman, I would yield back.
    Mr. Burton. Would the gentleman yield to me real quick?
    Dr. Leitner, I understand you were at that meeting.
    Dr. Leitner. Yes, sir; yes, I was.
    Mr. Burton. And you can verify what Mr. Fox is saying?
    Dr. Leitner. Yes, I was there; in fact, Mr. Fox comes----
    Mr. Burton. We've got to run and vote. I just want to 
quickly ask a couple of questions, then we will come back after 
we vote.
    So the memo regarding our national security, the assessment 
was made that this was a risk to our national security, was 
changed 180 degrees from somebody higher up above this fellow's 
pay level, because, in your judgment, we have the President of 
China coming over the next week, and they didn't want to upset 
the apple cart?
    Dr. Leitner. Yes, sir.
    Mr. Burton. Is that your judgment?
    Mr. Fox. I was told that specifically, sir.
    Mr. Burton. I thank the gentleman for yielding.
    We will be back in about 10 minutes.
    [Recess.]
    Mr. Burton. We will reconvene. There will be Members coming 
back into the room. When we have a vote like this, people get 
strung out, so if we can have the witnesses back at the table.
    I ask unanimous consent that all exhibits and materials 
referred to during the hearing be included in the record, and 
without objection so ordered.
    We will now recognize the distinguished gentleman from 
California, Mr. Horn, for questioning. Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman.
    Colonel McCallum, as I recall, you served in Vietnam, and 
you were decorated in Vietnam, I believe.
    Colonel McCallum. Yes, sir, that's true.
    Mr. Horn. And for your work in intelligence, you also have 
been awarded in your civilian capacity; is that correct?
    Colonel McCallum. That's correct, sir.
    Mr. Horn. And is this the first time when--the examples 
that you've shown us and testified on under oath--that you've 
ever had your work really questioned; is that not correct?
    Colonel McCallum. I believe that's the case, sir.
    Mr. Horn. Let me go down the lines of the procedures that 
the Department of Energy is supposed to follow in a situation 
such as they were creating for you.
    There's--it's on the various charts over here, and if you 
don't have it--yes, it's that document in front of you. I just 
want to go down the line with a yes/no answer.
    Did the Department of Energy in reviewing your situation 
make a determination if information in question is properly 
classified; did they or didn't they?
    Colonel McCallum. They did not, sir.
    Mr. Horn. Did a Security Director interview you, the 
employee?
    Colonel McCallum. I have never been interviewed.
    Mr. Horn. The third one is the Director of Security makes a 
recommendation to the employee's managers. Did that ever 
happen?
    Colonel McCallum. No, Mr. Congressman, that did not.
    Mr. Horn. No. 4, after consultation with the Director of 
Office of Safeguards and Security, the manager either 
terminates the process in the employee's favor or begins an 
administrative review proceeding. Did that happen?
    Colonel McCallum. No, sir, it did not.
    Mr. Horn. And presumably within 2 days of beginning such a 
proceeding, the manager shall suspend the employee's security 
clearance. That never happened?
    Colonel McCallum. That has never happened, sir.
    Mr. Horn. No. 5 of their own procedures is the manager 
gives an employee a letter of notification explaining why the 
clearance has been questioned within 30 days. Did that occur?
    Colonel McCallum. It did not, sir.
    Mr. Horn. No. 6, employee has a right to a hearing upon 
written request. Now, did you make a written request? You 
hadn't gone through the other procedure.
    Colonel McCallum. I did not make a written request, 
Congressman. We were informed at a meeting that we attended 
that I would be given no further appeal process.
    Mr. Horn. Yes. Because No. 6 is if the employee wanted a 
hearing, he must request it in writing within 20 days.
    Colonel McCallum. Yes.
    Mr. Horn. Did that happen?
    Colonel McCallum. No, it did not.
    Mr. Horn. No. 7, a hearing officer will be appointed from 
the Office of Hearings and Appeals.
    Colonel McCallum. One was not appointed. In our last letter 
to the Department, we asked that a hearing officer be appointed 
from an unbiased third agency who could adequately review the 
documents and review the process and report on an unbiased 
basis. That has not been responded to.
    Mr. Horn. No. 8 of the Department of Energy's own 
regulations, at the hearing the Department is represented by a 
departmental attorney. The employee has the right to an 
attorney and may present witnesses and documentary evidence. 
Did that ever occur?
    Colonel McCallum. No, sir, it did not.
    Mr. Horn. And No. 9 is a hearing will commence within 90 
days of the employee's request.
    Colonel McCallum. We have had no response to a request for 
a hearing at this point.
    Mr. Horn. You're saying they don't even answer your request 
letters?
    Colonel McCallum. That's correct.
    Mr. Horn. And they have never gone into any aspect of this 
process which presumably is available to all employees in the 
Department of Energy?
    Colonel McCallum. It is, Congressman.
    Mr. Horn. Have you ever had any of your staff that were 
subjected to those particular procedures for reviewing security 
infractions?
    Colonel McCallum. Yes, sir. That happens routinely in the 
Department, probably 50 or 60 times a year on average.
    Mr. Horn. When there's an infraction?
    Colonel McCallum. Yes.
    Mr. Horn. And what do they do when it is a first-time 
infraction and perhaps been done in innocence?
    Colonel McCallum. If an infraction is determined to be not 
willful and deliberate, our own manuals call for the person's 
supervisor to conduct an interview to determine the reason for 
the infraction and instruct the offender in the correct 
security practice. The offender is then sometimes scheduled for 
a class in either classification or in security procedures, 
depending on which of the two components may have been 
violated.
    Mr. Horn. It isn't on the chart or the board there, but No. 
10, at the conclusion of the hearing, the hearing officer will 
issue a written opinion within 30 days forwarded to the 
Director of the Office of Security Affairs. And then No. 11, 
the employee or Department may appeal any finding of the 
hearing officer to the Director of the Office of Hearings and 
Appeals, and the Director will resolve that appeal within 45 
days. And then the final one is, based on the opinion of the 
hearing officer, the Director of the Office of Security Affairs 
shall make a final decision to reinstate the employee's 
security clearance or terminate it. And none of that ever 
applied to your case?
    Colonel McCallum. Congressman Horn, I've seen these 
procedures implemented in the Department on hundreds of 
occasions in the last 25 years. This is the first time I've 
ever seen them not carried out faithfully, the first.
    Mr. Horn. You're the only one in the last two and a half 
decades that they have not applied their own due process 
procedure to your case?
    Colonel McCallum. Yes, sir, that's true.
    Mr. Horn. They just made life miserable for you.
    Colonel McCallum. Attempted to.
    Mr. Horn. And also out of change, in terms of needing to 
get your own attorney and so forth.
    Colonel McCallum. Yes, sir.
    Mr. Horn. I think, Mr. Chairman, listening to all of this 
this morning, it's one of the great outrages I have in 
Government. We expect civil servants to be professional. It's 
clear that the gentlemen who testified this morning are 
professionals. And now I'm sure they would agree that if once 
they've given them the factual information, the political 
appointees, whether they're Democrats, Republicans, liberals, 
conservatives, whatever they are, whether they're biased for 
Asia or biased for Europe, they as the ones in Assistant 
Secretaryships, Under Secretaries, Deputy Secretaries, 
Secretary, as well as the White House, they obviously can make 
a different policy judgment.
    But the question is, were the facts beyond that policy 
judgment? If the executive branch wishes to simply kill off 
advice coming from professionals, the Congress certainly has a 
right to that advice. The executive branch is not the king, 
although sometimes we see those aspects over the last 50 years 
and even in the last century, and the question is, what do we 
do to protect whistle-blowers who obviously are patriots, 
obviously are professionals, and who know their business? And 
it isn't a question of the administration disagreeing with 
them. It's a question of having them change their basic factual 
presentation against their expertise, against their knowledge. 
It makes it just plain wrong.
    Mr. Burton. Would the gentleman yield?
    Mr. Horn. Yes.
    Mr. Burton. Let me just say that the Department of Energy 
has deliberately, as I said before, tried to block this hearing 
in every way they could, No. 1; No. 2, they have not complied 
with our subpoena for information pertaining specifically to 
Lieutenant Colonel McCallum; and No. 3, I think it will be 
incumbent upon this committee to find out why that's the case 
and ask people from the Department of Energy to come up here 
and explain why the procedures, which are supposed to be 
applied to every single employee when there's this kind of a 
question arising, why those--why those procedures were 
deliberately circumvented and not applied to Lieutenant Colonel 
McCallum.
    So I appreciate that we will be having a hearing on this, 
and I hope the gentleman will be involved in that one as well.
    Mr. Horn. I hope you do that because it certainly cries out 
for the congressional committee to get them up here, have them 
give their side of the story, and if they're not going to 
present us with the written information that we've asked for, 
then a few contempt of Congress citations shall be taken to the 
floor. And it's too bad if we have U.S. Attorneys sometimes 
that turn their back the other way, and we have some in Justice 
that turn their back, but after you get the evidence down here, 
we have a real problem in trying to deal with people in a 
violation of their own procedures within the Department.
    Mr. Burton. Well, if the gentleman would yield further, we 
said in our opening statement that if we don't get the 
cooperation of the Department that we are entitled to as 
Members of Congress, we will probably move a contempt citation. 
I would rather not have to do that, but it's a possibility.
    Mr. Horn. Thank you, Mr. Chairman. I yield back my time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. I appreciate 
the testimony of all of our witnesses.
    Mr. McCallum, you mentioned retaliation in your statement, 
and you've discussed it already to some extent. I just want to 
make sure that I understand the basic facts. The Energy 
Department placed you on administrative leave with pay because 
they say you disclosed classified information in a phone 
conversation. Is that right?
    Colonel McCallum. That's correct, sir.
    Mr. Waxman. And the conversation at issue which contains 
the purportedly classified information was recorded; is that 
correct?
    Colonel McCallum. Congressman Waxman, I'm not sure how far 
I can go in discussing the specifics beyond--I think I can say 
that those--that it was recorded, but I don't think I can 
further identify it.
    Mr. Waxman. And it's my understanding that you don't 
dispute having a conversation and disclosing information, you 
just maintain that the information was unclassified.
    Colonel McCallum. That's correct, sir.
    Mr. Waxman. It's my understanding that the Energy 
Department had access to the transcripts and could have 
reviewed them for security violations, long before they became 
widely publicized; is that right?
    Colonel McCallum. That's correct, sir.
    Mr. Waxman. Something did get the attention of the Energy 
Department though. It was an article published on the Internet 
detailing your conversation which was highly critical of 
security at a DOE facility; is that right?
    Colonel McCallum. The classification officer is pulling my 
shirttail here. Just a second, sir.
    Mr. Waxman. Go ahead and consult with them, yes.
    Colonel McCallum. Could you repeat the question, Mr. 
Waxman?
    Mr. Waxman. My question is about the Department of Energy--
getting their attention on this article that was published on 
the Internet detailing your conversation which was critical of 
security at a DOE facility.
    Colonel McCallum. I've been asked by the classification 
officer not to comment on that, because it might further 
identify the location of information which is contested. I hold 
it's not classified, but there are some people in the 
Department that believe it is, and----
    Mr. Waxman. Is it fair to say that there was an article on 
the Internet that seemed to catch their attention?
    Colonel McCallum. I've been advised not to answer that, 
sir, respectfully.
    Mr. Waxman. I'm sorry, what did you say?
    Colonel McCallum. I've been asked by the classification 
officer not to answer that.
    Mr. Waxman. I don't want to get you in any trouble. It's my 
understanding that there was an article on the Internet which 
caught the attention of the Department of Energy, and that this 
article was published in mid-April of this year. Now, as you 
may recall, April was a pretty bad month at the Department of 
Energy. As of then, nine congressional committees were 
investigating the Chinese espionage issue. Notra Trulock had 
testified that he had been blocked from pursuing security 
reforms at the Department.
    Secretary Richardson had just ordered the computers shut 
down at the Federal labs, and Senator Murkowski, the chairman 
of the Energy and National Resources Committee complained that 
``the ability to identify accountability in this process is 
very, very difficult,'' from Senator Murkowski, and that's 
precisely the time when the story on you describing your 
alleged classified conversation hit the Internet.
    I can understand why you think your suspension was 
retaliation. If I were in your position, I would feel the same 
way. But given what was going on at that time, isn't it 
possible that Secretary Richardson was told that your case was 
an example of a DOE employee who disclosed highly classified 
information, and that if he failed to act, if he hadn't 
suspended you, he would face tremendous criticism?
    Colonel McCallum. Congressman Waxman, I cannot attribute 
the reasons for the Secretary's actions. I think I said in my 
opening statement that I believe that it was to discredit and 
intimidate me specifically for the reasons which you mentioned, 
that there were numerous congressional committees and the 
President's PFIAB regrettably who were looking into these 
issues, and I have the keys to the skeleton closets.
    I will say, however, that I find it hard to believe that 
you would take an action like this without going through the 
formality of the procedures to review whether there has 
actually been anything done wrong in the first place. These 
procedures are described in detail in not only DOE regulations, 
but in the Code of Federal Regulations, which have been 
published. And I know of no other exceptions.
    So while it may have been the Secretary's intention to make 
an example of someone, I certainly don't think that it's 
appropriate to make an example before you determine whether 
they're guilty or not.
    Mr. Waxman. I'm not asking you to come to that conclusion, 
but I'm speculating that a lot of things were going on at the 
same time, which might have framed his thinking to act in a way 
that didn't follow the other procedures.
    Colonel McCallum. I can only say, Mr. Waxman, Congressman, 
that the only thing that the Secretary shared with me during 
our meeting, when I walked in the door, before I was given an 
opportunity to present my case at all, was that I was guilty. I 
find that somewhat against the kind of system that I believed, 
that I had been taught is the way we're supposed to act in this 
country and in this government. There was no due process. There 
was no review. There was no interview. There was not even an 
opportunity for me to explain why the information was not 
classified.
    Mr. Waxman. I can certainly understand your feelings. I 
understand that several qualified officials both inside and 
outside the Energy Department have reviewed the conversations 
at issue.
    Do you know--well, I don't know if you're permitted to say 
whether you know whether that is the case or not. But let me 
ask you, do you know who reviewed the conversations and what 
they did conclude?
    Colonel McCallum. Yes, sir, Congressman Waxman. I can first 
tell you who I had review the items in question. When the issue 
first came to my attention, I asked several of my most senior 
managers, two of my division Directors and the person who is 
most active in this area, the person we turn to as an 
authorized classifier, to review the information. All three, 
two of them in writing and one not, said they were not 
classified.
    I also asked two officials of the Department of Defense who 
did this business whether they thought they were. They both 
said they were not, although not in writing. As I said in my 
testimony, the Assistant Secretary for Defense Programs brought 
forth two individuals who thought they were. But beyond that, I 
don't think I can--I don't want to identify further the 
information or the criteria by which it was looked at. I would 
like to.
    Mr. Waxman. I understand. I'm sure you understand that we 
on this committee are not in a position to review the 
transcripts and determine whether they contain classified 
information. But I think all of us would agree that there ought 
to be a fair inquiry by the appropriate officials and an 
opportunity for you to be heard.
    I understand you're now essentially in a standoff with the 
Energy Department on how to resolve the allegations leveled 
against you. What is the status of your dispute with the 
Department of Energy?
    Colonel McCallum. Congressman Waxman, I would hope that 
we're not in a standoff. What we have proposed to the 
Department is that, since it appears to me and my attorney that 
this situation was prejudged before there was any 
investigation, that I would call an adequate investigation, on 
any opportunity for me to present either my case or witnesses 
or to present my technical argument, that this--that the 
Secretary has himself prejudged this case, in his own words to 
me. We ask either the Department of Defense or the U.S. 
Security Policy Board or some other identified third 
organization that can review this in an unbiased manner with 
the right technical outlook to review it. And I've offered to 
live with whatever decision that they make.
    I would hope that's not considered a standoff. I think that 
that's a fair offer as long as I believe I get some due process 
and some review in the situation. I'm willing to argue my case 
in court.
    Mr. Waxman. Well, I agree that you haven't been treated 
fairly, and I don't understand why procedures weren't followed. 
What I'm uncertain about is whether this was retaliation or a 
regrettable overreaction by the Energy Department, and that's 
something I can't conclude at this point.
    But I sympathize with your situation, because it's clear 
that the Department of Energy did not follow the procedures, 
and I don't think they gave you a fair opportunity to be heard.
    Let me ask some questions of Dr. Leitner. Dr. Leitner, 
there are a few areas of your testimony I want to clarify. Your 
disagreements with your superiors have not been limited to the 
Clinton administration, have they?
    Dr. Leitner. No, sir, they're not.
    Mr. Waxman. You've raised similar concerns about American 
export control policy during the Bush administration; is that 
right?
    Dr. Leitner. Yes, I have.
    Mr. Waxman. And did you feel the Bush administration was 
too lax on export control to China?
    Dr. Leitner. Yes. What happened in the Bush administration 
resulted from a great deal of clouds and uncertainty because of 
the end of the cold war, and I believe very strongly that they 
went too far, too fast in relaxing export controls.
    Mr. Waxman. Did you write a memo to that effect that you 
circulated to many individuals both inside and outside the 
Department?
    Mr. Leitner. No. As a matter of fact, my memo stayed within 
the Department. What I did--the memo that we're talking about, 
I presume, is the one that is attachment A to my testimony, was 
an analysis of the cumulative impact of these various controls, 
decontrol proposals. I tried to show that the methodology being 
employed was faulty; it was not looking at the system level 
where the real impacts would be felt.
    Mr. Waxman. When you wrote this memo, how was it received; 
how were your concerns received by your superiors at the 
Department of Defense?
    Dr. Leitner. It was interesting, the reception. First I 
wrote the memo, and I sent it out for peer review to some of 
the DOD labs and also to my colleagues, engineers in my office 
and other places all within DOD. And I asked for their comments 
about the accuracy and the efficacy of the arguments I was 
making, and what I was trying to point out. I got a variety of 
comments, all constructive comments, saying, no, this 
particular item should be over here, and pointing to this port 
of a missile, this part of an aircraft, that sort of thing.
    So I made changes accordingly, and once I had it validated 
technically, I sent it to my superiors. It was greeted in an 
interesting way. My immediate supervisor, the Director of 
Policy at the time in DTSA, thought it was terrific, and he was 
running around making copies, giving it to other people in 
policy, saying, look, at this great thing we have.
    Mr. Waxman. No one took retaliatory action against you?
    Dr. Leitner. Not immediately.
    Mr. Waxman. William Rudman was head of your office during 
the Bush administration; was he not?
    Dr. Leitner. Yes, he was.
    Mr. Waxman. In the story of the National Journal, Mr. 
Rudman, who is a fierce critic of the Clinton administration, 
called you a zealot who was ``professionally insane.'' How do 
you respond to that?
    Dr. Leitner. Well, for my response, you can just look at 
the reporting that has been done on Mr. William Rudman over the 
years. You will find that when he was in the Customs Service 
how he was investigated for holding a guy who he accused of 
being a homosexual at gunpoint, how he was accused of all kinds 
of violations of basic human values at the Customs Service when 
he was there.
    And if you look at the investigation that was conducted by 
the DOD IG in 1992, an inspection report where they found all 
kinds of irregularities regarding Rudman renting a room in an 
employee's basement and filing false receipts for expenditures. 
Just look at the IG inspection report. I will be happy to stand 
in court and compare character between myself and Mr. Rudman 
any time, any day.
    Mr. Waxman. You're quoted as saying you had reservations 
not just about the Bush administration policy, but also about 
the Reagan administration. Do you feel that the Reagan 
administration was too lax toward China?
    Dr. Leitner. No, the Reagan administration had a 
different--an interesting approach. They came up with an 
approach toward China known as the green line, where they tried 
to differentiate between China and Russia in terms of a 
potential threat, and they offered China more liberal 
treatment. At that time, there was a strategic matrix that they 
were trying to achieve, and that was to make the Chinese appear 
to be enough of a threat to the Russians during the cold war 
that the Russians will have to transfer many troops East of the 
Urals to the Chinese border so they wouldn't be facing NATO and 
the United States.
    There was actually a strategic doctrine that was being 
employed as part of this very slow doling out of benefits 
toward China. Was I a direct opponent of that? No, I was not.
    Mr. Waxman. Were you critical of it?
    Mr. Leitner. At times I thought on specific proposals we 
might have gone a little bit too far, and I was critical in 
specific proposals, internally critical.
    Mr. Waxman. You've been fairly vocal in your criticism of 
your office and American export policy. How many times have you 
appeared on television to air your concerns?
    Dr. Leitner. I don't know, a handful of times, just a few 
times.
    Mr. Waxman. How many times have you been printed in a print 
publication on export control issues?
    Dr. Leitner. A larger handful of papers.
    Mr. Waxman. How many times have you prepared papers or 
studies at your own initiative criticizing decisions made by 
your office?
    Dr. Leitner. As a matter of fact, my testimony documents 
the major criticism papers that I did that were critical. And I 
want to emphasize to you that they were internal documents. I 
did not go to the press with these documents. I gave them to my 
superiors within the Department.
    Mr. Waxman. I wasn't asking you about the documents. I was 
asking about public appearances.
    Dr. Leitner. Public appearances, largely congressional 
testimony, twice before the Joint Economic Committee, once 
before the Senate Governmental Affairs Committee, once before 
the Cox/Dicks committee and then here today.
    Mr. Waxman. Have some of your criticisms been directed at 
decisions made in your office that you were not responsible for 
reviewing?
    Dr. Leitner. Not responsible for reviewing? There are many 
decisions that are made that I'm not responsible for reviewing. 
As a matter of fact, that memo that I have in attachment A--the 
1990 memo concerned a bevy of decisions that I was not 
responsible for reviewing. I tried to do a cumulative 
assessment of those decisions and show what the cumulative 
impact would be.
    Mr. Waxman. In your written testimony you say that several 
factors including ``corruption and possibly darker motives, 
have brought us to a turning point.'' Can you tell us what 
evidence you have of corruption at the Department of Defense?
    Dr. Leitner. I'm not an investigator who looks at criminal 
charges in the Department of Defense. I have seen decisions 
made on a regular basis that you have to question the motives 
of people. You try not to do that. You try to simply deal with 
substantive issues, but there are many actions that take place 
which just are very difficult to explain otherwise.
    Mr. Waxman. What do you mean by darker motives?
    Mr. Leitner. By darker motives, I was referring to what the 
Cox committee found at the national labs in terms of possible 
espionage. I wasn't limiting myself in that particular comment 
just to the Department of Defense.
    Mr. Waxman. Secretary Cohen is a former Republican Senator 
from Maine. As Secretary of Defense, do you believe that he and 
other officials of the Department of Defense are deliberately 
undermining the national security of the United States?
    Dr. Leitner. I have no idea what Secretary Cohen is doing 
or not doing. I don't deal with Secretary Cohen at my level. 
Whether it's intentional or unintentional, I can't speak to 
that. I just know the net result is undermining the national 
security of the United States.
    Mr. Waxman. Is it possible that your disagreements with 
your superiors at the Defense Department are no more than 
legitimate policy differences between people with strongly held 
views?
    Dr. Leitner. I would normally think that, and in most cases 
that's usually the case. I don't deny that there are policy 
differences, and gentlemen agree to disagree on issues. I know 
I am not the be all and end all of licensing. I am not a 
policymaker, I am not a political official, but when you do 
offer an analysis and then you are retaliated for offering that 
analysis, that's where the line gets crossed into whether or 
not it's not just being listened to and being taken account of, 
it's actually being reprised against and being attacked for 
your efforts. There may be a difference of opinion where 
gentlemen might disagree. But gentlemen generally don't attack 
each other for offering a difference of opinion.
    Mr. Waxman. You talked about a web of corruption at the 
Department of Defense. Do you think that Secretary Cohen is 
part of that web of corruption?
    Dr. Leitner. I personally doubt it. I think Secretary Cohen 
has not been involved in the export control process to any 
great extent. He was dealing with much larger policy issues. 
But I have absolutely no way of knowing. I just know from my 
vantage point.
    Mr. Waxman. Has the Department been responsive to some of 
your criticisms of how your office is run? Have there been 
changes made in the office data base to respond to your 
allegation of memo tampering?
    Dr. Leitner. No. Any changes in the data base on memo 
tampering, such as the time that I went on vacation after 
denying two supercomputers to Arzamas-16 and Chelyabinsk-70, in 
Russia, and I came back and found out that my position was 
changed and my name left on it in the data base. The procedures 
that allowed individuals to make those changes have still not 
been altered. My positions still get changed. My name is still 
on cases after repeatedly complaining, after talking about it 
in public testimony, and after speaking to the IG about it.
    Mr. Waxman. We were told in this committee that the data 
base has been altered to provide licensing officers with the 
opportunity to express their own individual views; is that not 
the case?
    Dr. Leitner. The structure of the data base has not changed 
in years in terms of that. There's always been a comments 
section where you can put a comment in, but it's been there for 
years and years. I haven't noticed any change at all.
    Mr. Waxman. Have more regular meetings on export licensing 
issues been held in response to your criticism?
    Dr. Leitner. Not that I've been made aware of.
    Mr. Waxman. Has there been wider distribution of internal 
information in response to your criticism?
    Dr. Leitner. Not that I'm aware of.
    Mr. Waxman. Mr. Maloof, I want to thank you for your 
testimony today. I would like to ask you a few questions to 
clarify your testimony.
    Mr. Maloof. Yes, sir.
    Mr. Waxman. You testified you feel you are the victim of 
retaliation from your superiors. Are you familiar with the 
Office of Special Counsel?
    Mr. Maloof. Yes, sir, I am.
    Mr. Waxman. And have you submitted a retaliation complaint 
to the Office of Special Counsel?
    Mr. Maloof. No, I have not, because I felt that--judging 
from previous experiences of other colleagues, that it would 
probably be futile. It was also my impression that after--I 
also went through my own system, I went to our Deputy Under 
Secretary, who immediately referred me back to General Counsel 
within the Defense Threat Reduction Agency. I went through that 
channel. Immediately they felt that given the facts that I 
presented, there was a case of retribution.
    I then listened to what Dr. Leitner had to say about his 
experiences with the special counsel, and I just saw one heck 
of an uphill battle because of the--of what I perceive to be an 
approach by them to favor management. And it would have 
required an expenditure of tremendous resources on my part, and 
I just did not have the time and energy to put into that and at 
the same time try to do my job.
    Mr. Waxman. Mr. Chairman, I see the red light. Did I have 
two 10-minutes?
    Mr. Burton. Yes, you had 20 minutes. The time goes by 
quickly.
    Mr. Waxman. Then I will catch up on the next round.
    Mr. Burton. But you have another 10 minutes on your side at 
the conclusion.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman, for convening this 
hearing today. As you know, Mr. Chairman, I served with the CIA 
back in the 1970's and with the Department of Justice as a U.S. 
Attorney back in the 1980's. And I must say, Mr. Chairman, what 
we've heard today indicates to me an administration that is so 
vastly different as to almost be operating in an alien country.
    It used to be that spies were prosecuted. It used to be 
that security measures, polygraphing of employees, regular and 
very serious monitoring of data bases, information, activities 
that might be suspicious were taken seriously, and underlying 
all of the work that we did back in the 1970's and in the 
1980's in these areas was a notion that our national security, 
which protected our sovereignty, was something important. That 
seems to have been utterly lost by many in this administration. 
Maybe it was never there, I don't know.
    We've read books, Gary Aldrich's books and other gentlemen, 
and this gentleman leads a very distinguished, impeccable 
career in public service and in law enforcement. We've read 
these books. We've seen these documents. We've heard the 
testimony, and it is absolutely, Mr. Chairman, chilling, the 
testimony we have heard today.
    Gentlemen, I appreciate all of you coming forward, the 
tremendous risk to yourselves and to your careers. The work 
that you perform, underlying it are several important 
components of your job as public servants, the same as ours and 
mine was when I served with the CIA and with the U.S. 
Department of Justice as a U.S. Attorney: first and foremost to 
protect the United States of America; second, in the executive 
branch to serve the President, and in your capacity you 
essentially served the President by providing, within the 
bounds of the law, information to him so that the policy 
decisions that he makes can be based on the very best, most 
substantive, most objective judgment of professionals. So when 
he makes a decision, it's not just sort of a shot in the dark, 
it is based on learned judgment, and one can criticize any 
President for a policy decision. That's not your job. As far as 
I can tell from your testimony, that has not been your job, and 
that's not the point of your being here, criticize policy 
decisions of the President or others.
    But the scenarios that you all have laid out raise several 
extremely troubling problems. When decisions that you have made 
based on your judgment and in furtherance of your job, 
including protecting our country, are altered to reflect 
untruths, to reflect information that you know to be false, to 
be inaccurate, to be inappropriate. Then one of, I guess, at 
least three different things is happening. Either the word is 
coming down from the President or from the policymaker to 
justify a policy decision; or, second, the word is going up to 
the President to influence a policy decision improperly. Both 
of those, of course, are corrupt.
    Those--that is a corrupted policymaking process, which is 
bad in and of itself, but there's another scenario that I 
certainly have no way at this point--whether this is true or 
not, that raises the most serious problems or questions, and 
that is those that border treason. If decisions are being made 
to influence your work, your objective assessment, the data 
that you have accumulated and put objectively in, substantively 
into a document, is altered with the purpose of assisting a 
foreign power to acquire information or data to which they 
would not otherwise be entitled, and that raises the singularly 
most serious question that can be raised about a nation's 
national security, and that is, is it being compromised not 
because of internal politics or internal decisionmaking, but 
because of something external, one of our adversaries is 
seeking to have a policy decision made or changed to reflect 
and to enable them to gather information, evidence that they 
would not otherwise be entitled.
    So I do not think, Mr. Chairman, that the importance of 
this hearing, the importance of the problem, the magnitude of 
the problem that these witnesses have come forward today could 
be overstated. I appreciate it very much.
    There are a couple of specific questions. Mr. Maloof, you 
talked briefly in your--this is in both your written testimony 
as well as your oral testimony. On pages 8 and 9, you mentioned 
an Assistant U.S. Attorney and a Customs investigator. Who was 
that U.S. Attorney? What U.S. Attorney's office was that out 
of?
    Mr. Maloof. Out of Washington.
    Mr. Barr. And who was the Assistant U.S. Attorney?
    Mr. Maloof. Mr. Pelleck.
    Mr. Barr. Would you spell that, please?
    Mr. Maloof. P-E-L-L-E-C-K. He was handling our--has been 
handling the technology transfer investigation.
    Mr. Barr. Thank you.
    With regard to Dr. Leitner, you talked at some length about 
the changing of your position on your computer when you were 
out of town with regard to superconductors being approved to 
Russia. How large is the scope of people that would have access 
to your computer to be able to make that sort of change?
    Dr. Leitner. Well, it was about supercomputers and not 
particularly large, it would be just be a handful of people. 
It's fairly narrow. It's on a local area network within the 
organization.
    Mr. Barr. Would you name them, those by name, those people 
that would have access to it and the capability to make the 
change?
    Dr. Leitner. Well, specific authorities give with it the 
ability to make changes in the record. I know that at a 
minimum, people that have that authority in my office, include 
Barbara B. Auckland; my supervisor, Colonel Raymond Willson; 
and I'm not sure who else. It would only be a handful of 
people, but those are two people who did have that authority or 
who do have that authority that I know for sure can make such 
changes.
    Mr. Barr. Is there a difference between the authority and 
the power to go into the computer and either add or detract, 
but certainly designate and make clear that information is 
being added or detracted? Does anybody have the authority to go 
in there in your name, purportedly in your name, make a change 
that is reflective of what your position and assessment will 
be? I mean, to me that is criminal, and nobody would have the 
authority to do that as opposed to going in and adding or 
detracting information, but making clear that they are doing 
it, and they're not trying to do it in your name, which would 
be fraud.
    Dr. Leitner. I agree completely, I believe, and I have 
complained internally in memos. I've complained to the 
Inspector General's Office as well that I believe that it is 
fraudulent. I think there has been tampering with a data base 
that is supposed to be the official DOD record of its 
transactions in the export control process, and they were 
making it appear to be something that it wasn't. They're 
putting false information in.
    Mr. Barr. Has there been, as far as you can tell, any 
initiation of a criminal investigation by DOJ of this matter?
    Dr. Leitner. No, there has not been any investigation I'm 
aware of.
    Mr. Burton. Mr. Barr, we will have a second round here in 
just a few minutes, if you would like.
    Mr. Barr. Thank you.
    Thank you, Dr. Leitner.
    Thank you, Mr. Chairman.
    Mr. Burton. Mr. Waxman has 10 more minutes on the 30 
minutes, so we will now recognize Mr. Waxman and then go to 
you, Mr. Souder.
    Mr. Waxman. Thank you very much, Mr. Chairman, and when 
that red light comes on, I'm going to try to conclude my 
questioning so we can be fair to everybody on the committee.
    Dr. Leitner, you said you were a victim of a manufactured 
security violation. As I understand it, you claimed that 
another Defense Department colleague planted a classified 
document in your desk and then executed a surprise inspection 
of your desk. That's a serious charge if it's true. Could you 
tell us more about that, Dr. Leitner?
    Dr. Leitner. I would be happy to. It wasn't a surprise 
inspection. There's no such thing. We've never had anything 
called surprise inspections. What happened, was during a 
snowstorm in February, when the Government was dismissed early 
because of the snow accumulation, I too was dismissed, and went 
home for the day. Then I started receiving phone calls from 
colleagues in my office saying, hey, something happened this 
afternoon that's quite unusual, and the unusual thing is that 
my supervisor Colonel Willson did something he never ever does, 
and that's conduct the routine double-check at the end of the 
day, where we have safes with classified information. And 
basically what the routine is, you----
    Mr. Waxman. Let me interrupt you because I do have a 
limited time. Without going through all the details, you 
believed that your supervisor planted a classified document in 
your desk and then criticized you for having that document.
    Dr. Leitner. Yes, I believe--it was a set-up, and it was an 
intentional attempt to delegitimize me and somehow affect my 
security clearance and my standing in the office.
    Mr. Waxman. And did you report this to anybody in law 
enforcement or anything?
    Dr. Leitner. Yes, sir, I reported it in my chain of 
command. I set a memo to the head of DTRA, Defense Threat 
Reduction Agency, Dr. Jay Davis, and in that memo I demanded 
that the case be referred to the Defense Criminal Investigative 
Service for a criminal investigation, because I believe a 
criminal act was committed against me.
    Mr. Waxman. You believe you had been passed over for 
promotions and denied bonuses and merit pay increases as a 
result of the hostility of your supervisors?
    Dr. Leitner. Yes.
    Mr. Waxman. Are we talking about supervisors other than Mr. 
Rudman?
    Dr. Leitner. Oh, yes, Rudman is long gone. He was involved 
quite a few years ago.
    Mr. Waxman. His replacement and other supervisors are also 
being critical of you?
    Dr. Leitner. Yes.
    Mr. Waxman. Mr. Maloof, you testified about your efforts to 
learn more about the investigations into the Hughes and Loral 
Corps. After those companies had been under investigation for 
more than a year, when you first read about the investigation 
in the New York Times, you received calls from the Public 
Affairs Office and another office with the Pentagon; is that 
correct?
    Mr. Maloof. That's correct.
    Mr. Waxman. And after your discussion with those offices, 
your superiors told you that they didn't want you involved in 
the issue; is that right?
    Mr. Maloof. Yes, sir.
    Mr. Waxman. Now, if I understand correctly, you persisted 
with your inquiries, right?
    Mr. Maloof. Correct.
    Mr. Waxman. And you questioned an engineer about the 
matter?
    Mr. Maloof. That's correct.
    Mr. Waxman. I understand you were and continue to be 
concerned about the office's approach to export controls and 
about satellite waivers for companies like Hughes and Loral, 
but are you saying that your superiors had no right to limit 
your role as a point of contact on this issue within your 
office?
    Mr. Maloof. I would suggest that to do so was to impede me 
from doing my job in this fashion. I look at all export license 
applications to end user and end uses as part of my duties. We 
run those names against data bases, and if there is something 
out there that is going on that is potentially criminally 
wrong, and we're adding to the capabilities of another country, 
I needed to know that.
    Mr. Waxman. Did anyone in your office ever say that you 
could not provide information as a witness to law enforcement 
agencies investigating the Hughes and Loral matter?
    Mr. Maloof. I was questioned extensively about that 
participation, but eventually it stopped.
    Mr. Waxman. It stopped.
    Mr. Maloof. The criticisms and the questioning of my 
providing that information.
    Mr. Waxman. If I understand correctly, after your 
conversation with the engineer in your office, you contacted 
the Customs Service and reported your concerns that there might 
be a cover-up of some kind; is that right?
    Mr. Maloof. Potential cover-up.
    Mr. Waxman. A potential cover-up. And the Customs Service 
investigated your allegations. Did anyone else investigate the 
allegations?
    Mr. Maloof. Beyond the Assistant U.S. Attorney, I have no 
idea. They were the proper people to conduct the investigation, 
because that was part of their responsibility at the time. We 
certainly could not do anything internally, and after I talked 
to the engineer, as I stated in my testimony, I was barred from 
talking to anybody else about the issue, so for me to pursue it 
independently would have gotten me even into more difficulty.
    Mr. Waxman. You concluded in your testimony, ``It became 
apparent to me that the reason for handling Chinese satellite 
issues among a very few people and keeping quiet any 
information concerning an investigation was to ensure that 
satellite cases continue to be approved unimpeded.''
    How did you arrive at that conclusion?
    Mr. Maloof. I arrived at that conclusion because the--for 
over that year period, very few people were handling details of 
the satellite cases. My office, when the satellites were under 
munitions control, was totally bypassed. We never even saw 
those license applications. I'm told even in recent days by 
engineers that our management has asked the engineers to 
expedite those cases even now.
    Mr. Waxman. Someone told you that?
    Mr. Maloof. I heard it from three different sources, and 
they were all engineers, Mr. Waxman. And I'm just informed by 
Dr. Leitner that he's heard the same thing.
    Mr. Waxman. Mr. Fox, I want to thank you for appearing 
before us today. As I understand it, you've alleged that 
another DOD official threatened your job unless you reversed a 
recommendation concerning a proposed agreement on peaceful 
nuclear cooperation with China; is that right?
    Mr. Fox. Yes, sir.
    Mr. Waxman. Let's step back and look at what you were asked 
to do. My understanding was Mike Johnson, who was from a 
different office, the Office of Nonproliferation Policy, passed 
on a request from the Department of Energy to review the 
proposed agreement; is that right?
    Mr. Fox. Well, actually, I received the agreement directly 
from the Department of Energy, and the procedure with that, I 
would write up my technical opinion and then forward it back to 
Mr. Johnson, who would then incorporate it within the internal 
DOD.
    Mr. Waxman. So your review was supposed to be a technical 
review?
    Mr. Fox. It was, sir.
    Mr. Waxman. OK. And as you know, Mr. Johnson told the 
committee staff he was upset about your memo because it went 
beyond the scope of the technical analysis that he requested. 
Do you feel that your memo went beyond the technical analysis 
that Mr. Johnson requested?
    Mr. Fox. No, sir, it did not. I disagree with that 
completely. As a matter of fact, that was never even suggested 
to me at the time, at the time of this situation. As a matter 
of fact, sir----
    Mr. Waxman. Let me ask you, I understand that the chairman 
put up the memo and asked you some questions, or at least one 
of the Members did. In the memo you write that the end of the 
cold war ``has given China little pause for a reflection in the 
wholesale rejection of Marxism. It remains committed to a 
discredited creed.'' How is China's domestic political 
situation relevant to the technical analysis you were asked to 
prepare?
    Mr. Fox. Sir, the record of state action of the recipient 
of nuclear technology is a clear basis for determining whether 
or not the representations given as part of a technology 
sharing or cooperation agreement have credibility or 
reliability.
    Mr. Waxman. One of the paragraphs struck from the memo, I 
understand Mr. Shays read one of them, let me read another.

    The post cold war era has given the People's Republic 
little pause for reflection in the wholesale rejection of 
Marxism. It remains committed to a discredited creed. The 
political hierarchy retains power through draconian measures, 
with little heed to global repulsion at the excesses imposed 
upon its own people. It maintains an expansionist foreign 
policy and openly covets the reacquisition of now independent 
territories. It is in the midst of a decades-long military 
modernization program which has an ultimate goal, the 
achievement of undisputed power projections capabilities. China 
maintains an active nuclear weapons development program and an 
equally energetic foreign intelligence service.

    This is your analysis of China itself. I want to know 
whether you think that the issues you discuss were beyond the 
scope of a technical analysis.
    Mr. Fox. No, sir, they are not. You cannot consider the 
transfer of technology in a vacuum. You must consider all 
aspects of a technology transfer, and especially where you have 
a technology transfer agreement that is verified solely by 
diplomatic representations, then sir, you must consider state 
action as part of the overall analysis.
    Mr. Waxman. Excuse me, I understand what you are saying and 
I have to get on to the questions.
    I want to ask about your working relationship with Mr. 
Johnson at the time you had the dispute with him. Did you and 
Mr. Johnson work at the same office of the Department of 
Defense?
    Mr. Fox. No. I worked in one office that was supporting him 
through a memorandum of understanding.
    Mr. Waxman. Was he your supervisor?
    Mr. Fox. Only under the terms of the memorandum of 
understanding.
    Mr. Waxman. Is he in the same chain of command as you?
    Mr. Fox. Only in the sense that I served him through a 
memorandum of understanding as a technical adviser.
    Mr. Waxman. Did you report to the same political 
appointees?
    Mr. Fox. Only in the circumstances governed by the memo.
    Mr. Waxman. Did he have the authority to fire you?
    Mr. Fox. I think his recommendation in that regard would 
have carried substantial weight.
    Mr. Waxman. Did Mr. Johnson's immediate superiors have the 
authority to have you fired?
    Mr. Fox. I think that their recommendation in that matter 
would have carried substantial weight with my chain of command, 
especially my senior management.
    Mr. Waxman. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Burton. I will reserve my 10 minutes until others get 
their first rounds. Mr. Souder and then Mr. Ose.
    Mr. Souder. I thank the chairman. Colonel McCallum, in your 
statement, and one of the scary things in listening to 
Congressman Weldon, the number of people that he referred to in 
addition to the four in front of us, in your written statement 
I don't think that you went through some of these names.
    On page 11 you say that one site had five Security 
Directors in a little over 2 years and you name Rich Levernier, 
Gary Morgan, David Reidenour, Bernie Muerrens, Link White. You 
also say that numerous security police officers, men like John 
Hnatio, Jeff Hodges, Jeff Peters, and Mark Graff have all had 
their careers ruined for coming forward and addressing serious 
lapses in DOE.
    One of the reactions that I had to this is that as somebody 
who was too young during the McCarthy era to have actually 
experienced it, but it seems like then there was an abuse of 
power and a witch hunt for those who were supposedly Communist. 
What we seem to see in this administration is a witch hunt for 
those who are anti-Communist. And it is extremely disturbing to 
see people's careers ruined and side-tracked and demotions 
because their devotion was to freedom and their concern was 
about the transfer of power.
    Some of us had written a letter--but let me go through a 
couple of questions.
    I understand you and your counsel had a chance to meet with 
Secretary Richardson on May 27, 1999 to discuss your status at 
the Department of Energy; is that correct?
    Mr. McCallum. Yes, it is.
    Mr. Souder. We have a letter that I and nine other Members, 
Congressman Barr, Congressman Bartlett, Congressman 
Rohrabacher, Congressman Weldon, Congressman Cunningham, 
Congressman DeLay, Congressman McIntosh, Congressman Johnson, 
and Congressman Forbes, signed expressing congressional concern 
about your employment status at DOE, cites your long-standing 
efforts to enforce and implement the safeguards, and I wondered 
if you are familiar with the letter?
    Mr. McCallum. Yes, Congressman Souder, I am familiar and I 
want to thank you and the other Congressmen that sent that 
letter forward for your support and kindness.
    Mr. Souder. In your meeting with Secretary Richardson, did 
he mention this letter to you?
    Mr. McCallum. Unfortunately, when I walked in the door, 
Congressman, he did mention it.
    Mr. Souder. Can you describe that in any way that you are 
comfortable?
    Mr. McCallum. In front of this august body and rolling 
cameras, he was rather angry. It was clear that he was 
disturbed by the letter. He held it in his hand and flipped it 
a couple of times and made the comment that this letter doesn't 
intimidate me. I play basketball with these guys. This is, 
expletive deleted, and threw it on the table.
    Mr. Souder. What do you think that he meant by ``I play 
basketball with these guys''? How did you interpret that?
    Mr. McCallum. I understood that to mean I know these guys. 
I have worked with them and they will play ball with me, and 
stay away from the Congress.
    Mr. Souder. Do you think that that was just bravado or do 
you think that anything happened as a result?
    Mr. McCallum. I think it was some bravado. But it was clear 
that the Secretary went to the PFIAB and although I was 
scheduled to testify, my testimony was then delayed and 
ultimately I did not appear before the PFIAB. As some of you 
may know, Congressman Bliley was scheduled to hold hearings on 
the security at the Department of Energy last month, and 2 days 
before the hearings, based on a visit by the Secretary of 
Energy, he first delayed and then canceled the hearings. So I 
believe the Secretary has had some impact in the halls of 
Congress.
    Mr. Souder. Well, one of my frustrations is that when many 
of us in Congress feel something very deeply, and one of the 
frustrations that we have in this committee, we have seen a 
lack of responsiveness. And I don't know Secretary Richardson 
well, but he seems like a decent guy, and I don't play 
basketball so I have not been heavily influenced by that. I 
understand that this is very difficult, but I think it is 
outrageous to treat a letter from Congress in this way, 
including not being responsive to the letter.
    I wanted to ask the chairman, I understand that you have a 
letter also that you have sent to the Energy Secretary, and I 
wonder if you have received any response?
    Mr. Burton. We sent a letter to the Secretary after a 
meeting we held in my office, during which he tried to 
discourage this committee from holding a hearing in very strong 
terms. The letter has not been responded to, nor has the 
subpoena we sent to him regarding Lieutenant Colonel McCallum's 
employment record, and I think that is unfortunate and we 
intend to pursue that, Mr. Souder.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.099
    
    [GRAPHIC] [TIFF OMITTED] T2262.100
    
    Mr. Souder. I thank the chairman.
    One of my frustrations, and anyone watching this hearing 
has to feel it is surreal. On the one hand we are trying to 
talk about how to apply whistleblowing protections to patriots 
and people who are calling attention to these problems, and 
that is the immediate need we have in this country. But 
meanwhile, what we seem to have seen is nuclear secrets getting 
into the hands of our enemies, both through overt spying and 
through technology transfers, and we are sitting here holding 
hearings on trying to get into defending Americans who try to 
call attention to that who then get punished. Talk about the 
world being turned upside down. I understand that there can be 
disagreements, and I understand the pressures that are brought 
to bear to many Members of Congress, and we feel pressures from 
supporters and companies back home, but to see memos being 
forced to change.
    In my second round I would like to get into who some of 
these people were, and how we get into that question and the 
process because I think that the deeply disturbing thing is 
that it appears to me that the reactions to the secrets going 
out has rather been to punish the people who were trying to 
warn and do something about it rather than getting into the 
problem that we have compromised our national security. I think 
this is outrageous, and I thank you for your willingness to 
come forward today.
    Mr. Burton. Thank you, Mr. Souder. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Dr. Leitner, I want to make sure I understand the surge you 
highlighted in your testimony about the computer issues. If I 
understand the current export regime, we have a limitation of 
so many MTOPS on what kind of equipment we can send overseas. 
And over time, the cap, if you will, has increased and it is 
either currently at 2,000 or it is proposed to go to 2,000 
MTOPS, the rationale being that you can acquire that kind of 
capacity overseas at present anyway.
    Then there is a discussion as to whether or not to take the 
regime to 7,000 MTOP level at present.
    If I understand the Cox report, and the reason that I am 
asking this question, I want to understand why the 
administration would--or the Department of Energy would, if you 
will, attempt to interfere here, with its personnel and what 
have you. If I understand correctly from the Cox report, the 
capacity to do theoretical projections on nuclear weapons is in 
large degree a function of the level of MTOPS that you have 
available in your computer, that being that the lower the 
level, the more inaccurate or unreliable the projections from 
an analysis within a projected outcome?
    Dr. Leitner. Well, MTOPS is a predictor of more than 
anything else speed, not capability in terms of analytical 
capability. Very often apples and oranges get mixed up.
    You have to wait longer for your answer to a complex 
problem with a slower computer, but over the years we have 
heard justification for allowing more powerful computers to be 
exported as, one, they can't really use them for nuclear 
simulation and modeling because you need to have real test data 
or accurate test data.
    Unfortunately, as Lieutenant Colonel McCallum and as Notra 
Trulock have reported, and the Cox committee has reported, that 
a lot of test data appears to have walked from our own labs.
    So when you combine the effect of higher speed computers, 
higher capability computers with actual real live test data, 
such as that stolen by the Chinese and you have an extremely 
deadly combination. You have the ability to leap frog 
generations of development trial and error and come up with 
virtual simulation of nuclear tests which helps advance a 
nuclear proliferation program, help them develop special 
effects weapons, et cetera.
    Mr. Ose. At some level of speed you can use a two-
dimensional analysis of the projected outcomes, which is 
relatively inaccurate compared to three-dimensional analysis 
above that level, and that is where the debate occurs, if I 
understand the Cox report, as to where that level is at 
present.
    Dr. Leitner. That is one of the arguments made, but that 
debate very often becomes an arcane debate which is intended to 
create smoke and mirrors basically. Yes, a three-dimensional 
model will yield better, more informative results than a two-
dimensional model. That goes without saying. But how much of 
that relates to the actual MTOPS, the processing power, is 
another story. It is like looking at an oscilloscope and saying 
a 2 gigahertz oscilloscope will really give you some neat test 
results if you can capture the data using that sort of device.
    But for nuclear test results, 500 megahertz is all you need 
to really engage in nuclear testing and analyze the results of 
nuclear testing. Two gigahertz is very important but more for 
telecommunications, fiberoptic, C3I, and satellite 
communications. It does give the value added for nuclear 
testing, no doubt about it, but it is not essential.
    So the lines that get drawn and the arguments that get made 
are convenient. They shift like the sands of the Sahara 
depending on the political needs of the people making the 
arguments, and they are almost always unreliable.
    Mr. Ose. One of the points of your testimony is the 
aggregate impact of the piecemeal transfer, that being you send 
this piece here and then they put it together with a piece over 
here, and all of a sudden they bring the pieces together and we 
are no longer three, four, five generations ahead of them, 
their equipment becomes comparable to ours.
    Was that the substance of your point to leadership that we 
were allowing our export in aggregate to develop the technology 
that would make them the equivalent of ours?
    Dr. Leitner. Yes, sir, it was.
    When I authored that memo attached to my written statement 
in 1990, I was basically illustrating that the particular 
metric that was being used is not a metric at all but it is a 
phrase called the gap closer. You look at these individual 
technologies, transducers, resistors, all kinds of A to D 
converters, they were trying to adjudicate whether or not the 
decontrol of this particular item, would have gap closing 
potential between us and whomever ``them'' happens to be in the 
future. The answer almost invariably will be no. There is no 
one separate component that is going to make a revolutionary 
difference. The aggregation of various advances in various 
fields that get integrated at the systems level is what I was 
showing in that chart that was so violently received when I 
offered it.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Ose, for your patience. Did Ms. 
Schakowsky leave?
    Mrs. Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman. As I sit here and 
listen to your testimony, I am absolutely astounded that we 
have Americans like you who are willing to place your personal 
safety, your career, and your future in harm's way to protect 
my generation, my children, and my grandchildren. I cannot tell 
you how deeply grateful I am to you. And I do know how 
difficult this hearing is for you. But from the bottom of my 
heart, thank you so much. And I know that when the chairman 
says that he will not be kind and will be protective with 
regards to any further retaliation, I know he means it and I am 
sure that this body stands united behind that position.
    Dr. Leitner, I wanted to ask you, you made a very troubling 
allegation that on one occasion your supervisors actually 
changed your technical analysis license position from denial to 
either no position or approval. And in the case of the Russian 
supercomputers being approved for exports to two known nuclear 
design facilities, how did you find out about this?
    Dr. Leitner. It was purely fortuitous. I knew that this 
position would be important. They were very important cases and 
I put in my position before leaving. I was taking my family to 
Disneyland on vacation, which is pretty appropriate given what 
happened.
    And then, when I came back, I decided to just look into the 
status of those cases. I almost never do that because you get 
too many cases to go back and audit the results. Plus I was 
just curious, I wasn't looking for anything. I wouldn't imagine 
that somebody would simply change my position and make it 
appear as if I entered that position.
    When I got back from vacation I opened up the computer and 
I looked in there. I was just astounded to find out that it was 
not the position that I authored. Before leaving on vacation, I 
did print out copies of the position that I put in. And then I 
forwarded that along with the revised new position still 
bearing my name to my chain of command complaining and 
demanding an investigation.
    I think the data base is corrupt, and God knows how many 
other times the same thing has happened. And you wouldn't know 
until something blows up and somebody is doing an after 
accident report, as happened with Iraq, when Congress 
subpoenaed thousands of records of export licenses. Is there an 
audit trail and who approved what and why, and you have no 
evidence as the person doing the position that you did 
otherwise other than what appears in the electronic record 
because everything else is destroyed?
    Mrs. Chenoweth. Precisely what impact did the change have 
on the outcome of this case?
    Dr. Leitner. Well, it was pretty funny what happened in a 
macabre sort of way.
    While the case was still hanging around and a formal denial 
did not go out, it was revealed by Gary Mulhollin from the 
Wisconsin Project on Nuclear Export Controls that there was a 
diversion of several computers to those same facilities, that 
they were illegally acquired in the hiatus between the time I 
issued my denial and the case was still languishing. In the 
meantime, there was a diversion of computers to Russia right to 
those same facilities to engage in nuclear design work. Sixteen 
of them I am informed by Mr. Maloof, 16 supercomputers, a 
national security disaster as far as I am concerned.
    Mrs. Chenoweth. Doctor, I wanted to ask you about the 
McDonnell Douglas machine tools case, which is also very 
alarming to me. These tools are the very tools that produce the 
C-17 military planes, and you stated that your supervisor 
actually ordered you to change your position of denial to an 
approval because a decision, apparently from higher up, had 
been made to approve the case.
    Now, did you draft an approval position? Do you know who 
ordered the approval of this case? Third, who do you think 
ordered it?
    Dr. Leitner. I never wrote the approval conditions. I wrote 
the three or four page single spaced denial position on the 
case. Michael Maloof and I worked very closely together on this 
case and we were able to find out that the end user that it was 
alleged that these machine tools would be going to never 
existed. We even had the National Photographic Intelligence 
Center put together a briefing showing how, during the course 
of the whole odyssey when the Chinese were trying to pressure 
McDonnell Douglas and intimidate them into providing this 
facility, there was actually no activity at the location where 
these machines were allegedly going to go to, but instead at a 
cruise missile factory, there was a new wing being built, and 
holes were being dug to receive the machine tools. The machines 
eventually were diverted, some of them directly, to that cruise 
missile factory.
    I was ordered to change my position. I refused to do it. I 
said there is no way I am going to do that. The case was taken 
away from me, and my supervisor at the time went ahead and put 
in a position of approval saying that he was being instructed 
to. The instructions to my knowledge came from--the chain of 
command at the time was the Deputy Assistant Secretary for 
Counter-proliferation, Mitchell Wallerstein, David Tarbell, the 
Director of DTSA at the time, and his Deputy, Peter Sullivan. 
And following below that, it was either Mike Richey or Jim 
Woody, the Director of Licensing, but I don't remember when 
they--who was in charge at that particular moment. One 
succeeded the other.
    As for the real reason for it, I would rather not venture a 
guess. I have plenty of theories.
    Mrs. Chenoweth. Thank you, doctor. Mr. Chairman, I see my 
time is up, but we will be having a second round of questions.
    Mr. Burton. We will, I know that this is extremely 
important what we are hearing today. I would like to tell the 
Members that after this panel, we are going to go into a closed 
door session in a cleared room for the last person because we 
are going to have some classified material. The only people 
that will be allowed in that room are Members and staff cleared 
for top secret.
    Mrs. Morella.
    Mrs. Morella. Thank you, gentlemen, I appreciated your 
courage and patriotism. I represent a great number of Federal 
employees and retirees, and I feel strongly about civil service 
and how paramount it is to a good democracy. And I was one of 
the cosponsors of the Whistleblower Protection Act in 1989 and 
then the enhanced amendment in 1994.
    It just seems to me from what I have read and what I have 
heard that it obviously is not working for you. I know that I 
have had a recommendation, I think it was Congressman Weldon 
said we should do something about it. I want to ask you what we 
should do about it.
    Is it in your view that we should come out with a piece of 
legislation that will deal with people in high security to make 
sure that they are given the whistleblower protections that 
they deserve? Anything else that you think that this Congress 
can do? My attitude is, what are we going to do about the 
future? We can go back and look at the past, but we need to 
learn from it. I know that this committee agrees that we want 
to move ahead and see what we can do.
    The second point, this morning I was chairing a hearing of 
the Technology Subcommittee of the Science Committee, and it is 
interesting, we were discussing what was happening with our 
security websites in terms of computer security. And as I am 
looking at the reports here, I am noticing that Colonel 
McCallum, in your testimony, you talk about some of the very 
things that came out this morning in our hearing dealing with 
the concept of computer security. The lament we heard was 
basically there is no implementation. We can have some policies 
and we can say agencies should do this and do that, but there 
is no implementation and there is that element of anonymity 
there which is a real barrier to being able to follow through. 
So I am wondering, I feel we should do more with regard to 
making sure that agencies, certainly the high security 
agencies, should have more of a responsibility for implementing 
the guidelines and the regulations we have.
    If you have some suggestions to offer to us at this time 
and then maybe later, I would appreciate it. So if you would 
respond to what our role can be in computer security and making 
sure that whistleblower protection is protection and protects 
all of our people, particularly people in your high security 
situation, I would value it. Whoever wants to start.
    Mr. McCallum. I can kick it off since I raised the computer 
security issue. We struggled in the Department of Energy for 
years with the separation of classified and unclassified 
computer systems. I think as far as I know, at least within the 
Department of Energy, our high security computer systems have 
not been penetrated by hackers or others. But with the growth 
of personal computers and office LANs, networks, and WANs, a 
different set of issues developed.
    In the eighties the--the National Institute for Science and 
Technology developed a set of--and it may have been before 
their name changed, a set of criteria to provide what I would 
call prudent business security, the kinds of things that you 
see banks and the people who have to transfer money implement.
    In most of our Federal agencies those programs which have 
been required to implement these standards over the years have 
not bothered. In the early years, there was some attempt to use 
the budget to assure implementation. Unless you had adequate 
security plans and elements in place, you couldn't buy new 
computers. Oversight went away over time. When you look at our 
national laboratories, you find very poor security practices on 
what is called unclassified but sensitive material. We have 
seen in the Department of Energy that it is very easy to take 
classified material and walk it across the hall and put it on 
unclassified systems. Some of the proposals that we made in the 
1995 timeframe included some simple tasks like the use of 
different size floppy disks between your classified and 
unclassified systems so somebody can't just avoid the security 
practice. There are very simple implementation tools, but how 
do we make our laboratories or agencies use them?
    One of the levers might be the budget. If you don't have at 
least some kind of a process to review these kinds of things 
and some kind of an oversight process, maybe the budget gets 
hit. I don't think that people in this town pay much attention 
to things other than budgets, at the implementation level is 
what I mean.
    Another area is the whistleblower protection issue. I was 
rather astounded to find that all of the things that we had 
learned about people bringing forward problems, and I was very 
familiar with these since Secretary O'Leary raised the flag and 
called whistleblowers in to the table during her reign at the 
Department of Energy, but I was astounded to find that there is 
a serious loophole in the protection system. The Merit Systems 
Protection Board is--in some circumstances unable to look at 
cases where people have done their job, but an agency can pull 
a thin guise of national security to halt the process. That is 
what I meant by national security metric. It does not 
necessarily have to be there but they have the trump card. 
There should be an impartial third party, an institution, that 
has the authority to look at these cases. No single 
organization should be able to by personal or political whim 
crush ``due process'' for any citizen of this country.
    Mrs. Morella. I think it was again Dr. Leitner's testimony 
where he talks about the IG. I have always felt that IGs should 
be involved in this process of ameliorating concerns. If 
anybody wants to address that. Mr. Maloof.
    Mr. Maloof. I also raise the IG issue because Leitner and I 
went up at the same time, and we were asked and invited.
    Mrs. Morella. That was in your testimony, right.
    Mr. Maloof. I know your time has just run out, but three 
recommendations. The ombudsman idea not only for the IG, but 
also a mechanism by which people with clearances can go to 
members or to staff who are appropriately cleared with proper 
information if our system refuses to act on it or is in some 
way ignoring it. I think that there is a problem here, that 
members are not being informed adequately or in a timely way.
    Last, curiously, we could not get the Department to give us 
legal representation if we sought it, even though we were 
brought up here in our official capacity. They represent the 
Department, they have made that clear, and I think we may need 
a mechanism to allow for representation if under these kinds of 
unusual circumstances we are invited or subpoenaed up and we 
request representation, that there is a mechanism to do that.
    Thank you.
    Mr. Fox. Ma'am, I would just bring up three points quickly. 
As an attorney, nothing breeds personal responsibility like 
three little sentences. Personal liability, punitive liability, 
and mandatory criminal sentences. I honestly believe that the 
Whistleblower Act cannot become effective until you have those 
types of penalties made applicable against those who direct 
retaliation against government individuals, against government 
officials and public servants who tell the truth. Those three 
elements.
    Mrs. Morella. Personal liability?
    Mr. Fox. Personal liability. Personal liability where 
retribution is shown to be directed by a specific individual. 
Punitive liability in some significant multiple of damages 
suffered. And finally, mandatory criminal sentences. That is a 
violation. Retribution is a violation of the public trust that 
we are all sworn to uphold. And where it effects national 
security, I contend that mandatory criminal sentences are 
nothing less than totally appropriate.
    Thank you, ma'am.
    Mr. Burton. I thank the gentlewoman. I will now take my 
time. First of all, let me say that I have a granddaughter and 
a grandson, and what I have heard so far today really causes a 
knot in my stomach. We found out about Wen Ho Lee, the alleged 
espionage person at Los Alamos who was left there for some 
time, and the technology transfer. According to many 
scientists, it was so bad that the Rosenberg espionage pales in 
comparison, and yet it appears that the American people do not 
seem to be that concerned about it. We all say the cold war is 
over.
    The fact is, we have a monolithic army in China that now 
has all of this nuclear technology that we have spent trillions 
of dollars developing, and they have the computers and all of 
the other things necessary to implement these things and we 
don't know how long it will take. At the very least, that 
entire part of the world is at risk and possibly the entire 
world. We don't know what the future holds.
    And then we hear from people like Lieutenant Colonel 
McCallum that at our nuclear laboratories the security has been 
cut. The budget has been cut by as much as 40 percent, that in 
certain areas the number of personnel that is supposed to be 
there to protect the laboratories and protect the supplies has 
been cut, and the documents that people use, the passes that 
people use, the three colors that they use to get into 
different facilities was combined into one so that the people 
in charge of security cannot tell who is going in and out.
    And then we find out that--from Dr. Leitner that he comes 
back from Disney World or Disneyland and he finds that his 
computer has been tampered with and that a report that he has 
done has been changed 180 degrees. And then, you know, we hear 
him being questioned about whether or not he is paranoid about 
his superiors.
    The fact is, as I understand it, your classification was 
reduced from five to four about a year before this alleged 
document was in your desk and you brought it to their attention 
when they tried to pin some kind of security leak on you. So 
they were already giving you a hard time before that ever took 
place. And the only way that could have taken place in the 
first place was if you were a security risk and they could 
prove it. I don't think that that was the case when they 
lowered you from class five to class four, was it?
    Dr. Leitner. No, sir.
    Mr. Burton. And Mr. Fox, I read this memo from Dr. Leitner, 
and I am going to read just a little bit of it.
    Mr. Fox wrote his report. After the report was sent, he was 
evidently talking to Dr. Leitner and Dr. Leitner records that 
upon returning, they were having a meeting, upon returning 
about 15 minutes later Mr. Fox was visibly shaken. He asked 
what was wrong and they went into the hallway to confer. He 
said he was just ordered by Johnson, that is Mike Johnson of 
OSD and PP, he said he was just ordered by Johnson to 
completely rewrite his memo from one stating that China was a 
nuclear proliferant to one stating that they were not, a 180 
degree reversal. Mr. Fox related in great detail how he 
explained to Johnson that such a change would be false and 
dishonest. At that point Fox stated Johnson threatened to have 
him fired unless he made the changes. He said that Johnson's 
manner was very aggressive, abusive, and threatening. Mr. Fox 
was quite upset about being blindsided like this. He said that 
he cannot afford to lose his job, his family is very dependent 
upon him and his income, and he didn't know what to do. And so 
he did what he had to do, he changed the document.
    My gosh, we are talking about the security of the United 
States of America. And just because a foreign leader is coming 
over here, whose country has been involved in espionage at Los 
Alamos and Livermore and elsewhere, and because we want to keep 
trade going on with him, we start mandating from higher ups, 
from way above Mr. Fox's pay grade, Mr. Johnson, who said that 
we have to change the document and lie to the American people 
and lie to his superiors. The other people who will be reading 
this document have to lie about whether or not the Chinese are 
entitled to more nuclear technology because they are a 
nonproliferator, and of course we know that is not the case. 
That just boggles my mind. You know, some people might say you 
fellows all have an ax to grind and the gentleman that is going 
to go into the classified briefing has an ax to grind, but you 
are not all together. You are not covering each other's 
backside. By virtue of the fact that you are coming from 
different areas and different perspectives, it lends more 
credence to what you are saying. We have a whole host of people 
that we are going to be interviewing who have been held up to 
ridicule, who have been penalized because they suffered similar 
things like you have. I can tell you that we are not going to 
let this rest.
    The last thing I would like to say before I ask any 
questions, if I have any time left, is that the Secretary of 
Energy, whom I did play basketball with, and I used to beat him 
occasionally, Mr. Richardson, when he holds up a letter and 
says, hey, these guys are friends of mine and I play basketball 
with them and this letter doesn't mean blank, I want you to 
know that letter did mean blank. It meant a lot. And while I 
have high regard for Mr. Richardson, he went over to Iraq and 
got our prisoners out of there and I think he has done some 
commendable things. But when he came into my office and 
indicated that Colonel McCallum was going to be fired or 
demoted or reassigned, and tried to persuade me that we could 
not hold this hearing under any circumstances, and then he and 
his people went to the Speaker of the House and went to the 
majority leader and the majority whip and tried to convince 
them that we should not have this hearing, I think that is 
going beyond the pale. I am very disappointed in his lack of 
cooperation with this committee and his trying to stop this 
hearing and impede the congressional process. Now we sent a 
subpoena to him, as I stated earlier, and he has not complied 
with the subpoena and he has not responded to my letter. He has 
not responded to Mr. Souder's letter. In fact, he is just plain 
ignoring the Congress of the United States and this oversight 
committee. I intend to ask him to testify before this 
committee, along with some of the other people, about some of 
the things that have happened and we will be doing that in the 
near future.
    I would like to have from you, gentlemen, before you leave 
or at your convenience, I would like to have a list of the 
people that can corroborate what you have told us here today, 
or other people who may have suffered the same kinds of 
problems in these various agencies, particularly the Department 
of Energy and the Department of Defense. We will investigate 
those people as well and we will have them talk to our 
attorneys so that we can get to the bottom of this because 
there should be no person in a top secret position in this 
country, especially where our national security is involved, 
that is afraid to talk about violations of security.
    Every man, woman, and child depends upon all of you and 
people like you out there to make sure that our secrets are not 
given to potential adversaries where they can use them at some 
point in the future to blackmail us and endanger the lives of 
the people that we are supposed to represent. I would like to 
have that information from you and we want to pursue this. I 
will work with Connie Morella to make sure that the 
whistleblower statute is enhanced so that there will be 
protections.
    I also don't believe that you ought to be able to come up 
here and be denied legal counsel. If you are coming up here at 
the request or subpoena of the Congress of the United States, 
you should not have to, out of your own pocket, hire legal 
counsel because you are an employee of that agency and you are 
under a duly authorized subpoena. I think you should be 
reimbursed for your legal fees if you have any, and at the very 
least we are going to make sure in the future that you don't 
have to deal with that kind of a problem because we are going 
to move for legislation to deal with that.
    Does anybody seek to have any more of my time?
    Mr. Souder. Yes.
    Mr. Burton. Mr. Souder, I yield to you.
    Mr. Souder. I hope that we can work with the DOE for some 
sort of protection. If these gentlemen identify other members 
of the anti-Communist cells, it is almost like the early 
fifties backward. If people are willing to come forward, that 
they get some protection and they are not also singled out 
because we don't want to identify the anti-Communist cells and 
have them bashed.
    Mr. Burton. Let me ask one question. Mr. Maloof, you 
referred to front companies?
    Mr. Maloof. Yes.
    Mr. Burton. Could you tell us about any front companies 
that you are aware of or where they have been used to transmit 
information or material to a foreign entity or government?
    Mr. Maloof. I think the identity of many of the companies 
is something that we can handle in a classified session. 
Generally speaking, if a product cannot be obtained legally 
through a licensing process, it has been my experience to find 
that that item then is sought piecemeal or in entire form as 
part of an indigenous weapons development program. They may be 
going through Asia, Europe, or a combination of countries.
    Mr. Burton. If some of that information is classified, I 
would like to officially request it, and we will do that in 
closed meetings and we will get together with Mr. Waxman so we 
have the minority there as well.
    Mrs. Morella.
    Mrs. Morella. Dr. Leitner didn't have an opportunity to 
answer before, and I want to give you that opportunity.
    Dr. Leitner. Thank you. I appreciate that.
    One of the things I really recommend be read, since you 
mentioned the issue of implementation, and how things fail in 
implementation, is an excellent book written by Abraham 
Wildovsky entitled, ``Implementation.'' The whole point of the 
book is that policy statements notwithstanding, political 
statements notwithstanding, the actual policy is seen in its 
implementation. If you want to see what the real policy is, 
look at what has been implemented because what is on the ground 
is what the real policy is. It is a great book, and I recommend 
it to any student of political science to read.
    One of the things I really would hope that would come out 
of this in terms of a regulatory fix that at a minimum, would 
make the agencies follow their own rules. We have the example 
of Lieutenant Colonel McCallum being victimized by an agency 
which at its own discretion applies rules when it suits them.
    The same thing is true in the Department of Defense. I have 
had the same experience of trying to go through the process of 
a grievance on an issue, a personnel issue, and find that the 
entire system is loaded in terms of protecting management. The 
individual employee has virtually no rights. The personnel 
office is generally there to support management and they tell 
you this. You ask the personnel office, will you represent me 
in this quest for this grievance on this personnel issue, they 
say we can't do anything for you because we are here to 
represent management. They tell you this in an unabashed way, 
and you have no where else to go, even for an interpretation of 
the rules. Deadlines, drop dead dates on grievances are 
strictly enforced when it comes to the complainant. Yet for the 
agency, who is the perpetrator of whatever the onerous action 
is, they give themselves extensions and all kinds of time while 
consistently missing their deadlines and the case is not 
dismissed.
    It has been my experience on EEO complaints, on political 
complaints, or administrative complaints, that the appeals 
process or the grievance process is more akin to a gauntlet 
which an employee has to run and it is never ending. The people 
at the beginning of the line you are going through move around 
to the end of the line, and the end never appears. You never 
see the end of the tunnel. It is designed, in our collective 
impression, to enervate the complainant to the point where 
there is no life left in them if they ever get to the end of 
process. I think that is a real problem.
    Also, if it can be fixed so that the Office of Special 
Counsel can operate and react faster, that would be a great 
boon because right now they move in what can be approximated as 
geologic timeframes. By the time your complainant actually 
starts getting investigated, you have retired or been fired or 
so beaten down that you are compliant.
    So I think in a practical sense these fixes really need to 
be made because on the ground again where policy really is and 
its implementation, it is very different than the public 
statements of the executive branch.
    Mr. Burton. Thank you.
    Mr. Waxman.
    Mr. Waxman. I want to say that I am struck at this hearing 
by the differences I see in Lieutenant Colonel McCallum's case 
and that which is presented to us by Dr. Leitner and Mr. Maloof 
and Mr. Fox. In Mr. McCallum's case, I think he was treated 
unfairly. I don't know what the motivation was behind that, but 
the result is that he has had to pay a price, and the 
procedures just were not followed which put him in the position 
that he is in today, which is that he is getting paid, but he 
is not allowed to do his job. But the other three are all 
working. They are all at their jobs. They are all there. They 
have not seen any actual consequences from the retaliation 
except failure to get promotions, failure to get bonuses. Those 
are real consequences, but I have to say that I don't think 
from what I have heard today that I am convinced that there was 
a wrong done to them. Maybe there was, but I am not convinced 
of it as I am that there was to Mr. McCallum.
    Dr. Leitner, he was critical of the Bush administration and 
his supervisor was very, very strong in his statements calling 
him a zealot, and he was asked by his superiors not to work on 
a particular case so he is off on 60 Minutes and making other 
appearances, criticizing his agency. I don't know how a 
Department is supposed to work when you have people within a 
Department, once a decision is made by those in charge of 
policy, making critical statements in the public media and then 
asking, why was I passed over for a bonus when I call the 
people that I work with to such criticism.
    I must say, Mr. Fox, I can't believe that part of your memo 
where you talk about your view of Communist China is a 
technical analysis. Maybe if we discuss it further I can come 
to that point. I know that you all want personal 
responsibilities, but one of the things that this committee 
ought to look into is how is a Department supposed to run. If 
somebody on my staff had a policy disagreement with me and then 
went on 60 Minutes and said the reason that I voted the way 
that I did was because of a campaign contribution or whatever, 
we would fire them. No one seems to get fired for all of these 
criticisms of what the Department is supposed to do.
    On the other hand, we want to make sure that the people who 
are whistleblowers and have different information to give us 
have the opportunity to do it.
    Mr. McCallum, I think you are in a completely different 
category. Maybe the others are in your situation, but I am not 
convinced as I am in your case. I think the Secretary did you a 
disservice. I am going to talk to him personally, and I want to 
find out whether he reacted in retaliation or whether it was an 
overreaction on his part because of other things that were 
going on. But I think he did a disservice to you and I want to 
express that to you and express my sincere regret over the 
situation you face.
    I don't think that all these witnesses ought to be lumped 
together, and I don't think that the case has been made to do 
that.
    Dr. Leitner, Mr. Maloof, and Mr. Fox all have very strongly 
held views. And they weren't the views of their superiors, and 
they were doing things that might not have been their jobs, but 
they are all still there. They are all still working, and maybe 
that is one of the great things about this country. If you went 
to Communist China or Russia, dissenters are treated not with 
the kind of sensitivity that we have in this Nation.
    Mr. Fox. Mr. Chairman, may I have the opportunity to 
respond to the honorable Mr. Waxman's comment?
    Mr. Waxman. I didn't ask you a question, but please go 
ahead.
    Mr. Fox. Is this an appropriate time now, sir? Sir, with 
all due respect I believe your comments particularly pertaining 
to my presence here today are somewhat of a serious 
mischaracterization, and I would like the opportunity to 
explain this.
    First of all, sir, please let me explain that the format I 
established for the review of the subsequent arrangements was 
utilized before and after this situation and this was the only 
time where Mr. Johnson and I had a disagreement to the point 
where it was demanded that a rewrite take place.
    Over 400 reviews, sir, I reviewed state action and the 
history of state adherence to existing agreements on behalf of 
a dozen countries, and there was no objection on the part of 
the Department of Defense.
    In particular, sir, I went through my records yesterday and 
I pulled out some illustrative reviews. On May 28, 1997, I 
reviewed state action as part of an export to Armenia, an 
export I recommended approval of, safe and secure nuclear 
generative technology to replace deteriorating Russian nuclear 
reactors. And I considered Armenia's state action in that case. 
On August 18, 1997, I did that again. On September 11, 1997, I 
did----
    Mr. Waxman. Mr. Fox, the red light has come on. I have 
listened to you and I am open to being convinced otherwise. I 
am not of the mind after hearing all of this testimony that you 
or Mr. Maloof or Dr. Leitner are in the same category as Mr. 
McCallum.
    Mr. Fox. On February 22, 1999, I was officially prohibited 
from any further involvement in the export control area by Mr. 
David Tarbell, who was formerly the head of the Defense 
Technology Security Administration and is now Deputy Director 
of the Defense Threat Reduction Agency, Technology Security 
Directorate. I was specifically prohibited from any further 
involvement in that area, either by employment or detail on the 
basis of his determination.
    Mr. Burton. I yield to Mr. Souder. I would like to have 
those documents submitted for the record so we can show the 
consistency of your reports, No. 1.
    Mr. Fox. I will be more than happy to, but yesterday I was 
informed that the request will have to be made through the 
DOD's General Counsel office.
    Mr. Burton. Then we will make it through the General 
Counsel's office, but we would like those so we can show the 
consistency.
    You have been discriminated against because of the report 
that you wrote, where you were told by higher ups that you had 
to change it 180 degrees. And because you did your job, and you 
were ordered to change it because you might be fired if you 
didn't, thereby giving a false impression to this country about 
the security of the country and about the proliferation of 
nuclear weapons by the Chinese Communists and they are 
Communists, then you were penalized. And I don't see how that 
differs a great deal from some of the others.
    Dr. Leitner, of course, came back and had his computer 
tampered with and his report was changed. That is just one 
case.
    I think we will have other people up here following the 
same line of questioning in the future and we will have people 
from the Department of Energy up here and the Department of 
Defense to explain why these things happened. Mr. Souder.
    Mr. Souder. I want to thank Mr. Waxman about his 
willingness to go to the Secretary about Mr. McCallum's case. I 
also insert in the record support for his position from the 
various unions of government workers because I believe--because 
he has been placed on leave, there is a difference in the cases 
in my opinion, at least the level of the administration 
overreaction.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.101
    
    [GRAPHIC] [TIFF OMITTED] T2262.102
    
    [GRAPHIC] [TIFF OMITTED] T2262.103
    
    [GRAPHIC] [TIFF OMITTED] T2262.104
    
    [GRAPHIC] [TIFF OMITTED] T2262.105
    
    [GRAPHIC] [TIFF OMITTED] T2262.106
    
    [GRAPHIC] [TIFF OMITTED] T2262.107
    
    [GRAPHIC] [TIFF OMITTED] T2262.108
    
    [GRAPHIC] [TIFF OMITTED] T2262.109
    
    [GRAPHIC] [TIFF OMITTED] T2262.110
    
    [GRAPHIC] [TIFF OMITTED] T2262.111
    
    [GRAPHIC] [TIFF OMITTED] T2262.112
    
    Mr. Souder. I did want to make an additional comment on Mr. 
Fox's case because the ranking member read some of the memo and 
I wanted to put a little bit of context on your memo as I 
understand it.
    In the first part of your memo that was labeled ``keep,'' 
you basically say it is a fairly straightforward--I think your 
exact words are relatively simple and direct. United States and 
China will be afforded annual opportunities to send technical 
experts to each other's civil reactor sites.
    Then there was the section that Mr. Waxman read where you 
made a very passionate case about marxism which arguably was 
not technical and I say as a passionate anti-marxist it is not 
technical, but it sets up in your second to last paragraph you 
close with, ``Accordingly, unless there exists definite 
meaningful verification provisions and grafted upon this 
diplomatic agreement, there is no practical way of determining 
or enforcing adherences to the admittedly peaceful goals 
enumerated within the proposed reciprocal agreement.''
    Backing up one paragraph from there, in other words, all of 
these other paragraphs were predicates to your final conclusion 
which said, while the agreement looks innocuous, it in fact has 
to be put in context. You say, in short, we have negotiated a 
technical exchange agreement concerning critical nuclear 
technology with an aggressive and ambitious proliferant state 
unrestrained by political or moral considerations and which 
discards diplomatic undertakings with studied regularity. 
Ambiguities and disagreements under this proposed reciprocal 
arrangement are by its very terms to be resolved by diplomatic 
means. Therefore, establishing why you have concerns about 
their ability to follow through unless, in your second to last 
paragraph, there are meaningful verification provisions, what 
you are in effect saying in the first part of your memo, while 
this looks innocuous it in fact is not, and to your concerns 
which you articulated which can be disagreed about, but it does 
relate to the substance of your memo which says there must be 
verification.
    Mr. Fox. Coming from an arms control background, I pay 
particular consideration to the verifiability and the 
credibility of an agreement, particularly in this instance 
where we are talking about the sole verifiability and the sole 
guarantee of the nondiversion of peaceful, dual use technology 
and expertise to military purposes is bare bones diplomatic 
representation.
    Mr. Souder. Because you can't make an analysis about the 
technology, the technical parts, unless there is a verification 
and in fact if you just made the assertion at the end, they 
would have probably said why did you make that assertion?
    Mr. Fox. Absolutely. I knew the seriousness of what I was 
doing and I tried to back up as much as I could. Unfortunately 
this is concerning intangible technology, the exchange of 
technical visits. How do you quantify that? How do you quantify 
the unquantifiable? We spent a great deal of time in Vienna 
exploring that when I was the DOD representative to the Nuclear 
Suppliers Group. How do you regulate expertise? That is where 
you cross that fine line from purely technical considerations 
into technical considerations that view things in the context 
of reality, of real politics. You cannot consider these things 
in a vacuum.
    Mr. Souder. And you have disagreements about technical 
verification, but you shouldn't be subject to threatening, 
firing, or have a long-term impact occur.
    Mr. Fox. This was the only time that this happened. 
Subsequently and before it never bothered anybody, and 
subsequently I was indeed elevated to represent DOD overseas 
for a year until relieved by my agency's reorganization. I 
ended up serving the Department of Defense as DOD 
representative to the Nuclear Suppliers Group and Zanger 
Advisory Committee to the International Atomic Energy Agency 
until subsequently relieved.
    Mr. Souder. I thank the chairman for yielding.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Fox, early on we looked at your memorandum and in your 
memorandum you were told that you could keep certain parts, and 
then there was a long line slashed out. Taking out basically 
half of your memorandum and inserting in another document. It 
is your testimony before this committee that what was taken out 
was your determination that this agreement should not go 
forward and what was inserted in was the statement that 
basically said it should go forward; is that correct?
    Mr. Fox. Yes, sir.
    Mr. Shays. So when I read that according--in your 
memorandum unless there exists a definite meaningful 
verification provisions graft upon this diplomatic agreement, 
there is no practical way of determining or forcing adherence 
to the admittedly peaceful goals enumerated within the 
agreement. Without such bilateral undertakings or unilateral 
safeguards, the proposal measurement presents such a 
significant degree of risk as to be clearly inimicable to the 
common defense and security. And what was inserted in was the 
Defense Special Weapons Agency determines that the proposed 
agreement is not inimicable to the common defense of security 
of the United States?
    Mr. Fox. Yes, sir.
    Mr. Shays. So you came to one conclusion, and in the end 
you were asked to come to a totally different conclusion. 
Whether or not Mr. Waxman likes the supporting document or not, 
the fact is that you came to a conclusion which you were asked 
to do; is that not correct?
    Mr. Fox. Yes, sir.
    Mr. Shays. Your job was to come to a conclusion and you did 
your job?
    Mr. Fox. Yes.
    Mr. Shays. Did you like being the export control 
coordinator?
    Mr. Fox. Even though it added approximately 20 hours a week 
onto an already full workweek, I was very happy with the job.
    Mr. Shays. You were relieved of those duties in October 
1998 and transferred back to arms control. Why do you believe 
you were relieved of that duty?
    Mr. Fox. On October 1, 1998, the Defense Special Weapons 
Agency was combined with several other agencies to form the 
Defense Threat Reduction Agency. Prior to that time, several 
months previously, we were encountering significant concern 
over the retention of any export control responsibilities, 
particularly in the nuclear area, in our organization. And upon 
the establishment of the Defense Threat Reduction Agency, it 
was determined by my senior management of the agency that we 
would lose that mission.
    I should point out, and I make no aspersion's whatsoever, 
that I had objected to several technology transfers on behalf 
of the United States national labs to the Russian weapons labs 
and similar proposed transactions with the Chinese weapons labs 
and that our present Director is an IPA from a national lab.
    Mr. Shays. But it is your testimony that if you didn't 
change your memorandum, that you in fact would be fired?
    Mr. Fox. Yes, sir.
    Mr. Shays. So at the time you were told you better change 
it or else?
    Mr. Fox. Yes, sir.
    Mr. Shays. Dr. Leitner, it is my understanding that you 
wrote a memo entitled, subject, China certifications events at 
the October 24, 1997 meeting, the Subcommittee on Nuclear 
Export Controls. Can you put that up. Is that a memo that you 
in fact wrote?
    Dr. Leitner. Yes, sir.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.113
    
    [GRAPHIC] [TIFF OMITTED] T2262.114
    
    [GRAPHIC] [TIFF OMITTED] T2262.115
    
    Mr. Shays. You wrote it to whom?
    Dr. Leitner. Basically for the record. I didn't send it to 
anybody. I wrote it in order to document the extraordinary 
event which occurred that day and as I was an eyewitness I knew 
that it would someday have relevancy to the debate on China.
    Mr. Shays. Do you have that in front of you?
    Dr. Leitner. Yes.
    Mr. Shays. Would you read the last paragraph of page 1?
    Dr. Leitner [reads]:

    Upon returning 15 minutes later, Mr. Fox was visibly 
shaken. I asked what was wrong and we went to the hallway to 
confer. He said he was just ordered by Johnson to completely 
rewrite his memo from one stating that China was a nuclear 
proliferant to one stating that they are not. 180 degree 
reversal. Mr. Fox related in great deal how he explained to 
Johnson that such a change would be false and dishonest. At 
that point Fox stated that Johnson threatened to have him fired 
unless he made the changes. He said that Johnson's manner was 
very aggressive, abusive and threatening.

    Mr. Shays. Would you read the next paragraph?
    Dr. Leitner [reads]:

    Mr. Fox was quite upset about being blind sided like this. 
He said that he cannot afford to lose his job and that his 
family was very dependent upon him and his income. He didn't 
know what to do.

    Mr. Shays. Why don't we just stop there. The bottom line to 
it is this was an event that you thought was serious enough to 
document and recall?
    Dr. Leitner. Yes.
    Mr. Shays. Mr. Fox, have you seen this memo that Dr. 
Leitner is referring to?
    Mr. Fox. Yes.
    Mr. Shays. Is the memo accurate?
    Mr. Fox. It is accurate except in one regard. I want to 
emphasize here that my immediate chain of command up through 
and including Dr. Charles Gallaway and up through and including 
Rear Admiral Jackie Allison Barnes, did not pressure me to 
change my mind or opinion in this regard, and that they were 
all supportive of me and have continued to be supportive of me. 
Other than that respect, the memo was accurate.
    Mr. Shays. So it wasn't your immediate chain of command, it 
was a bit higher than that, and that was?
    Mr. Fox. It was whoever was above Mr. Johnson.
    Mr. Shays. But Mr. Johnson relayed it?
    Mr. Fox. Yes. He relayed it in a manner that indicated that 
he was not comfortable doing so, but he did so.
    Mr. Shays. The bottom line for me is that you are here 
because we subpoenaed you. I haven't seen you on 60 Minutes. 
You are a new face to me.
    Mr. Fox. Yes, sir.
    Mr. Shays. I think each of you are different and have your 
own experience. We can't lump you all in one pile. You are 
human beings and individuals, you are trying to make a living, 
and frankly you got screwed.
    Mr. Fox. Yes, sir, I agree. I want to point out except for 
this subpoena, I have done everything possible to avoid 
bringing the disagreements within our organization to light.
    The only reason that I have gone outside of the Defense 
Threat Reduction Agency and have pursued my complaints outside 
of that is because I have been given no recourse within.
    Mr. Shays. You owe no one an apology. We make decisions 
based on what we think is best judgment, and then we in 
Congress make determinations.
    I happen to support trade with China, but I have to tell 
you I am influenced by what you do, and I want what you do to 
be accurate.
    Mr. Fox. Thank you very much. Sir, I only wish to establish 
that for the record that I have no ax to grind.
    Mr. Shays. Very good, thank you, Mr. Chairman.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman. Just a couple 
of short questions, then I will get down to the more 
substantive ones.
    Mr. Maloof, in your written statement, you refer a number 
of times to the front office. Just for the record, could you 
put the names to who is the front office for you.
    Mr. Maloof. David Tarbell, the Director, Technology 
Security, and his Deputy, Peter Sullivan.
    Mr. Horn. You also noted that you visited the Inspector 
General's office, and you were just sort of told to go away.
    Mr. Maloof. Yes, sir.
    Mr. Horn. Who was telling you to go away?
    Mr. Maloof. I can get that for the record.
    Mr. Horn. Get that for the record. Without objection, I 
would like that for the record.
    Mr. Maloof. Yes, sir.
    Mr. Horn. Now, did you ever have a chance to talk to the 
Inspector General herself?
    Mr. Maloof. No, sir.
    Mr. Horn. OK. Let me ask all of you this question. Was 
there a greater number of export licenses coming before you in 
one way or the other between January and June 1996 than 
ordinary, just computers I'm thinking of that, in terms of 
sales abroad that might worry you one way or the other, was it 
out of proportion in that period?
    Mr. Maloof. Are you asking me?
    Mr. Horn. Yes, out of proportion from say 1995's export 
licensing going through you for computers.
    Mr. Maloof. It depended--well, given the level that was 
subsequently required by the Defense Authorization Act, we did 
not see those computers between the 2,000-7,000 MTOP range, we 
had no notification. When the legislation was passed, I believe 
in 1996, we then began at least to get a notification, but for 
the most part, many of the computers that were going 
principally to China were not coming through the licensing 
process whatsoever.
    Mr. Horn. So you didn't see anything unusual, that happened 
to be a Presidential election year, and I'm just curious if 
that changed things in any way. So you're saying you didn't 
really see much change in the request for computers being sold 
abroad.
    Mr. Maloof. Well, that's different. There were always 
computers at lower thresholds that were coming through, but the 
higher level ones, particularly to China, were not seen until 
the defense authorization act required notification.
    Mr. Horn. And when did that take effect?
    Mr. Maloof. It was fiscal year 1998 I believe.
    Mr. Horn. OK. You're familiar probably with this report. I 
don't know if you've had a chance to read it, but the Special 
Investigative Panel of the President's Foreign Intelligence 
Advisory Board, otherwise known as the Rudman report, entitled, 
``Science at Its Best, Security at Its Worst.'' I don't know if 
you've a chance to look at it. But I want to read a few things 
into the record that the Senator and his three colleagues have 
said: ``After review of more than 700 reports and studies, 
thousands of pages of classified and unclassified source 
documents, interviews with scores of senior Federal officials 
and visits to several of the DOE laboratories at the heart of 
this inquiry, the special investigative panel has concluded the 
Department of Energy is incapable of reforming itself 
bureaucratically and culturally in a lasting way, even under an 
act of the Secretary.'' A note on page 4 of the foreword, ``Our 
panel has concluded that the Department of Energy when faced 
with a profound public responsibility has failed.''
    On page 5, ``Meanwhile the Department of Energy with its 
decentralized structure confusing matrix of crosscutting and 
overlapping management and shoddy record of accountability has 
advanced scientific and technical progress, but at the cost of 
an abominable record of security, with deeply troubling threats 
to American national security.''
    And I would like to ask, Colonel McCallum, were you ever 
asked to appear before that panel?
    Mr. McCallum. Yes, Congressman Horn, I was asked. I believe 
on April 16th.
    Mr. Horn. Yes. As I understand it, you were contacted by 
the executive director of that panel, Randy Deitering; is that 
correct?
    Mr. McCallum. That's correct, sir.
    Mr. Horn. Now, as I understand it, you were even scheduled 
to testify on April 22; is that correct?
    Mr. McCallum. That's correct.
    Mr. Horn. And then by e-mail you notified Mr., is it 
pronounced, Mahaley.
    Mr. McCallum. Joseph Mahaley.
    Mr. Horn. He's the Director of the Office of Security 
Affairs. And you notified him about the request from the Rudman 
panel?
    Mr. McCallum. That's correct, sir.
    Mr. Horn. Did you get any response from him?
    Mr. McCallum. I did not.
    Mr. Horn. Did you attend that meeting?
    Mr. McCallum. No, I did not, sir. I was placed on 
administrative leave the following Monday. I was called by Mr. 
Mahaley the next day and asked to delay my appearance in front 
of Senator Rudman's panel until after the Secretary had a 
chance to speak with them. I advised Mr. Mahaley that I thought 
that if the Secretary wanted to appear before me it would be 
appropriate for the Department to ask that question. Mr. 
Deitering called me back the next day, asked to delay my 
meeting with them, and he would call me and reschedule. I 
haven't heard from him since.
    Mr. Horn. He didn't give you any reason why you should be 
delayed?
    Mr. McCallum. He said they were behind. He said that there 
was the 50-year NATO celebration, and they had a number of 
people to speak to. He said he would call me back when they 
rescheduled.
    Mr. Horn. Now how about Mr. Mahaley, did he call you again?
    Mr. McCallum. He did not, sir.
    Mr. Horn. As I understand, he called you again around April 
20th, and he asked you then what? This is the point where you 
might appear before the Rudman panel.
    Mr. McCallum. Yes, this is when I was scheduled. Mr. 
Mahaley asked me to delay my appearance before the panel until 
after the Secretary had an opportunity to speak with them 
first.
    Mr. Horn. And do you know if the Secretary did speak to 
them? You were out of it at this point and told not to go 
there. So was the reason simply not that the Secretary wanted 
to precede you?
    Mr. McCallum. That's what I took from that, sir. We were 
told in a later meeting with the General Counsel's office that 
the Secretary had met with them. As a matter of fact, I believe 
that Mr. Eric Figi, the Deputy General Counsel at the 
Department said that the Secretary had been successful in 
having the Senator Rudman's committee not speak to me.
    Mr. Horn. I'm told here that this is sort of a coincidence 
here on the Secretary and you and when you--were you ever 
talking to them. As I understand it, the Department of Energy 
was receiving the harshest criticism from the media during this 
period for its handling of the Wen Ho Lee espionage case at Los 
Alamos. And you were put on leave about that time or that exact 
day, weren't you?
    Mr. McCallum. It was right about that time, Congressman. I 
don't remember the exact date that Senator Warner held the 
hearings.
    Mr. Horn. Yes, actually the Secretary was having a few 
media nightmares that day because the General Accounting Office 
was testifying before Congress and dusting off 20 years worth 
of General Accounting Office reports that had warned the 
Department of Energy about the lack of security at their 
laboratories, and that's also when you were put on leave. And 3 
days after being asked to testify before the Rudman panel, 
that's when it happened.
    So it's sort of convenient timing as I looked at the dates 
here. And I guess I would ask, do you think that the Secretary 
tried to dissuade the Rudman panel from hearing your testimony, 
or do you have any knowledge of that?
    Mr. McCallum. The General Counsel told us in a meeting that 
the Secretary had been successful in dissuading them from 
hearing my testimony.
    Mr. Horn. Let me now move to another thing on the security 
bit, and the last question I will have. You mentioned I believe 
to our staff the number of things that were going on in some of 
these laboratories, and there's--we've got here about 10 
examples of security instances involving foreign visitors on 
Department of Energy sites.
    Do you know any of those that were, say, the worst of the 
lot, and then I would like the others to be put in the record.
    Mr. McCallum. The worst of the lot, sir, I can't talk about 
because they're still classified. Many are being investigated 
by the Federal Bureau of Investigation. Some that were 
unclassified, that we wrote a number of reports on within the 
Department and reported included incidents, one of which I 
referenced in my testimony, where a Russian visitor took an 
uncleared laptop computer in a security area at the Savannah 
River site, and another incident, a Russian visitor was found 
digging through a dumpster in the vicinity of a security area.
    Mr. Horn. Were these incidents in areas such as professors 
or were they--just what kind of visitors were they?
    Mr. McCallum. The one with the computer was a technical 
visitor who is an expert in nuclear materials controls. The 
identity of the individual who was found digging through the 
dumpster, I cannot recall. I haven't had access to files in my 
office for a few months. But there are a number of incidents 
like that that have occurred in our laboratories over the last 
few years with the increase in foreign visitation. These 
incidents are regularly reported up-line through our operations 
security program.
    Mr. Horn. One is here, foreign national discovered 
illegally wire tapping a DOE meeting. Mr. Chairman, I would 
like to put the whole list in the record at this point.
    Mr. Burton. That would be fine, Mr. Horn. And we will put 
those in the record and ask Mr. McCallum or Lieutenant Colonel 
McCallum to answer those for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.116
    
    Mr. Burton. Did you have any questions, Ms. Chenoweth?
    Mrs. Chenoweth. Thank you, Mr. Chairman. It's been a long 
day, hasn't it, gentlemen? I think I'm the last of the Mohicans 
here.
    Mr. Burton. There's one more Mohican.
    Mrs. Chenoweth. One more Mohican. I'm struck. Last week I 
read where whistleblowers in the Department of Interior 
received a reward of $350,000 for whistleblowing, plus one-
third of a settlement with oil companies in the future. It 
strikes quite a contrast to what I'm hearing today. Mr. Maloof.
    Mr. Maloof. Yes, ma'am.
    Mrs. Chenoweth. I have some questions for you. You 
described in your statement that once the satellite waiver case 
broke in April 1998, the staff was instructed not to discuss 
the case, even though it was the subject of a grand jury 
investigation.
    That is the case, isn't it? The staff was instructed not to 
discuss the case.
    Mr. Maloof. Correct.
    Mrs. Chenoweth. Are you aware of any pending Hughes or 
Loral export license applications from that time period?
    Mr. Maloof. Yes.
    Mrs. Chenoweth. Was this information considered in the 
review of these applications?
    Mr. Maloof. From my vantage point, I don't think so, and 
that's why I was a little concerned about it. We have had--I to 
this day don't know the context of the Justice Department's 
investigation, where they're heading with it, but if there was 
in fact wrongdoing, then we--as I said in my testimony we've 
had precedent to put a hold on any further proceedings until it 
could be clarified.
    And I even had a customs agent admit to me that continuing 
approvals were actually harming their case. And I once again 
informed our management about that.
    Mrs. Chenoweth. What is DOD policy regarding the review of 
applications from a company that is the target of a pending 
criminal investigation?
    Mr. Maloof. Well, generally we wait for an indictment. We 
have imposed penalties in the past on companies by instituting 
DOD foreign acquisition regulations and in order to--but first 
we want to be sure that we're on solid ground. We've also had 
cases, at least two that come to mind, where it was so 
egregious that we immediately imposed suspension of all 
licenses. In fact, just last week on another case, we did just 
that to the tune of some 70 license applications.
    Mrs. Chenoweth. Well, Mr. Maloof, was that policy followed 
in this case?
    Mr. Maloof. Not in my opinion.
    Mrs. Chenoweth. Did you attempt to find out why the policy 
was different in this case?
    Mr. Maloof. Oh, yes.
    Mrs. Chenoweth. What did you find?
    Mr. Maloof. I found a lot of circumstantial evidence 
particularly reading outside, and when you put them in context 
with what was occurring at the time, it began to paint a 
picture. Again, from my standpoint right now, I can only 
speculate, although I harbor a lot of personal opinions about 
it, but in my opinion, there was increasing favoritism, there 
was a rush to push these--given the timeframe in which they 
occurred, there was a push to look at these license 
applications from a political standpoint.
    I know our management had visited the facilities a number 
of times. We were told previously to expedite those 
applications. This was--what I said earlier was not the first 
time and the fact, too, that the Chinese were concerned about 
acquisition of technologies, and, again, given that time 
period, we saw that rush.
    And if we looked at the time of the waivers that did occur 
and you compare them with when there were visiting Chinese, put 
all of that information together, it paints a composite that 
you can't ignore, given the information that you're looking at 
at the time and you have to put it into a context.
    And that's part of our job, to look at both classified and 
unclassified information and bring it together to form a 
picture, that's part of our role that we do in terms of 
analysis. And when we bring that to the attention of our 
management, we expect them to take it seriously and admittedly, 
I never received responses.
    Mrs. Chenoweth. Well, in fact, you've testified that you 
were contacted by a Deputy Assistant Secretary public affairs 
for information regarding the satellite waiver case. Wasn't it 
unusual for someone of his level to contact you or your 
division regarding a matter of this magnitude?
    Mr. Maloof. I thought it was unusual. And it sent a signal 
to me at least that something was wrong here, that there was 
something going on, in effect bypassing the process, and I have 
to say, in many cases, I have expressed opinions about cases. 
And I have been overturned on them.
    I don't go raising Cain about things, but in this case I 
did inform our management, and I began to wonder why this 
Assistant Secretary was coming to me with this question. It was 
part of that picture of things--of information we were 
receiving and had already had.
    Mrs. Chenoweth. Well, when he told you that the Secretary 
was blindsided by the events surrounding the story, what was 
your reaction? I mean, you know, didn't you think it was 
strange that the Secretary didn't already know about this?
    Mr. Maloof. I personally did. And I know in previous 
administrations we have informed the Secretary of these kinds 
of cases. The priority of technology transfer was considered 
particularly by Mr. Weinberger to be held paramount. I was very 
surprised. And, in fact, we have not had an export license case 
actually go to the Secretary during this administration.
    Mrs. Chenoweth. Thank you, Mr. Maloof. I have a lot more 
questions for you, but if the chairman would indulge me I would 
like to just submit them in writing.
    Mr. Burton. Without objection so ordered. And we will ask 
you gentlemen to respond to the questions that we will submit 
to you in writing.
    And this last Mohican, would you have any time to yield to 
me, maybe 10 seconds or 15?
    Mr. Souder. Yes, I will try to go fast in my others.
    Mr. Burton. This is the last of the Mohicans, 
Representative Souder.
    Mr. Souder. The Hoosier Mohican.
    A couple of things, one is that Mr. Waxman earlier raised 
the very difficult question about how we react with certain 
members of our staff, and we've dealt with this in the Travel 
Office in this committee where we heard it was no big deal, but 
in fact they were reinstated, but these are nuclear secrets. 
This isn't a matter of policy disagreements, as I understand, 
Mr. Maloof, you are Chief of Technology Security Operations, 
Defense Threat Reduction Agency. Dr. Leitner is Senior 
Strategic Trade Advisor for Defense Threat Reduction Agency, 
Mr. Fox is a Defense Special Weapons Agency Arms Controls 
Specialist. Colonel McCallum is Director, Office of Safeguards 
and Security.
    If you all are having concerns about security, this isn't 
just a policy disagreement. And we also have hindsight being 
valuable here, the fact that you were right, that in fact the 
secrets did get out through visitors, that we in fact have had 
security lapses. And looking at this in hindsight, it should 
get us to look more carefully at the whistleblowing options, 
how to have this and, at the very least, revoke the type of 
procedures that have been taken.
    But there was another thing that intrigued me, Dr. Leitner, 
and you made this point several times, and in your testimony, 
you developed it further about the fact that the United States 
doesn't have a modeling simulation and research branch that 
would be dedicated to conducting cumulative and technical 
impact assessments. That came up quite frankly in Mr. Fox's 
memo. That's the same type of thing. It looks kind of so this 
isn't any big deal in the trade question.
    You also bring the Department of Defense in for some 
scathing reviews, and actually were fairly kind to the Commerce 
Department. But I wanted to read something from the Cox report 
that I found--one of the more disturbing things--I mean it's 
about every page is disturbing, this was in volume 3, page 74, 
75, and 76 in this unanimous report, it talks about--Dr. 
Leitner, in your testimony, you say that 1995 we had these 
computers suddenly jump up from 2 to 7,000 that could be 
moving.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2262.117
    
    [GRAPHIC] [TIFF OMITTED] T2262.118
    
    [GRAPHIC] [TIFF OMITTED] T2262.119
    
    [GRAPHIC] [TIFF OMITTED] T2262.120
    
    [GRAPHIC] [TIFF OMITTED] T2262.121
    
    Mr. Souder. And interesting in that time period, I think 
the President changed it in October 1995, John Huang was 
actually the person who was in charge. He was a Deputy 
Assistant Secretary, not in charge, as Deputy Assistant 
Secretary for International Economic Policy, and in the report, 
which I'm going to read, so I'm not accused of editorializing, 
it says ``During the 18 months he was at Commerce, Huang called 
the Lippo Bank 232 times,'' which had been implicated with 
China Aerospace and other front organizations, ``in addition to 
29 calls or faxes to Lippo Headquarters,'' and this isn't a 
Republican report by the way, this is a unanimous Republican-
Democrat report. ``Huang also contacted Lippo consultant Maeley 
Tom on 61 occasions during the same period. Huang's records 
show 72 calls to Lippo joint venture partner C. Joseph 
Giroir.''
    Now, on page 75 is my favorite line, it says leading up to 
this, ``During his tenure at the Commerce Department,'' while 
he was overseeing in the area of the technology transfer, that 
you all have been raising concerns about, it says he ``used a 
visitor's office across the street at the Washington, DC branch 
of Stephens, Inc.,'' an Arkansas based brokerage firm with, 
``significant business ties to the Lippo Group.'' Stephens 
employees indicated that these visits were short in duration. 
Huang used this office ``two, three times a week most weeks, 
making telephone calls and `regularly' receiving faxes and 
packages addressed to him,'' and then my favorite line, ``No 
one at the Commerce Department, including Huang's secretary, 
knew of this additional office.''
    Now, this ought to just panic quite frankly most Americans 
and those of you in the security business because you're seeing 
this banged around between the different departments and the 
security arrangements. And here we have a person who 
unbeknownst even to his office is working in cahoots with 
another group, we don't know whether secrets he was getting in 
the briefings that you all were--classified briefings. This 
company has been linked with the very companies that you all 
were sending warnings up about.
    And then, Dr. Leitner, you say, but the Commerce Department 
was good compared to the Defense Department, and you scared me 
to death. Would you----
    Dr. Leitner. I didn't mean the Commerce Department is good. 
I mean that the greatest degree of change that has occured in 
the export control process has occurred in the Defense 
Department. The Defense Department traditionally has been the 
conservative anchor of the process who looked at national 
security and is indeed charged with making the national 
security argument.
    It has, and I testified about this repeatedly, it has 
failed its mission, it does not--it has not safeguarded 
national security to the extent it should. The Commerce 
Department is basically blithering along and doing the same 
thing it always has done. The fact that they had Mr. Huang 
there is something of great concern. I never had any contact 
with him, and I don't know what he was doing, what kind of 
secret offices he had.
    But for the aspect that I saw of the process, the greatest 
degree of change came in the realm of the Defense Department, 
and it came when a whole bunch of people arrived at the 
beginning of the administration who represented the antithesis 
of export control. When they came in, they inherited the 
process.
    They were given power over a program which they didn't 
support even during the height of the cold war. So that's where 
the real big change came, along with spying, you can talk about 
the role of Ron Brown as well being so activist and all the 
rumors about him. But that's a separate issue, I think, from 
the argument I have been making.
    Mr. Souder. I thank you all. And my concern is that history 
will show you've been correct, which is good for all of you. 
History will show that you've been correct, which is bad for 
the country. I yield back the balance of my time.
    Mr. Burton. Thank you very much, Representative Souder. I 
would just like to add for the record one statement. I will 
read it quickly, and then we will move to put the committee in 
executive session. On May 21, 1999, Colonel McCallum's counsel, 
David Tripp, met with Mary Ann Sullivan, the Department of 
Energy General Counsel, who is a political appointee, to 
discuss McCallum's options. She said that McCallum had made 
things difficult for them by talking to Congress. According to 
McCallum's attorney, Sullivan said that if DOE was not able to 
find McCallum in violation of rules regarding classified 
information, that another way would be found to remove him. 
Sullivan has refused to be interviewed by Government Reform 
Committee staff.
    We will talk to Ms. Sullivan at some point in the future 
about this.
    I now move that the committee proceed in executive session. 
All those in favor of the motion will signify by saying aye. 
All those opposed signify by saying no. In the opinion of the 
chair, the ayes have it, and the motion is agreed to.
    So we will proceed in executive session since we will be 
discussing sensitive information with the witness Dr. Henson. 
Therefore, I will ask the committee to reconvene in a swept 
room, room 2247, and only Members and committee staff should 
attend the executive session and only those who have proper 
clearance. Thank you very much.
    [Whereupon, at 4:15 p.m., the committee proceeded to 
further business in executive session.]


</pre></body></html>
